<html>
<title> - TRANSITION AND IMPLEMENTATION: THE NASA AUTHORIZATION ACT OF 2010</title>
<body><pre>[Senate Hearing 111-1111]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1111

                    TRANSITION AND IMPLEMENTATION: 
                   THE NASA AUTHORIZATION ACT OF 2010

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 1, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-257 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 1, 2010.................................     1
Statement of Senator Nelson......................................     1
    Prepared statement...........................................     1
    Prepared statement of Hon. Orrin G. Hatch....................     2
Statement of Senator Hutchison...................................     4
Statement of Senator Vitter......................................     5
    Prepared statement...........................................     6
Statement of Senator Begich......................................     7
Statement of Senator Warner......................................    33
Statement of Senator LeMieux.....................................    35
Statement of Senator Cantwell....................................    36

                               Witnesses

Hon. John P. Holdren, Ph.D., Director, Office of Science and 
  Technology Policy, Executive Office of the President of the 
  United States..................................................     8
    Prepared statement...........................................    10
Hon. Elizabeth M. Robinson, Chief Financial Officer, National 
  Aeronautics and Space Administration...........................    12
    Prepared statement...........................................    13
Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management; and Susan A. Poling, Managing Associate General 
  Counsel, U.S. Government Accountability Office (GAO)...........    21
    Prepared statement...........................................    22

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    47
Response to written questions submitted to Hon. John P. Holdren, 
  Ph.D. by:
    Hon. Kay Bailey Hutchison....................................    47
    Hon. David Vitter............................................    49
    Hon. Orrin G. Hatch..........................................    50
Response to written questions submitted to Hon. Elizabeth M. 
  Robinson by:
    Hon. Kay Bailey Hutchison....................................    51
    Hon. Maria Cantwell..........................................    59
    Hon. Mark Begich.............................................    63
    Hon. Roger F. Wicker.........................................    63
    Hon. Orrin G. Hatch..........................................    64
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to Cristina T. Chaplain..............................    65
Letter dated December 7, 2010 to Hon. David Vitter, from John P. 
  Holdren, Director, Office of Science and Technology Policy, 
  Executive Office of the President..............................    67

 
                    TRANSITION AND IMPLEMENTATION: 
                   THE NASA AUTHORIZATION ACT OF 2010

                              ----------                              


                      WEDNESDAY, DECEMBER 1, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:33 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. I am going to invite all the 
witnesses to come up to the table.
    And without objection, a statement from Senator Hatch on an 
opening statement will be entered.
    [The prepared statements of Senators Nelson and Hatch 
follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    We are here this morning with a plan in hand--the NASA 
Authorization Act of 2010--a plan agreed to unanimously by this body, 
overwhelmingly in the House, and with a signature from the President. 
OUR collective plan builds upon our fundamental national drive to 
explore, discover, and expand a human presence across new frontiers.
    For our nation's civil space program, this has indeed been a 
challenging year. We are in the midst of a major transition to retire 
the Space Shuttle and develop a new architecture for the human 
exploration of space. One thing has become very clear during this 
transition: people care passionately about our nation's space program 
and we have channeled our collective passion for NASA into a clear 
blueprint for the agency's future.
    With competing national interests and a difficult fiscal 
environment, now, more than ever, is the time for a new way of doing 
business--a results-oriented and cost-effective way forward. This law 
gives NASA the tools it needs to do just that. Building off of existing 
resources and knowledge, NASA can fulfill our nation's aspirations 
while avoiding the management and financial pitfalls of the past.
    The bipartisan NASA Authorization Act of 2010 codifies our shared 
vision. The Act directs NASA to develop a new heavy-lift launch vehicle 
and multipurpose crew vehicle to explore beyond low-Earth orbit; 
extends the mission of the International Space Station through at least 
2020; adds a Space Shuttle mission to reduce the gap in our access to 
and from the space station; makes use of American innovation in the 
commercial rocket industry; and maintains our commitment to 
aeronautics, scientific research, and educating the nation's future 
explorers.
    NASA itself has two sayings that I think are relevant to the topic 
of today's hearing. The first is to ``show results soonest.'' The 
Authorization Act is the roadmap to get us moving out on the new plan. 
The second is ``hardware wins.'' This means that action trumps studies 
on paper. We have studied, we have reviewed, we have evaluated. Now 
it's time to DO. I would like to welcome our witnesses and thank them 
for joining us here today to discuss what needs to be done for the most 
effective transition and implementation of the Authorization Act.
    Dr. Holdren is the President's Science Advisor and Director of the 
Office of Science and Technology Policy. Dr. Holdren, I look forward to 
hearing from you on how the administration intends to implement our 
shared vision outlined in the Authorization Act. Consistent top-level 
leadership is vital during this transition period.
    Dr. Beth Robinson is NASA's Chief Financial Officer. Dr. Robinson, 
this is the first time you have testified in front of this committee 
since your confirmation hearing over a year ago. As NASA moves forward 
with the implementation of the Authorization Act under a Continuing 
Resolution, yours is a most difficult task indeed. It is critical that 
the Administrator receive the best financial advice, and while we are 
encouraged by improvements in the agency's most recent independent 
audit, the major cost and schedule overruns for the James Webb Space 
Telescope program are of great concern. I hope to hear your perspective 
as NASA's CFO how the Agency intends to improve its financial 
management for successful implementation of the new law.
    Ms. Cristina Chaplain is the Director of Acquisition and Sourcing 
Management at the U.S. Government Accountability Office, and she is 
joined by Ms. Susan Poling, the Managing Associate General Counsel at 
GAO. Ms. Chaplain and Ms. Poling, your work over the past few years has 
provided guidance and recommendations for NASA to improve continuing 
financial and management difficulties. For that, this committee thanks 
you. I look forward to your latest assessment and expertise.
                                 ______
                                 
   Prepared Statement of Hon. Orrin G. Hatch, U.S. Senator from Utah
    Senator Nelson, Senator Hutchison and members of the Senate 
Commerce Committee, thank you for affording me this opportunity to 
share my thoughts regarding the implementation of the 2010 NASA 
Authorization Act.
    First, I want to reiterate my gratitude to Chairman Rockefeller, 
Senator Nelson, and Senator Hutchison, for all of their hard work in 
making the NASA Authorization Act a reality. I also wish to thank the 
Committee's staff members: Ann Zulkosky, Brian Hendricks, Tom Cremins, 
and Jeff Bingham, for their tireless efforts ensuring all stakeholders 
concerns were addressed.
    The NASA Authorization Act might not be the perfect solution to all 
of the issues surrounding manned space flight, but it provides our 
nation with a strong plan--a plan embedded in law--which will define 
the future of our nation's exploration of space.
    Implementation of the law will not be an easy task--it never is. 
However, the law is clear. NASA will build a new heavy-lift Space 
Launch System which can ``access cislunar space [the region between the 
Moon and Earth] and the regions of space beyond low-Earth orbit.'' 
Public Law 111-267 specifies the minimum capabilities for the Space 
Launch System. These legal requirements include ``[t]he Space Launch 
System shall be designed from inception as a fully-integrated vehicle 
capable of carrying a total payload of 130 tons or more into low-Earth 
orbit in preparation for transit for missions beyond low-Earth orbit.'' 
The law also states, ``[p]riority should be placed on the core elements 
with the goal for operational capability for the core elements not 
later than December 31, 2016.''
    In addition, Section 304 of the NASA Authorization Act seeks to 
maximize taxpayers' previous investments when developing and building 
the new launch system. Therefore, it directs NASA ``to the extent 
practicable, [to] utilize existing contracts, investments, work force, 
industrial base, and the capabilities for the Space Station . . . Ares 
1 projects, including . . . Space Shuttle-derived components and Ares 1 
components that use existing United States propulsion systems including 
. . . solid rocket motors . . .''
    These are the Space Launch Systems legal requirements. They are the 
law of the land. The requirements were crafted by the members of the 
Senate Commerce Committee after careful and thoughtful consideration 
and consultation. The law must be implemented as written.
    In addition, I have consulted with preeminent rocket experts about 
these requirements. They concluded these articulated directives for the 
development of the Space Launch System could only be realistically met 
by using solid rocket motors.
    The use of solid rocket motors in the new Space Launch System is 
also the intent of Congress. The report, which was written by the 
Senate Commerce Committee's staff, and accompanied the NASA legislation 
clearly states:

        The Committee anticipates that in order to meet the specified 
        vehicle capabilities and requirements, the most cost-effective 
        and ``evolvable'' design concept is likely to follow what is 
        known as an ``in-line'' vehicle design, with a large center 
        tank structure with attached multiple liquid propulsion engines 
        and, at a minimum, two solid rocket motors composed of at least 
        four segments being attached to the tank structure to form the 
        core, initial stage of the propulsion vehicle. The Committee 
        will closely monitor NASA's early planning and design efforts 
        to ensure compliance with the intent of this section.

    In sum, the NASA Authorization Act of 2010 was a carefully crafted 
piece of legislation. I have no doubt the members of the Commerce 
Committee, and Congress as a whole, will insist a piece of 
legislation--which passed the Senate by unanimous consent, voted on by 
the House under the suspension of the rules and signed by the 
President--should be fully and faithfully executed.
    Therefore, over the past several weeks I have been concerned by a 
number of ``trial balloons'' where it appears, some have argued, that 
NASA has been seeking alternatives to the Space Launch Systems' legal 
requirements. Accordingly, I asked NASA Administrator Bolden and Deputy 
Administrator Garver to attend a meeting of the Utah Congressional 
Delegation 2 weeks ago.
    During the meeting, Administrator Bolden stated that NASA was going 
to be in ``full compliance'' with the NASA Authorization Act. In a 
previous phone call I received a similar assurance from Deputy 
Administrator Garver. I take them at their word, and I trust that they 
will honor their word.
    Yet, I must admit I found some of Administrator Bolden's comments 
troubling. He cited funding as a concern. Yet, I believe this issue has 
been robustly addressed by the Commerce Committee. Specifically, the 
law authorizes $1.63 billion in Fiscal Year 2011, $2.65 billion in 
Fiscal Year 2012; and $2.64 billion in Fiscal Year 2013. Furthermore, 
my staff has been assured by the Commerce Committee's staff these sums 
are more than sufficient to begin the development of a heavy-lift 
system which meets the legal requirements of the law, including 
achieving an initial operational capability by December 31, 2016.
    On a related matter, I was surprised to learn some still question 
the cost of solid rocket motors as compared to other technologies. 
However, I have been assured by industry experts that solid propellant 
rocket motors, by their nature, are relatively simple in design and 
construct. Solid rocket motors provide a high energy density/high 
thrust-to-weight stage which yields an effective solution for the 
initial boost phase which is comparatively lower in cost than a liquid 
system of equivalent performance.
    In conclusion, Mr. Chairman, I believe the Commerce Committee has 
crafted an important law--that law must be implemented in a full and in 
a timely manner. Nothing less will be acceptable to me and I know 
nothing less will be acceptable to the members of this Committee.
    Mr. Chairman, members of the Committee, thank you again for the 
opportunity to discuss these matters with you.

    Senator Nelson. Again, I want to say publicly my 
appreciation to Senator Hutchison. There are moments in your 
Congressional life that you enjoy, and at the end of the day, 
you have some degree of success in achieving a legislative 
goal. And the opportunity, the privilege that I had to work 
with Senator Hutchison, where the two of us worked seamlessly 
together back in the summer, first to get the NASA 
authorization bill through this committee, and then as one of 
the last agenda items, to be able to have it pass with 
unanimous consent late at night on the last night of the 
session in August.
    And then in September, one of the last things to pass in 
the House of Representatives--I give great credit to Steny 
Hoyer who put it on the consent calendar. At the beginning of 
that last day of the House of Representatives' deliberations, 
people did not think we had the required two-thirds vote in 
order to pass the NASA bill. When the vote was tallied late 
that night, one of the last items in the House of 
Representatives, it was a three-quarters vote.
    And again, I give great credit to Senator Hutchison, as I 
have stated many times before, the sheer pleasure of working 
with her and trying to correct the misstatements, the incorrect 
information, sometimes the mischief that was directed at the 
NASA authorization bill.
    And so now we have a bill that has been signed into law. It 
is the law, and the purpose of this hearing is to have these 
very erudite folks explain to us the implementation of the law. 
We do this in this full Commerce Committee hearing not only in 
our oversight capacity to oversee the implementation of laws in 
the Executive Branch of government, but we do it also given 
some of the uncertainties that we face, the uncertainty of the 
actual funding level since we are well into the new Fiscal 
Year. And yet, we have a road map. We have a blueprint of what 
NASA can, should, and will do over the course of this fiscal 
year. And we are going to flesh that out in the course of this 
hearing. We are going to flesh it out as we see what is done in 
appropriations with a continuing resolution or an omnibus 
appropriations or whatever it is because something has to be 
passed because the U.S. Government has to continue to function.
    But this authorization bill is more than that. It is a 3-
year authorization because on a program like the space program, 
you simply have to give direction over a long period of time. 
And that direction is now law.
    So with that, let me turn to the lady who has been such a 
great partner. Thank you, Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Hutchison. Well, thank you, Mr. Chairman. I 
certainly appreciate what you have said and agree that we 
worked hand-in-hand, hand-in-glove, completely together in a 
bipartisan way, helped by Senator Vitter, Senator Landrieu from 
Louisiana, from many of our colleagues, Senator LeMieux from 
Florida, Senator Hatch who has submitted a statement, and 
Senator Bennet, Senator Shelby, and Senator Sessions, and 
Senator Cochran, of course, and Senator Wicker. So many people 
came together on a very bipartisan basis, and the law was 
passed overwhelmingly, overwhelmingly in the House and 
unanimously in the Senate.
    And it started, of course, when a plan came out from the 
President that really did not have Congressional consultation. 
That is the President's right to lay out his vision, of course. 
But we worked then from that proposal, took some parts of it, 
and rejected some parts of it, and I think came together, 
working with the Administration, in a productive way for a way 
forward that would have both Congressional support and with the 
consent of the President, who did sign the bill.
    I think that the Chairman and I and many others are 
concerned about some of the delays in implementation, and if I 
had to summarize my view, it would be that delay could cost 
success. If we are going to succeed in the new launch vehicle, 
we have to have a design based on as much of the technology 
that has already been developed and tested as possible, and 
certainly the heavy lift booster and capsule design has to be 
the first priority. And if there are any concerns about that 
implementation or if there are impediments to it, we want to 
know right now because we do still have the opportunity to put 
other words in the law if that is what it takes. But in order 
to succeed, we must be able to count on the Administration 
fulfilling the requirements of the law and working with 
Congress in a collegial spirit, I hope, to do what the 
direction is that has been passed overwhelmingly by Congress 
and, of course, signed by the President.
    We are going to have hearings. We are going to have 
oversight, and I would say that any of us are available, going 
forward, to hear the impediments, if there are impediments, 
right up front as opposed to getting reports from other sources 
that there are some in the industry who would like to only 
implement the original plan of the President and some within 
the agency who might have that view. The original plan is not 
now the law of the land. And so we want to work in a spirit of 
cooperation.
    I will just end by saying that space exploration is part of 
the golden history of this country. It is also essential to our 
future. If we are going to use the International Space Station 
in a productive way, if we are going to innovate, create, have 
the capability to look into things like sources of energy, that 
can best be done at the space station or beyond, and we are 
going to have to go forward with the plan that has been put 
forward by Congress and signed by the President for us to be 
successful. If it is dragged out and we do not have a design 
and we do not have a budget that would meet the test of the 
design, we could lose the whole thing and see other countries 
take precedence over America in the exploration of space.
    So, I hope that we learn something today that either says, 
yes, we are all full steam ahead, yes, we are going to use all 
the brains in the agency to put together the budget that will 
allow our new design and our goals that I know are similar to 
go forward and succeed, or if there are impediments, what are 
they? Let us work on them together.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Vitter?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. I certainly join 
in your and Senator Hutchison's remarks and thank you both for 
your leadership on this issue. It has been a pleasure for me to 
work with you all and others, including on the authorization 
bill.
    I was very pleased with that outcome as well, but now we 
need to implement that bill, and really the question at this 
hearing is, is the Administration going to be a full, active, 
positive partner in implementing that bill? That is the 
question. I think that is exactly what Senator Hutchison was 
talking about.
    From my perspective, the evidence so far is that the answer 
is no, and I hope to God that changes, and I hope to God I am 
wrong. But quite frankly so far, the evidence is not there that 
the Administration wants to be a full, active, positive 
partner.
    Now, I know from reading your testimony, that there is 
concern specifically about language in last year's 
appropriation bill prohibiting the cancellation of 
Constellation programs and starting new programs. Let me say 
that all of us are working on language to correct that and to 
take away any impediment that provides what we hope to insert 
in a CR or an omnibus bill or whatever. So I think we are all 
on the same page working on clarifying language.
    Having said that, I really think pointing to that language 
and justifying a lot of inactivity so far on that--I am not 
saying that language is irrelevant, but I really think it is 
largely an excuse. I mean, the irony is pretty clear. Before 
this new authorization bill, the Administration was doing 
absolutely everything it could administratively to shut down 
Constellation programs. Now, after the new authorization bill 
has passed, the Administration is pointing to that language 
saying, oh, we cannot possibly end Constellation and stop those 
programs, essentially arguing exactly the opposite.
    Now, again, I am not saying that language does not have 
some effect, does not impose some limits, but I think the 
Administration could be doing a whole lot more implementing the 
vision of the new authorization bill if it were really 
committed to do that. And I think what we are here today to 
talk about is that level of commitment and how we move forward 
on the same page to implement that vision in the authorization 
bill. Again, I think so far the evidence is that the 
Administration is not there, but I hope that is wrong and I 
hope that changes. And I am eager for that to change and 
certainly committed to working on anything we need to work on 
legislatively to clear away any remaining hurdles like the 
language from last year's appropriation bill.
    So that is what I came to talk about and to hear from these 
key Administration officials.
    Thank you for calling the hearing, and I look forward to 
the discussion.
    [The prepared statement of Senator Vitter follows:]

  Prepared Statement of Hon. David Vitter, U.S. Senator from Louisiana
    Thank you, Mr. Chairman, for calling this hearing today. And thank 
you to our witnesses for appearing before this committee. I hope that 
we can have a forthright and open dialogue, and I'd like to place 
particular emphasis on those words, about what NASA is doing to move 
forward with implementing the provisions of the 2010 Authorization Act, 
and what, if anything, Congress needs to do to address any possible 
contradictions in existing law impeding that implementation.
    Reading the written testimony of our witnesses, it is clear that 
they believe they are hindered from moving forward with implementing 
the programs outlined in the Authorization Act by language in last 
year's appropriations bill prohibiting the cancellation of 
Constellation programs and the starting of new programs. If that is 
indeed the case, then let me assure NASA now that my colleagues and I 
will work together to find a solution to fix that discrepancy.
    That being said, I want to brace those here today from NASA, and 
all those at NASA HQ who are not present, for what I am about to say, 
because I intend to speak quite frankly and quite harshly.
    I mentioned earlier that I want these proceedings to be forthright 
and open, and I stress that because, quite frankly, in the course of 
the past year the NASA leadership has been anything but forthright and 
open in its dealings with Congress. I would, in fact, argue that there 
are those within NASA's senior management who have done everything 
within their power to thwart the will of Congress and the word of law 
and instead advance their own agenda. I am deeply concerned that what 
we are witnessing here today, and the arguments being made about why 
NASA has not moved forward with implementing the programs the 
Authorization Act directs them to--even if technically correct--are 
simply more of the same stonewalling and recalcitrance to follow 
Congress' direction that we have sadly become all too accustomed to in 
the past year.
    I find the fact that NASA is now claiming that it cannot currently 
move forward with the development of the Space Launch System prescribed 
in the Authorization Act because it cannot terminate existing 
Constellation programs particularly bemusing. I say that because, as 
everyone here well knows, in the time between the President's announced 
FY 2011 budget for NASA and the passage of the Authorization Act, NASA 
was doing everything it could to shut down Constellation programs, 
despite Congress giving them no approval to do so, without technically 
terminating them. I am of course referring to the agency's excuse of 
using the Anti-Deficiency Act and the tool of termination liability, 
mentioned often before in this chamber, to effectively shut down 
production on Constellation programs without technically terminating 
them. The GAO report on the matter may have found that doing so was 
within the limits of the law since the programs were not technically 
terminated, but the intent behind the actions was clear--to kill 
Constellation before Congress had given its blessing to do so.
    Now here we are, with an Authorization Act specifically describing 
NASA's way forward for developing our next generation of human space 
flight, an act that was passed by an overwhelming majority of Congress 
and endorsed by the President and is now law, and NASA is now claiming 
that it cannot move forward because it cannot legally terminate 
Constellation programs, the very programs it has been using termination 
liability in the past several months to try and stop production on. You 
can see how one could find this amusing, if it wasn't also so 
infuriating.
    It's infuriating because it shows, I believe, a troubling pattern. 
It shows me that there are those within NASA's leadership that will do 
anything and use any excuse available to them to do anything but what 
Congress directs them to do, who believe that they simply know better 
than anyone else what the way forward should be, and whose ideas for 
what NASA's role should be do not necessarily even include human space 
flight and space exploration as a priority, even though that is the 
founding mandate of the agency.
    I fear that what we have is a cabal within NASA that is determined 
to do everything possible to prevent the development of the Space 
Launch System the Authorization Act directs them to proceed with within 
the timetable the law clearly stipulates. I would point to the reports 
we are now hearing that NASA is assessing acquisition strategies for 
the multi-purpose crew vehicle defined in the Authorization Act.
    This is concerning on a number of levels, first and foremost 
because the Act clearly defines and identifies--and I know this because 
I personally insisted on this language--the multi-purpose crew vehicle 
as being a continuation of the Orion Crew Capsule. The law also states 
that NASA shall extend and modify existing contracts to facilitate the 
timely development of the Space Launch System. What purpose then could 
beginning a new procurement process for the crew vehicle serve, 
especially when Orion is so far along in development and, as recently 
announced, will be ready for an unmanned test flight in 2013? It only 
serves one purpose, to indefinitely delay the development of the Space 
Launch System so as to make meeting the conditions of the Authorization 
Act impossible. Besides being a gross violation of the law that clearly 
states that Orion is the crew vehicle for the Space Launch System, it 
shows, at best, a gross incompetence on the part of NASA management, 
and, at worse, a willful attempt to thwart the law and the direction of 
Congress.
    Having said all that, I would now like to call on the 
Administration to take these things into consideration and decide if it 
is indeed serious about supporting the path set forward in the 
Authorization Act. If it is, then I would recommend that the 
Administration take a long hard look at NASA management and take into 
consideration that changes are in order. There are a group of people 
within NASA management whose continual attempts to outflank Congress 
and the law has created, at best, a strained relationship with its 
members, and, at worst, a toxic one. Their actions and attitudes have 
simultaneously led to a precipitous drop in the morale of the NASA 
workforce to historically low levels. In order for NASA to come back 
strong again, restore morale, move forward unhindered with the 
development of the Space Launch System defined in the Authorization 
Act, and repair the relationship with Congress so that this body and 
the agency are working together, not against one another, I believe it 
is imperative that the persons within the agency's management 
responsible for causing all this discord be immediately identified and 
removed. Only then can the agency be prepared to move forward to a 
brighter future.
    Thank you, Mr. Chairman.

    Senator Nelson. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, I do not have any comments. I 
am anxious to hear how they are doing the implementation and 
their presentations.
    Senator Nelson. Well, I just want to comment, Senator 
Vitter, that unfortunately I think your comments are well 
founded. Your concerns are well founded because there were too 
many times in the course of building consensus to pass it in 
this committee with the legislative clock running out, pushed 
up against the August work recess; and then the same thing 
repeating itself again in the House of Representatives running 
up against the legislative clock, going right up to the end, 
that we found too many times in the attempts of building 
consensus that there was too much evidence that the 
Administration was not helping. Now, I might say that was not 
from the highest levels of the White House. To the contrary, I 
found it elsewhere.
    And that brings us to the table today to--now that the 
President supported this bill, in the Committee, on the floor, 
and then through the situation in the House where we had run 
out of time, we did not have time to sit down and negotiate 
differences between the House and the Senate, and they ended up 
being in the position of having to accept the Senate bill or no 
bill. And I give great credit to Chairman Bart Gordon and 
Ranking Member Ralph Hall. Without their leadership, this never 
would have happened. And yet, we were finding forces that were 
trying to undo us.
    Now, this is history. We passed it. The President signed it 
into law, and now we want that law implemented. And given the 
uncertainties of the funding, which I think at the end of the 
day is going to be less uncertain than you would think because 
this authorization bill authorizes $19 billion in Fiscal Year 
2011, and if we just get a continuing resolution of Fiscal Year 
2010, NASA's funding there is $18.7 billion. That is, in this 
context of this economic recession that we are in, $300 million 
less than a $19 billion authorization. That is 1.67 percent 
less than the total authorization. We want to see this law 
implemented without a lot of griping and moaning and groaning 
if we are able to get that kind of appropriation.
    So it is in that spirit that we come here to the table for 
this hearing, and we are very honored to have the President's 
Science Advisor, Dr. Holdren; Beth Robinson, the Chief 
Financial Officer of NASA; Cristina Chaplain, Director of 
Acquisition and Sourcing Management from GAO, accompanied by 
Ms. Susan Poling. So we are going to ask for your comments. If 
I could ask you all to keep your comments somewhere around 5 
minutes, and then we can get into the give-and-take that this 
committee likes to do.
    So, Dr. Holdren, welcome.

      STATEMENT OF HON. JOHN P. HOLDREN, PhD., DIRECTOR, 
 OFFICE OF SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF 
               THE PRESIDENT OF THE UNITED STATES

    Dr. Holdren. Well, Chairman Nelson, Ranking Member 
Hutchison, members of the Committee, I am happy to be here 
today to discuss America's future in space and how to maximize 
the probability of success following the recent passage and 
signing of the 2010 Authorization Act for NASA.
    Under the direction provided by that legislation, NASA will 
be entering a new era of innovation, of exploration, of 
discovery. And I want to commend and thank Chairman Nelson and 
Ranking Member Hutchison and, indeed all of the members of the 
Committee and your staffs for the work you did in forging the 
key agreements that were necessary to get this legislation done 
and for the work you did to bring it into effect.
    When I testified before this committee in May, I talked 
about the President's strategy for U.S. human exploration 
activities in space as reflected in his Fiscal Year 2011 budget 
request and further elaborated in the speech he gave in Florida 
at the Kennedy Space Center on April 15. That new approach, as 
you know, included fostering the development of path-breaking 
new technologies, partnering with industry in new and more 
effective ways, advancing innovation and scientific discovery, 
pursuing human exploration of space with a more flexible, 
achievable, and affordable set of goals, and of course, 
addressing the overarching need to match program goals with 
resources. That approach was developed in order to take us to 
more places sooner but also more affordably, while spurring the 
creation of new industries, new technologies, and jobs.
    The 2010 NASA Authorization Act that you folks worked so 
hard to bring about represents a crucial step forward toward 
achieving the President's goals and I think the country's goals 
in this arena, including extending the International Space 
Station effort until at least 2020 and supporting the goal of 
using that research outpost effectively; including helping to 
advance a U.S. commercial crew transportation industry that can 
become the primary means of access to the International Space 
Station, thereby harnessing the nation's entrepreneurial 
energies in more effective ways, and creating new jobs while at 
the same time, of course, meeting a critical national need; 
including accelerating the development of a heavy lift vehicle 
relative to what was planned under the Constellation program; 
including reinforcing an approach to human space exploration 
that will enable us to reach a range of destinations, including 
near-Earth asteroids, the moons of Mars, and eventually Mars 
itself; including initiating a new space technology program to 
increase our capability and decrease the cost of these 
activities; including supporting the President's proposal to 
modernize the space launch complex in Florida which will help 
those facilities more effectively support future NASA, other 
government, and commercial launches; including supporting a 
revitalized program in earth science, enabling NASA to develop 
new satellites and other capabilities that are priorities in 
our efforts to enhance U.S. leadership in global climate change 
research; including authorizing a robust aeronautics research 
program that will invest more in green aviation and in a more 
efficient national air transportation system which will help to 
promote both the economic and the environmental health of this 
country.
    This important change in direction not only helps to chart 
a new path forward in space, it also helps us invest in the 
foundation for the skilled jobs and industries of the future. 
At the same time, it furthers our goal of placing NASA's 
programs on a more stable footing and enhancing the long-term 
sustainability of those efforts. As with any space-related 
endeavor of the scope and complexity of those outlined in the 
Authorization Act, there will be, of course, technical, cost, 
and programmatic challenges going forward as the projects are 
undertaken and future appropriations are provided.
    Indeed, obviously, a lot of work lies ahead in terms of 
translating this important new law into programmatic success. 
One immediate challenge, as has already been noted, is the 
current lack of appropriations for Fiscal Year 2011, and the 
Administration very much hopes that Congress will act swiftly 
to provide the funding and budgetary guidance that will enable 
NASA to fully implement the direction provided in the NASA 
Authorization Act of 2010 and bring that new plan to fruition.
    Whatever the challenges that may be faced, I am confident 
that Administrator Bolden and the dedicated men and women of 
NASA's workforce have the commitment, the wherewithal, and the 
passion that will be needed to pursue those initiatives and 
continue to make progress toward achieving our ambitions in 
this renewed journey of innovation and discovery in space. I am 
looking forward to continuing to work with Administrator Bolden 
and the other involved offices and agencies in the government 
as NASA moves to develop more detailed implementation and 
acquisition approaches in the months ahead.
    Let me close by reiterating that this Administration, 
starting with President Obama himself, remains steadfast in our 
commitment to space exploration and to NASA's mission. As the 
President said in his speech at the Kennedy Space Center--and I 
now quote, ``I am 100 percent committed to the mission of NASA 
and its future. Because broadening our capabilities in space 
will continue to serve our society in ways that we can scarcely 
imagine. Because exploration will once more inspire wonder in a 
new generation--sparking passions and launching careers. And 
because, ultimately, if we fail to press forward in the pursuit 
of discovery, we are ceding our future and we are ceding that 
essential element of the American character.''
    The Administration looks forward very much to continuing to 
work with this committee and the rest of Congress to achieve 
our shared goals and ambitions in space as we move forward with 
these programs.
    Thank you very much.
    [The prepared statement of Dr. Holdren follows:]

Prepared Statement of Hon. John P. Holdren, Ph.D., Director, Office of 
Science and Technology Policy, Executive Office of the President of the 
                             United States
    Mr. Chairman, Ranking Member Hutchison, and members of the 
Committee, I am pleased to appear before you today to discuss America's 
future in space and our ability to maximize the probability of success 
following the recent signing of the 2010 Authorization Act for the 
National Aeronautics and Space Administration (NASA). Under the 
direction provided by this legislation, NASA will be entering a bold 
new era of innovation, exploration, and discovery. I would like to 
commend Chairman Nelson and Senator Hutchison in particular for your 
efforts in forging the key agreements necessary for this legislation 
and ultimately helping to bring it into effect.
    When I testified before this Committee in May, I laid out the 
President's ambitious new strategy for U.S. human exploration 
activities, as reflected in his FY 2011 budget request and further 
elaborated in his landmark speech at the Kennedy Space Center in 
Florida. This new approach included fostering the development of path-
breaking new technologies; partnering with industry in new and more 
effective ways; advancing innovation and scientific discovery; pursuing 
human exploration with a more flexible, achievable, and affordable set 
of goals; and of course addressing the over-arching need to match 
program goals with resources. This new approach was developed in order 
to take us to more places sooner but also more affordably, while 
spurring the creation of new industries, technologies, and jobs that 
will be vital for long-term economic growth.
    The 2010 NASA Authorization Act represents a critical step toward 
achieving the President's goals in this arena, including:

  <bullet> Extending the International Space Station (ISS) effort until 
        at least 2020 and supporting the goal of using this research 
        outpost effectively; as the President proposed, the ISS can be 
        a platform to further science and technology innovation, foster 
        the creation of new industries, and help advance human 
        exploration;

  <bullet> Helping to advance a U.S. commercial crew transportation 
        industry that can become the primary means of access to the 
        ISS, thus harnessing our nation's entrepreneurial energies in 
        more effective ways and creating new jobs, while also meeting 
        an important national need;

  <bullet> Accelerating a heavy lift vehicle development effort 
        relative to what was planned under the Constellation program;

  <bullet> Reinforcing an approach to human space exploration that will 
        enable us to reach a range of destinations including Lagrange 
        points, near-Earth asteroids, the moons of Mars, and eventually 
        Mars itself;

  <bullet> Initiating a new space technology program to increase the 
        capability and decrease the cost of NASA, other U.S. 
        government, and commercial space programs;

  <bullet> Endorsing the Summer of Innovation education initiative 
        proposed by the Administration;

  <bullet> Supporting the President's proposal to modernize the space 
        launch complex in Florida, which will help these facilities 
        more effectively support future NASA, other government, and 
        commercial launches;

  <bullet> Supporting a revitalized program in Earth science, enabling 
        NASA to develop new satellites and other capabilities that are 
        priorities in our efforts to enhance U.S. leadership in global 
        climate change research; and

  <bullet> Authorizing a robust aeronautics research program which will 
        invest more in green aviation and in a more efficient national 
        air transportation system, thus helping to promote both the 
        economic and environmental health of this country.

    This important change in direction not only helps chart a new path 
forward in space, it also helps us invest in the foundation for the 
skilled jobs and industries of the future. At the same time, it 
furthers our goal of placing NASA's programs on a more stable footing 
and ultimately enhancing the long-term sustainability of these efforts. 
As with any space-related endeavor of the scope and complexity of those 
outlined in the 2010 NASA Authorization Act, however, there will be 
technical, cost, and programmatic challenges going forward as these 
projects are undertaken and future appropriations are provided.
    Indeed, much work lies ahead in terms of translating this new law 
into programmatic success. One immediate challenge is the lack of 
appropriations for FY 2011. We urge Congress to act swiftly to provide 
the funding and budgetary guidance that will enable NASA to implement 
the direction provided in the NASA Authorization Act of 2010 and bring 
this new plan to fruition. As we move further into FY 2011, it is my 
hope that we can work with you in resolving this situation as quickly 
as possible.
    Whatever the other difficulties that may be faced over the long 
run, I am confident that Administrator Bolden and the dedicated men and 
women of NASA's workforce have the commitment, wherewithal, and passion 
necessary to pursue these initiatives and continue making progress 
toward achieving our boldest ambitions in this renewed journey of 
innovation and discovery in space. I look forward to working with 
Administrator Bolden, and other involved offices and agencies in the 
U.S. Government, as NASA moves to develop more detailed implementation 
and acquisition approaches in the months ahead.
    Finally, let me reiterate that this Administration remains 
steadfast in its commitment to space exploration and to NASA's mission. 
As the President said in his speech at the Kennedy Space Center:

        I am 100 percent committed to the mission of NASA and its 
        future. Because broadening our capabilities in space will 
        continue to serve our society in ways that we can scarcely 
        imagine. Because exploration will once more inspire wonder in a 
        new generation--sparking passions and launching careers. And 
        because, ultimately, if we fail to press forward in the pursuit 
        of discovery, we are ceding our future and we are ceding that 
        essential element of the American character.

    I think all of us here fully understand the space program's 
singular capacity to inspire future generations of scientist and 
engineers, and we recognize the crucial role that it plays in advancing 
scientific discovery, stimulating technological innovation, enhancing 
international leadership, and buttressing our economic vitality and 
strength. The Administration looks forward to continuing to work with 
Congress to achieve our shared goals and ambitions in space as we move 
forward with these programs.

    Senator Nelson. Thank you.
    Dr. Robinson?

            STATEMENT OF HON. ELIZABETH M. ROBINSON,

                    CHIEF FINANCIAL OFFICER,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Robinson. Thank you. Chairman Nelson and members of the 
Committee, thank you for the opportunity today to discuss how 
NASA is implementing the Authorization Act under the continuing 
resolution, otherwise known as the CR.
    Most importantly, due to the enactment of the Act, NASA has 
clear direction and has begun to move forward, and we are very 
excited and committed to the path that we are on. NASA 
appreciates the significant effort that advanced this 
bipartisan legislation, particularly efforts by the leadership 
and members of this committee. There are still details that the 
final appropriations outcome will provide, but broad outlines 
are now clear in law and that makes the road ahead much easier 
and clearer. And this is a time of excellent opportunity for 
NASA to shape the promising future for the nation's space 
program.
    There is also no doubt that this year has been challenging 
to the NASA workforce, both the civil service and contractors. 
They have put in long hours planning new missions for which 
funding was uncertain, while at the same time continuing to 
work on missions for which the future was uncertain. And still, 
NASA's workforce rose to the challenge. They always do, and it 
is to be commended for the outstanding accomplishments over 
this year. Moreover, now with the Authorization Act, the 
workforce can look forward to many more accomplishments yet to 
come.
    For the immediate future, as with other federal agencies, 
NASA is operating under a CR which can be a complex juggling 
act. First, we must read the Authorization Act and the CR in 
concert wherever possible. For example, NASA program funding 
levels below the account level are generally controlled by the 
Authorization Act.
    Second, NASA must take heed of the pending appropriations 
bills because when the final appropriation is adopted, NASA 
must apply its constraints in funding levels back to the 
beginning of the--throughout the entire Fiscal Year.
    And finally, there are specific restrictions in the CR, 
which we have already discussed. In particular, the CR 
continues any restrictions that were present in last year's 
appropriation including, in NASA's case, the prohibition on 
termination of components of the Constellation program. 
Moreover, the CR requires that work not begin on new starts, 
which is a legal term of art about which GAO has given us 
guidance in their May report, and using that guidance, we have 
been working through what is and is not a new start. And we 
have not yet found anything in the Authorization Act on which 
we cannot proceed, but we are not done with our analysis, this 
unfortunately lengthy analysis, and we are working the issue 
daily.
    However, there are some areas in which we can clearly 
proceed. For example, planning efforts for the heavy lift and 
multipurpose crew vehicle activities, both authorized in the 
Act, are proceeding and are assessing the transition from the 
Constellation efforts to the new programs. Moreover, on 
November 8, NASA announced the results of a broad agency 
announcement under which NASA selected 13 companies to conduct 
studies on various heavy lift technologies. These studies are 
focused on achieving affordability, operability, reliability, 
and commonality at the system and subsystem levels with 
multiple users, including other government, commercial, science 
and international partners.
    Further, although requirements for the multipurpose crew 
vehicle have not yet been fully vetted, NASA expects this 
vehicle to be based on the existing Orion work. The ground test 
article for Orion will be completed within the coming months, 
which is very exciting, and in early 2011, the GTA will be 
shipped to Denver for performance testing that will help 
validate the cabin design.
    Additional effects of the CR on NASA's programs are 
detailed in my written statement, but for now, Chairman Nelson 
and members of the Committee, thank you for the opportunity to 
appear before you. NASA is at the beginning of a path that will 
create opportunities and discoveries for generations, and so 
like you, NASA is very eager to get started on implementing the 
Act. Thank you and I look forward to your questions.
    [The prepared statement of Dr. Robinson follows:]

   Prepared Statement of Hon. Elizabeth M. Robinson, Chief Financial 
         Officer, National Aeronautics and Space Administration
    Chairman Nelson and members of the Committee, thank you for the 
opportunity to appear before you today to discuss the NASA 
Authorization Act of 2010 and how NASA is implementing direction in 
that Act, while NASA is operating under a FY 2011 continuing 
resolution.
    With the President's signing the NASA Authorization Act of 2010 
(P.L. 111-267), NASA has a clear direction and can begin making plans 
for moving the Agency forward. NASA appreciates the significant effort 
that has gone into advancing this bipartisan legislation, particularly 
efforts by the leadership and Members of this Committee. There are 
still details that the final FY 2011 appropriations outcome will 
provide but broad guidelines have now been enacted into law, making the 
road ahead much clearer. This is a time of excellent opportunity for 
NASA to shape a promising future for the nation's space program. Today 
it is no longer a question of IF we will explore, but how.
    The NASA Authorization Act of 2010 represents an important step 
forward in that, among other things, it:

  <bullet> Authorizes continued investment in Science and Aeronautics, 
        including an increase to accelerate deployment of important 
        Earth Science observation satellites.

  <bullet> Extends the International Space Station (ISS) to 2020 and 
        makes funding available for the NASA Launch Support and 
        Infrastructure Modernization Program.

  <bullet> Supports current commercial cargo efforts and supports 
        expanding commercial crew development activities. Facilitation 
        of the nation's commercial spaceflight sector is a key 
        component of the U.S. strategy to maintain safe and affordable 
        space exploration capabilities throughout the next century.

  <bullet> Authorizes development of a heavy-launch vehicle and 
        continues the development of a crew capsule that will transport 
        astronauts to many exciting destinations beyond low-Earth orbit 
        (LEO).

  <bullet> Authorizes a new space technology program that will provide 
        cutting-edge, transformative technologies to support our future 
        space exploration endeavors.

    There is no doubt that this year has been a challenging one for the 
NASA work force, both civil service and contractors. These men and 
women have been asked to put in long hours planning new missions for 
which funding was unknown, while at the same time, they were asked to 
steadfastly continue work on missions for which the future was 
uncertain or which were soon to be retired. Still, NASA's workforce 
rose to the challenge because they are people who make the impossible 
happen every day. They are to be commended for their outstanding 
accomplishments over this past year. And, based on enactment of the 
NASA Authorization Act of 2010, the NASA workforce can look forward to 
many accomplishments yet to come.
FY 2011 Continuing Resolution
    As noted earlier, NASA is looking forward to the completion of the 
FY 2011 appropriations process, so that the Agency can begin the 
important new work authorized by Congress.
    As with other federal agencies, NASA is operating under the 
restrictions set forth by the FY 2011 Continuing Resolution (CR). While 
NASA is funded to continue work that was already underway on programs 
and projects across the Agency, work may not begin on ``new starts,'' 
which may prevent NASA from moving forward on elements of the new 
programs and projects outlined in the NASA Authorization Act of 2010. 
Implementation of the NASA Authorization Act of 2010 provisions during 
the period of the current CR must, as a general rule, rely on existing 
authority. Each of these must be assessed on a case-by-case basis, and 
must be individually and specifically tied to prior authorization and 
appropriations acts, legislative history, and budget requests. The NASA 
Office of General Counsel (OGC) is conducting this analysis on an 
ongoing basis, and we will keep the Committee informed of our progress. 
Attached to my testimony is an assessment by the OGC which outlines the 
legal issues that need to be considered, the conclusions that have been 
reached to date, and a timeline for evaluating and reaching a 
conclusion on the critical initiatives in the NASA Authorization Act. 
To-date, however, NASA has not identified any particular activity 
authorized in the NASA Authorization Act of 2010 that would be 
considered a new start under guidelines set forth in the Government 
Accountability Office legal opinion issued on July 26, 2010 (B-320091).
    While work within Exploration may begin to address the provisions 
of the Authorization Act, the CR restrictions maintain prohibitions on 
program element terminations within the Constellation Program, which 
may eventually limit application of funding needed for key Exploration 
activities.
    In general, NASA is following several principles as we proceed 
under the FY 2011 CR:

        1. The current FY 2011 CR directs funding at the FY 2010 
        ``current rate.'' As such, NASA has released funds to all 
        programs in proportion to FY 2010 enacted controls, generally 
        at the appropriations account level.

        2. Since a CR generally provides a lump sum for each 
        appropriations account, the sub-allocations outlined in the 
        Authorization Act become the controlling factor, and would 
        continue to govern unless specifically modified by the final FY 
        2011 appropriations act.

        3. Any provisions of the NASA Authorization Act of 2010 that 
        affect NASA operations must be followed unless or until 
        modified by an Appropriations Act. The one exception is 
        Authorized provisions deemed to be ``new starts,'' if any, that 
        were not funded by a previous appropriations bill, i.e., FY 
        2010 appropriations. (See item 4 below.)

        4. All administrative and other provisions from the FY 2010 
        appropriation continue to apply and NASA cannot begin or resume 
        activities that were not funded the previous year. The FY 2010 
        Appropriations Act (Section 505) and the CR itself prohibit new 
        starts and, other than continuing low-level planning 
        activities, NASA is not providing funding for any activity that 
        may be deemed a new start until a final FY 2011 appropriations 
        bill is enacted.

        5. Exploration work can begin to address direction included in 
        NASA Authorization Act of 2010, so long as no program element 
        terminations prohibited in the FY 2010 Omnibus Appropriation 
        occur, and as long as NASA meets the restrictions outlined in 
        item 4 above.

    As programs proceed under CRs, NASA has been cognizant of what the 
House and Senate have included in their legislation with regard to the 
Agency, and we are reading the Authorization Act and the CR in concert 
wherever possible. NASA also continues to observe the FY 2010 Omnibus 
Appropriations limitations with regard to continuing work on 
Exploration activities during the period of the CR. When the final 
bills are adopted, NASA will have to apply constraints and funding 
levels in the final bill to the CR period. Therefore, during a long-
term CR, NASA must generally reserve funding to accommodate potential 
new starts and differing funding levels in the final FY 2011 
appropriations bill.
    It should be noted that NASA is also working to complete reporting 
requirements outlined in the NASA Authorization Act of 2010 as soon as 
possible. However, due to the lack of a final FY 2011 appropriations 
act, NASA's ability to complete some of those reports may be hampered 
and, as such, interim reports may become necessary. NASA will continue 
to keep this Committee apprised about our status on these reports, 
particularly if interim reports are required.
The FY 2011 CR and NASA's Exploration Programs
    As noted earlier, the FY 2011 CR is especially challenging for 
NASA's human spaceflight programs, particularly those currently managed 
by the Exploration Systems Mission Directorate (ESMD), as well as those 
that will be stood up once a final FY 2011 appropriation is received. A 
low-level planning effort is underway for robotic precursor and 
flagship missions, and commercial crew development efforts have been 
limited. Further complicating the matter is that the planning teams are 
working multiple planning scenarios for FY 2011, in anticipation of 
final appropriations outcomes.
    On August 6, 2010, initial CR guidance was provided to ESMD 
programs. At that time, the most complete programmatic and funding 
information available for FY 2011 was contained in the pending Senate 
Appropriations Report. For that reason, NASA looked to the report to 
determine priorities and funding allocations at the program/project 
levels, while capping the total budget at the $3.746B FY 2010 enacted 
level, consistent with the terms of the CR.
    For the period of the FY 2011 CR, the Agency determined that the 
monthly funding distribution during the CR period through December 3, 
2010 should support spend rates consistent with fourth quarter FY 2010 
estimated cost levels. The Constellation Program was directed to place 
the additional funding on the prime contracts. (To date, all funds have 
been or are in the process of being placed on contracts.) Note that 
this monthly funding distribution during the CR will require 
significant adjustments post-CR to meet annual marks for FY 2011.
    When the NASA Authorization Act of 2010 became law, the Agency 
adjusted CR guidance to reflect authorized priorities and funding 
distribution, while continuing to use the FY 2010 enacted 
appropriations level to set the overall spending rate for exploration. 
Also at this time, ESMD performed a reassessment of labor allocations 
across the portfolio of authorized programs, resulting in a shift 
between ``Large Developments'' (i.e., current Constellation and 
authorized Space Launch System and Multi-Purpose Crew Vehicle 
development) and ``Other Exploration'' (i.e., current and authorized 
technology, research and commercial capability development), resulting 
in a revised labor allocation for Constellation, and an increase in the 
program's annual mark from $2.265B to $2.308B (without labor).
    On October 18, 2010, ESMD issued the following guidance to the 
Constellation Program:

  <bullet> The Constellation Program should not exceed a monthly rate 
        of $243M a month through the period of the FY 2011 CR for 
        procurement and travel. However, Constellation should plan to 
        an annual control of $2.308 billion (the authorized level, less 
        labor) for procurement and travel.

  <bullet> In FY 2011 execution during the CR, the following priorities 
        that have been in place since the June re-plan are being used:

    <ctr-circle> Avoid termination of prime contracts and sustain 
            current operations (and avoid workforce dislocations) to 
            the maximum extent practicable;

    <ctr-circle> Continue development of critical capabilities, 
            technologies, and commercial services; and,

    <ctr-circle> Prioritize investments that support the initiatives 
            under FY 2011 President's budget request and the NASA 
            Authorization Act of 2010.

    Since the $243M monthly funding level (without labor) for the 
current CR period was established, actual Constellation/Large 
Development spending during September and October has been $40M lower 
than planned. This means that the program faces no funding shortfall as 
the end of the initial CR period approaches. Under a full year CR 
scenario, to meet the total authorized level, monthly funding for 
Constellation/Large Developments would need to average $182M (without 
labor) for the remaining 10 months of the fiscal year.
    Work on the heavy lift launch vehicle and multi-purpose crew 
vehicle was authorized by the NASA Authorization Act of 2010, and can 
proceed without a FY 2011 appropriations bill because it is associated 
with NASA's current Constellation Program. For example, on November 8, 
2010, NASA announced the results of a Broad Agency Announcement issued 
in May with regard to Heavy Lift and Propulsion. As part of this 
competitive solicitation, utilizing approximately $7.5M in FY 2010 
dollars, NASA selected 13 companies to conduct studies examining the 
trade space of potential heavy-lift launch and space transfer vehicle 
concepts. The BAA is focused on achieving affordability, operability, 
reliability and commonality at the system and subsystem levels with 
multiple users, including other government, commercial, science and 
international partners.
    Additionally, work on NASA's successful Commercial Crew Development 
(CCDev) initiative, which was begun in FY 2010, continues. On October 
25, 2010, NASA released a solicitation for CCDev2, seeking proposals to 
further advance commercial crew space transportation system concepts 
and mature the design and development of elements of the system such as 
launch vehicles and spacecraft. Proposals are due December 13, 2010, 
and award of multiple Space Act Agreements is planned for March 2011 
for terms of 12-14 months. However, the awards are contingent on FY 
2011 appropriations.
    Together, the CCDev1 and CCDev2 efforts will stimulate efforts 
within the industry to develop and demonstrate human spaceflight 
capabilities, which could lead to the development of commercial crew 
transportation systems--one of the highest priorities in the 
President's FY 2011 budget request. NASA is cognizant of the 
restrictions included in the NASA Authorization Act of 2010 before we 
are authorized to proceed with a full-up commercial crew development 
competition, and we are developing our commercial crew plans based on 
those directives. We also are working in an expeditious manner to meet 
the associated reporting requirements outlined in the NASA 
Authorization Act of 2010.
Other FY 2011 CR Implications
    The following is a summary of how other NASA programs are operating 
under the restrictions imposed by the FY 2011 CR:

  <bullet> Space Operations:

    <ctr-circle> Space Shuttle: Because the Shuttle continues to 
            operate based on the FY 2010 rate under the FY 2011 CR, the 
            program is able to meet all of its funding requirements 
            during the first half of the fiscal year.

    <ctr-circle> STS-135: If NASA is provided the funding, it would be 
            able to support the flight of the STS-135 logistics mission 
            to the International Space Station (ISS) as authorized 
            under the NASA Authorization Act of 2010. To best manage 
            workforce impacts, the Shuttle program needs to confirm 
            approval to add the STS-135 mission by December 2010.

    <ctr-circle> NASA Launch Support and Infrastructure Modernization 
            Program: Although the NASA Authorization Act of 2010 
            authorizes upgrades of the launch complex at Kennedy Space 
            Center (KSC), NASA is waiting for the enactment of an FY 
            2011 appropriations bill to fund this activity. A team at 
            KSC is preparing to startup this program upon receipt of 
            funding. They will select and initiate a set of projects 
            consistent with the Authorization Act direction to support 
            the Space Launch System. A report outlining the 
            implementation plan for this modernization program is due 
            to Congress no later than February 2011.

    <ctr-circle> ISS: Both the President's FY 2011 budget request and 
            the Authorization Act extended the ISS until at least 2020. 
            Required activities to support ISS life extension will be 
            performed under the FY 2011 CR and ISS research based on 
            the FY 2010 budget also will continue during the CR. 
            However, activities to increase ISS functionality will be 
            delayed until FY 2011 funding is received. During the CR, 
            SOMD will continue to plan to ramp up ISS user operations 
            and to complete assembly of the ISS. Additionally, the 
            Directorate will restructure the existing ISS utilization 
            program into three primary components: (1) international 
            partner uses; (2) NASA uses to enable future exploration; 
            and, (3) U.S. uses by organizations other than NASA. This 
            restructuring does not represent new research program 
            content given that NASA has been pursuing ISS utilization 
            in all three of these domains throughout the assembly 
            period. Finally, SOMD plans to conduct a competitive 
            acquisition for a cooperative agreement to manage a portion 
            of the research on ISS. This initiative is a continuation 
            of the existing research program under an alternate 
            management structure that includes a ``single Point Of 
            Contact'' for ISS research, consistent with specific 
            Administration and Congressional guidance. The schedule for 
            this initiative would lead to award of a cooperative 
            agreement in the May 2011 time-frame pending the 
            availability of funds within the FY 2011 appropriation.

  <bullet> Science: Plutonium-238 (Pu-238) has provided power for 26 
        different NASA missions that have flown over the years, 
        missions that have been enabled with radioisotope power systems 
        that require this particular fuel. The NASA mission to explore 
        the solar system depends upon spacecraft that rely on Pu-238 to 
        fuel their energy needs because solar power is not a practical 
        option for many missions. NASA's access to secure and reliable 
        sources of Pu-238 is endangered. Russia has suspended 
        implementation of its contract with the Department of Energy 
        (DOE) for purchase of Russia's remaining supplies of Pu-238. 
        Our existing domestic stockpile of Pu-238 is not being 
        replenished and is expected to be depleted before the end of 
        the decade. NASA and DOE have submitted to the Congress a plan 
        for restarting domestic production to provide a reliable and 
        secure supply of Pu-238. Specifically, the President's FY 2011 
        budget request proposes $30M for this purpose, $15M in the 
        request for DOE and $15M in the request for NASA. The NASA 
        Authorization Act of 2010 authorizes NASA to pursue a joint 
        approach with DOE beginning in FY 2011 toward restarting and 
        sustaining the domestic production of Pu238. However, the FY 
        2011 CR does not fund NASA or DOE to initiate the authorized 
        restart of domestic Pu-238 production. NASA and DOE will 
        require appropriation of funds for FY 2011 and beyond in order 
        to keep the supply of Pu-238, and with it the nation's 
        Planetary Science program, on track.

  <bullet> Space Technology: While Space Technology planning continues 
        during the FY 2011 CR, the Office of the Chief Technologist 
        cannot fund this work until FY 2011 appropriations are enacted. 
        This may have an impact on schedule given the time required to 
        make awards once a final appropriation is received. NASA 
        recently completed an analysis of the content of six Space 
        Technology initiatives in the FY 2011 budget request: Space 
        Technology Research Grants; NASA Institute for Advanced 
        Concepts; Game-Changing Development; Franklin Small Satellite 
        Subsystem Technology; Technology Demonstration Missions; and, 
        Edison Small Satellite Missions. The NASA Office of the General 
        Counsel concluded that they are continuations of existing 
        initiatives from prior budget requests and program 
        descriptions, with management consolidated in the Office of the 
        Chief Technologist rather than managed across other Mission 
        Directorates as was the prior practice. As such, continuation 
        of these initiatives is not subject to the current CR 
        restriction on ``new starts,'' and NASA could issue 
        solicitations for these efforts, subject to final FY 2011 
        appropriations.

    Per direction contained in the NASA Authorization Act of 2010, the 
        Office of the Chief Technologist has initiated a technology 
        roadmapping activity to guide the agency's long-term technology 
        needs and inform the National Space Technology policy called 
        for in this Act. NASA will complete development of this 
        strategic guidance through a national dialogue with industry, 
        academia and other government agencies facilitated through the 
        National Research Council. The Office of the Chief Technologist 
        anticipates the release of 14 draft technology area roadmaps to 
        the NRC and the public in December 2010.

  <bullet> Aeronautics: The Aeronautics Research Mission Directorate 
        (ARMD) has two new activities planned for FY 2011 that we are 
        eager to move forward with: the Unmanned Aerial System (UAS) 
        Integration in the National Airspace System (NAS) Project and 
        the Verification and Validation (V&V) of Flight-Critical 
        Systems sub-project, which is under the Aviation Safety 
        Program's System-Wide Safety and Assurance Technologies 
        Project. Since these activities are new, ARMD can only engage 
        in low-level planning activities until there is an enacted FY 
        2011 appropriation. These programs will benefit two segments of 
        the aviation community: the segment involved with UAS access to 
        the NAS, and the Joint Planning & Development Office. Although 
        there is stakeholder interest in both of these research 
        activities, lasting detrimental effects are not expected as a 
        result of a FY 2011 CR due to the long-term nature of the work. 
        To address near-term issues, ARMD remediation options include 
        delaying the start of these activities, which will in turn 
        delay the benefits of research results. Additionally, ARMD may 
        have to re-scope activities for FY 2011, depending on how long 
        NASA must operate under a CR.
Human Exploration Planning Efforts
    As noted earlier, the agency is reading the NASA Authorization Act 
of 2010 and the CR in concert, and we are continuing to observe any 
restrictions on new starts. However, NASA is also continuing prudent 
planning efforts to integrate new Exploration work across the Agency so 
that we are ready to move out once FY 2011 appropriations are received. 
In particular, NASA is continuing the efforts of the Human Exploration 
Framework Team (HEFT).
    HEFT was chartered in April 2010 for the purpose of establishing a 
framework for human space exploration that defines the knowledge, 
capabilities and infrastructure that NASA needs to send people to 
explore multiple destinations in the Solar System in an efficient, 
sustainable way. HEFT is not a decisionmaking body; it is intended to 
provide decision support to NASA senior leaders as they plan the 
spaceflight activities for human exploration beyond LEO. HEFT will 
inform NASA senior leadership by providing credible, consistent, 
coherent, and transparent analyses of all aspects of potential human 
spaceflight architectures. In addition to its Steering Council, HEFT 
includes an Integration Team and domain experts drawn from across NASA.
    The near-term objective for HEFT is to provide analysis to NASA 
leadership for consideration; this analysis will integrate the options, 
related priorities, and architecture implications of potential 
decisions. Per the Administrator's direction, HEFT is following three 
important principles in developing and analyzing architecture options; 
architectures must be:

        (1) Affordable during development and operations;

        (2) Sustainable over multiple years; and,

        (3) Feasible so that, in consultation with its international 
        partners and our contractors, NASA knows that it can be 
        achieved.

    HEFT is seeking one or more human spaceflight architectures that 
``close'' by satisfying key stakeholder expectations, including fitting 
within projected human spaceflight budget limits. This will enable NASA 
to proceed with developments that enable human exploration beyond LEO 
as soon as affordable, open up the inner solar system to human 
presence, and preserve planning flexibility deep into the future. The 
realization of any architecture option is, of course, subject to the 
availability of appropriated funds.
    The first phase of HEFT concluded in early September 2010, and the 
second phase will conclude in December 2010. A smaller HEFT effort may 
continue indefinitely since the human spaceflight technical and 
programmatic environment will continue to evolve. Ultimately, the goal 
for HEFT is to generate a process that evolves into a long-term, 
permanent NASA activity to support human spaceflight strategic 
planning.
Conclusion
    Chairman Nelson and members of the Committee, thank you for the 
opportunity to appear before you today to discuss the NASA 
Authorization Act of 2010 and how NASA plans to implement that 
direction. NASA appreciates all the hard work and effort that has gone 
into enacting this legislation.
    In the end, one thing is clear; even with the tremendous 
accomplishments of our past, NASA's best days are still ahead. NASA is 
at the beginning of a great adventure that will create opportunities 
and discoveries for generations and so, like you, NASA is eager to get 
started on that journey of exploration, both on our home planet and in 
the stars above.
    I would be pleased to respond to any questions that you or the 
other Members of the Committee may have.
                               Attachment
                                                   December 1, 2010
NASA General Counsel Assessment
Implementation of P.L. 111-267, the NASA Authorization Act of 2010 
        During the Current Continuing Resolution
Summary
    Under the current Continuing Resolution, the government is 
generally prohibited from commencing new projects or activities. NASA 
is therefore continuing work that was already underway on programs and 
projects across the agency, many of which were highlighted in the NASA 
Authorization Act of 2010 (P.L. 111-267). However, full implementation 
of the direction provided by that Act will be challenging if the 
restrictive language in the FY 2010 Appropriations Act (P.L. 111-117) 
and FY 2011 Continuing Resolution (P.L. 111-242) remains in effect 
throughout FY 2011. In the Exploration account under these authorities, 
NASA is strictly limited to continuing projects or activities for which 
funds were available in FY 2010. In addition, NASA is further 
prohibited from terminating Constellation program elements, or even 
contracts, meaning that NASA must, for example, continue the Orion 
program. These provisions are carried forward into FY 2011 by the 
Continuing Resolution.
    NASA is currently assessing the status of specific programs case-
by-case, and has concluded that existing authorities are sufficient to 
allow several to be funded under the CR. NASA will continue to conduct 
these assessments for purposes of implementing Authorization Act 
direction, but the outcomes will depend on the specific provisions of 
appropriations legislation enacted and in effect after the expiration 
of the current P.L. 111-242 on December 3, 2010.
Implementation of P.L. 111-267, the NASA Authorization Act of 2010
    The NASA Authorization Act provides significant new authority and 
direction for the Agency. However, as the Comptroller General has long 
maintained:

        The mere authorization of an appropriation does not authorize 
        expenditures on the faith thereof or the making of contracts 
        obligating the money authorized to be appropriated. 16 Comp. 
        Gen. 1007, 1008 (1937).

    No regular Appropriations Act has been passed, and the government 
is operating under a Continuing Resolution, P.L. 111-242. As a general 
rule, agencies are constrained from undertaking new programs, projects, 
and activities under Continuing Resolutions. Thus, NASA may not 
currently implement ``new starts'' under the Authorization Act in most 
cases.
A. Statutory Framework
    There are several relevant provisions. The Continuing Resolution 
itself provides restrictions on new starts, as well as carrying forward 
substantive provisions from the prior year's appropriations. For 
example, Section 101 provides:

        Such amounts as may be necessary, at a rate for operations as 
        provided in the applicable appropriations Acts for Fiscal Year 
        2010 and under the authority and conditions provided in such 
        Acts, for continuing projects or activities (including the 
        costs of direct loans and loan guarantees) that are not 
        otherwise specifically provided for in this Act, that were 
        conducted in Fiscal Year 2010, and for which appropriations, 
        funds, or other authority were made available in the following 
        appropriations Acts: [List omitted].

    Thus, funds provided under the Continuing Resolution are to be used 
for ``continuing projects or activities . . . for which . . . funds . . 
. were made available'' by FY 2010 appropriations. The Continuing 
Resolution does not provide funding for new projects, since the purpose 
of the CR is to be a stop-gap measure enacted to keep existing federal 
programs functioning after the expiration of previous budget authority 
and until regular appropriation acts can be enacted. This principle is 
reinforced by Section 104, which states:

        Except as otherwise provided in section 102, no appropriation 
        or funds made available or authority granted pursuant to 
        section 101 shall be used to initiate or resume any project or 
        activity for which appropriations, funds, or other authority 
        were not available during Fiscal Year 2010.

    Further, the Continuing Resolution amounts are provided ``under the 
authority and conditions provided in such Acts,'' P.L. 111-242 Section 
101, meaning that the provisions of the listed Acts continue to apply. 
The Commerce, Justice, Science, and Related Agencies Appropriations 
Act, 2010, Pub. L. No. 111-117, is one of the Acts listed in Section 
101 of the Continuing Resolution. It contained the following general 
provision applicable to NASA:

        SEC. 505. (a) None of the funds provided under this Act, or 
        provided under previous appropriations Acts to the agencies 
        funded by this Act that remain available for obligation or 
        expenditure in Fiscal Year 2010, or provided from any accounts 
        in the Treasury of the United States derived by the collection 
        of fees available to the agencies funded by this Act, shall be 
        available for obligation or expenditure through the 
        reprogramming of funds that----

        (1) creates or initiates a new program, project or activity. . 
        . .

    It also contained an appropriation for Exploration, which 
appropriated about $3.7 billion for ``exploration research and 
development activities.'' The appropriation made the funds available 
until September 30, 2011, with the following limitation:

        ``Provided, That notwithstanding section 505 of this Act, none 
        of the funds provided herein and from prior years that remain 
        available for obligation during Fiscal Year 2010 shall be 
        available for the termination or elimination of any program, 
        project or activity of the architecture for the Constellation 
        program nor shall such funds be available to create or initiate 
        a new program, project or activity, unless such program 
        termination, elimination, creation, or initiation is provided 
        in subsequent appropriations Acts.''

    This provision was amended by P.L. 111-212 to read:

        The matter contained in title III of division B of Public Law 
        111-117 regarding ``National Aeronautics and Space 
        Administration Exploration'' is amended by inserting at the end 
        of the last proviso ``Provided further, That notwithstanding 
        any other provision of law or regulation, funds made available 
        for Constellation in Fiscal Year 2010 for `National Aeronautics 
        and Space Administration Exploration' and from previous 
        appropriations for `National Aeronautics and Space 
        Administration Exploration' shall be available to fund 
        continued performance of Constellation contracts, and 
        performance of such Constellation contracts may not be 
        terminated for convenience by the National Aeronautics and 
        Space Administration in Fiscal Year 2010.''

    Thus, the general limitation on new starts has been recently 
emphasized by Congress with respect to Exploration funding; NASA is 
further prohibited from terminating Constellation program elements, or 
from terminating contracts for convenience. These provisions are 
carried forward into FY 2011 by the Continuing Resolution.
B. GAO Report B-319488
    Earlier this year, numerous Members of Congress requested that GAO 
assess NASA's planning activities to determine whether NASA had 
violated the new starts prohibition contained in P.L. 111-117. 
Specifically, NASA had set up several teams to study aspects of the 
President's Budget Request. On May 21, 2010, GAO released a report 
finding that NASA's activities were in full compliance with the new 
start prohibition, primarily because NASA only engaged in planning 
activities, and did not take steps to implement any new programs, 
projects, or activities. In reaching that conclusion, GAO set forth the 
analytical framework to be used when assessing this and other similar 
provisions. Comparing the NASA activities with a prior case, GAO 
stated:

        NASA's actions thus far are in contrast to those of the 
        Department of Energy (DOE) when it began to implement a loan 
        guarantee program. B-308715, Apr. 20, 2007. GAO was asked 
        whether DOE had violated an appropriations prohibition against 
        implementing or financing a new loan guarantee program. Id. 
        There, DOE had staffed and operated a program office, drafted 
        regulations, and solicited and evaluated ``pre-applications.'' 
        Id. We found that DOE had taken concrete measures to implement 
        the loan guarantee program and, therefore, that DOE's action 
        violated a statutory provision that barred DOE from using funds 
        to ``implement or finance'' the loan guarantee program. Id.

        DOE's activities went beyond those of NASA's study teams. At 
        this time, NASA has not created or initiated a new program, 
        project, or activity. Unlike DOE, NASA has not created a new 
        office or drafted any regulations. In addition, NASA has not 
        initiated any procurement actions. B-319488, p. 6.

    GAO also found that NASA's action in releasing certain Exploration-
related solicitations did not violate the restriction, since those 
solicitations related to existing, authorized programs. Id., fn. 7. GAO 
concluded with the following cautionary note:

        However, going forward, NASA should be mindful of the 
        appropriations provision and ensure that its preliminary 
        planning activities do not evolve into activities that would 
        create or initiate a new program, project, or activity.

    NASA has been and will continue to be mindful of the new starts 
restrictions. Following the logic of footnote 7, NASA will also 
continue to undertake activities for which funding was available in FY 
2010. As noted above, this provision is carried forward by the 
Continuing Resolution, and the analysis is applicable to the other 
relevant new starts prohibitions as well.
C. Existing Authority
    Because of the numerous and binding restrictions on NASA's ability 
to initiate new programs, projects, or activities, NASA is strictly 
limited to continuing activities for which funds were available in FY 
2010. Thus implementation of Authorization Act provisions during the 
period of the current Continuing Resolution must, as a general rule, 
rely on existing authority. Each of these must be assessed on a case-
by-case basis, and must be individually and specifically tied to prior 
authorization and appropriations acts, legislative history, and budget 
requests. For example, NASA recently concluded that it could issue a 
follow-on to the agency's Commercial Crew Development (CCDev) activity, 
called CCDev2. This was permissible because NASA had the authority for 
CCDev in FY 2010, not because P.L. 111-267 authorizes an expansion of 
CCDev.

    Senator Nelson. Ms. Chaplain?

          STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR,

            ACQUISITION AND SOURCING MANAGEMENT; AND

      SUSAN A. POLING, MANAGING ASSOCIATE GENERAL COUNSEL,

          U.S. GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Ms. Chaplain. Mr. Chairman, Senator Hutchison, and members 
of the Committee, thank you for inviting us here today to 
discuss issues NASA faces as it implements the direction 
outlined in the Authorization Act of 2010.
    Today we will be briefly discussing how the continuing 
resolution continues restrictions on NASA's Fiscal Year 2010 
appropriations and what steps NASA should take to increase the 
likelihood of success as it implements its new direction.
    As you know, I am accompanied by Susan Poling, Managing 
Associate General Counsel at GAO, who can answer questions 
related to the appropriations restrictions.
    As you know, NASA's Fiscal Year 2010 appropriations contain 
a restriction prohibiting NASA from terminating any program, 
project, or activity--that is, PPAs--of the Constellation 
program or creating new ones until provided for in a subsequent 
appropriations act. These restrictions remain in place today 
because NASA is operating under a continuing resolution. 
Continuing resolutions are temporary appropriations acts that 
Congress enacts to keep existing programs functioning after the 
expiration of previous budget authority. What this means for 
NASA's implementation of the Authorization Act is that NASA 
must carry out the Authorization Act but without terminating or 
eliminating any PPA of the Constellation program and without 
creating or initiating new ones.
    Our opinions from earlier this year may offer NASA some 
guidance as it moves forward. We found that NASA did not 
violate the prohibition when it convened study teams to conduct 
planning activities. Agencies may conduct planning activities 
as part of the budget process, and NASA's planning activities 
earlier this year did not create a new PPA.
    NASA also continued to obligate funds to all the existing 
PPAs of the Constellation program. As long as NASA did not 
improperly create or terminate a PPA, NASA has discretion in 
how it carries out the Constellation program consistent with 
the Congress' statutory direction. Shifts in priority do not, 
in and of themselves, constitute the termination or elimination 
of a PPA.
    With regard to our perspectives on steps NASA needs to take 
to increase the likelihood of success as it implements the 
authorization, I would like to highlight recommendations 
related to how NASA manages its largest investments. Recently 
it has been reported that the James Webb Telescope may now cost 
$6.5 billion or more while its baseline estimate set just 2 
years ago was about $5 billion. Our studies have highlighted 
similar cases of large costs and schedule overruns in recent 
years, for example, with Mars Science Lab, the Glory Mission, 
and the National Preparatory Project.
    Further, more than a decade of studies have consistently 
pointed to weaknesses and cost estimating contractor oversight, 
funding stability, management reserves, as well as technology 
and design problems that manifest late in the acquisition 
process. Thus, we would like to see NASA commit to the 
following key practices.
    First, base decisions to move programs forward on tangible 
knowledge about requirements and resources. NASA's policies 
have incorporated many of the best practices GAO has advocated, 
but we still do not always see these policies translated into 
decisions. Some of the most expensive efforts are allowed to 
proceed in the more complex phases of development while there 
are still considerable unknowns about requirements, time needed 
to execute programs, cost, available funding, and available 
technology.
    Second, NASA needs to prioritize investments so projects 
can be fully funded and it is clear where projects stand in 
relation to the overall portfolio. When funding profiles do not 
match up with the real needs of projects like James Webb or 
Constellation, higher risk development paths often become the 
only way to keep projects alive. Moreover, projects within NASA 
are often not prioritized until a large cost overrun is 
discovered and good programs are left to pay for poor 
performers.
    Third, NASA still needs to instill greater accountability. 
The recent study on James Webb found that lines of authority 
and accountability are not clear and that ongoing, regular 
independent assessment and oversight processes at the agency 
are missing. Our view is that until accountability is 
instilled, NASA will struggle in its implementation of the good 
practices it has embraced in recent years.
    I would like to note that aspects of the practices detailed 
in our written statement are reflected in the authorization for 
the new space launch system. We would like to see such measures 
extend across the acquisition portfolio. At the same time, it 
is important that Congress enable NASA to be realistic about 
what it can do and cannot do under the direction of the 
authorization and to support and assist the agency as it makes 
difficult trade-off decisions between resources, that is time 
and money, and requirements.
    This concludes our opening statement, and Susan and I are 
happy to answer any questions you have.
    [The prepared statement of Ms. Chaplain follows:]

 Prepared Statement of Cristina T. Chaplain, Director, Acquisition and 
 Sourcing Management; and Susan A. Poling, Managing Associate General 
          Counsel, U.S. Government Accountability Office (GAO)
    Mr. Chairman and members of the Committee:
    Thank you for inviting us here today to discuss issues NASA faces 
as it transitions to and implements the direction outlined by the NASA 
Authorization Act of 2010.\1\ The steps that NASA takes to implement 
the direction in the Authorization Act will set the stage for whether 
it can accomplish the goals of the authorization within the timeframes 
and resources as directed. NASA projects have produced ground-breaking 
research and advanced our understanding of the universe. However, our 
work shows that another common theme binds most of the projects--they 
cost more and take longer to develop than planned. Frequently they are 
approved without evidence of a sound business case that ensures a match 
between requirements and reasonably expected resources. In today's 
fiscal environment, it is clear that this condition cannot be 
sustained.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 111-267, 124 Stat. 2805 (Oct. 11, 2010).
---------------------------------------------------------------------------
    In March, several members of the House of Representatives asked us 
for information and our views on, among other things, whether NASA 
complied with restrictions in the 2010 Exploration appropriation when 
it took certain actions pertaining to the Constellation program. Based 
on that request, we issued two legal opinions this summer.\2\ The NASA 
Authorization Act of 2010, as signed into law by the President in 
October 2010, challenges NASA to develop new human spaceflight systems 
and use the commercial space industry and international partnerships to 
develop new technologies for space exploration, but NASA must still 
comply with the restrictions in the Fiscal Year 2010 Exploration 
appropriation. Regardless of the changes resulting from the 
Authorization Act, one thing that will remain constant is NASA's need 
to efficiently and effectively manage programs and projects. Against 
this backdrop, our testimony today will focus on: (1) how the 
Continuing Appropriations Act of 2011 \3\ continues the restrictions in 
the Fiscal Year 2010 Commerce, Justice, Science, and Related Agencies 
Appropriations Act,\4\ and how they relate to the recently enacted NASA 
Authorization Act and (2) steps NASA should take to reduce its 
acquisition risk and increase the likelihood of success as it 
implements its new direction outlined in the NASA Authorization Act.
---------------------------------------------------------------------------
    \2\ B-320091, July 23, 2010; B-319488, May 21, 2010.
    \3\ Pub. L. No. 111-242, 124 Stat. 2607 (Sept. 30, 2010).
    \4\ Pub. L. No. 111-117, div. B, tit. III, 123 Stat. 3034, 3113 
(Dec. 16, 2009).
---------------------------------------------------------------------------
    In preparing this statement, we relied on completed and ongoing 
work. Our audit work examining best practices for system development 
and assessing NASA's major projects was performed in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
Appropriation Restrictions Remain in Effect
    In October 2009, the Review of U.S. Human Spaceflight Plans 
Committee issued a report which concluded that the human spaceflight 
program is on an ``unsustainable trajectory.'' \5\ The conference 
report accompanying the Consolidated Appropriations Act, 2010 stated 
that ``the Committee's work raises issues requiring thoughtful 
consideration by the Administration and the Congress'' but that ``it is 
premature for the conferees to advocate or initiate significant changes 
to the current program absent a bona fide proposal from the 
Administration and subsequent assessment, consideration and enactment 
by Congress.'' \6\ Accordingly, Congress appropriated about $3.7 
billion for ``exploration research and development activities,'' but 
provided that none of the funds from 2010 or prior years
---------------------------------------------------------------------------
    \5\ Review of U.S. Human Spaceflight Plans Committee, Seeking a 
Human Spaceflight Program Worthy of a Great Nation, available at 
www.nasa.gov/offices/hsf/home/index.html (last visited Nov. 12, 2010). 
The Committee is commonly known as the Augustine Commission, after its 
Chairman, Norman R. Augustine.
    \6\ H.R. Rep. No. 111-366, at 755 (2009).

        ``shall be available for the termination or elimination of any 
        program, project or activity of the architecture for the 
        Constellation program nor shall such funds be available to 
        create or initiate a new program, project or activity, unless 
        such program termination, elimination, creation, or initiation 
        is provided in subsequent appropriations Acts.'' \7\
---------------------------------------------------------------------------
    \7\ Commerce, Justice, Science, and Related Agencies Appropriations 
Act, 2010, Pub. L. No. 111-117, div. B, title III, 123 Stat. 3034, 
3113, 3143 (Dec. 16, 2009).

    These are the restrictions that we addressed in our recent legal 
opinions. Currently, NASA is operating under the Continuing 
Appropriations Act, 2011 (Continuing Resolution), which Congress 
enacted on September 30. Continuing resolutions are temporary 
appropriations acts that Congress enacts to keep existing programs 
functioning after the expiration of previous budget authority. Most 
continuing resolutions, including the one under which NASA is currently 
operating, incorporate by reference the conditions and restrictions 
contained in prior years' appropriations acts or the appropriations 
bills currently under consideration. In this case, the Continuing 
---------------------------------------------------------------------------
Resolution provided amounts to NASA

        ``at a rate for operations as provided in the applicable 
        appropriations Acts for Fiscal Year 2010 and under the 
        authority and conditions provided in such Acts, for continuing 
        projects or activities . . . that are not otherwise 
        specifically provided for in this Act.'' \8\
---------------------------------------------------------------------------
    \8\ Pub. L. No. 111-242,  101.

    (Emphasis added.) Like most continuing resolutions, the current 
Continuing Resolution also prohibits new activities and projects for 
which funds were not available in the prior fiscal year.\9\
---------------------------------------------------------------------------
    \9\ Pub. L. No. 111-242,  104.
---------------------------------------------------------------------------
    About a month ago, Congress enacted the NASA Authorization Act of 
2010 (Authorization Act),\10\ which provided specific direction on a 
number of issues related to human space flight and space technology. 
The Authorization Act requires that NASA undertake a number of 
initiatives, but NASA still needs appropriations to carry out these 
activities. As you know, under the Constitution, ``no Money shall be 
drawn from the Treasury, but in Consequence of Appropriations made by 
Law.'' \11\ The Continuing Resolution provides funds for NASA, but only 
``under the authority and conditions provided'' in the Fiscal Year 2010 
Exploration appropriation.\12\
---------------------------------------------------------------------------
    \10\ Pub. L. No. 111-267.
    \11\ U.S. Const. art. I,  9, cl. 7.
    \12\ Pub. L. No. 111-242,  101.
---------------------------------------------------------------------------
    One of the conditions in the Fiscal Year 2010 NASA appropriation is 
the limitation discussed in our recent opinions that funds are not 
available ``for the termination or elimination of any program, project 
or activity of the architecture for the Constellation program'' nor are 
they available to ``create or initiate a new program, project or 
activity, unless such program termination, elimination, creation, or 
initiation is provided in subsequent appropriations Acts'' (emphasis 
added). Thus NASA must still comply with the restrictions contained in 
the Fiscal Year 2010 Exploration appropriation. What this means for 
NASA's implementation of the Authorization Act is that NASA must carry 
out the Authorization Act \13\ but without terminating, eliminating any 
program, project, or activity of the Constellation program and without 
creating or initiating a new program, project, or activity.\14\
---------------------------------------------------------------------------
    \13\ ``[W]hen two statutes are capable of co-existence, it is the 
duty of the courts, absent a clearly expressed congressional intention 
to the contrary, to regard each as effective.'' Andrus v. Glover 
Construction Co., 446 U.S. 608, 618-619 (1980).
    \14\ In addition to the restriction pertaining specifically to the 
Constellation program, the Continuing Resolution also bars the use of 
funds ``to initiate or resume any project or activity for which 
appropriations, funds, or other authority were not available during 
Fiscal Year 2010.'' Pub. L. No. 111-242,  104.
---------------------------------------------------------------------------
    Because the continuing resolution subjects NASA's current 
appropriation to the Fiscal Year 2010 restriction, our two opinions 
this year may offer NASA some guidance as it goes forward since we 
analyzed various actions related to the Constellation program to 
determine if NASA was complying with the restriction. In both opinions, 
we concluded that NASA did not violate the restrictions in the Fiscal 
Year 2010 Exploration appropriation. In May,\15\ we noted that Congress 
prohibited NASA from using Exploration funds to bring into being a new 
program, project, or activity.\16\ We concluded that NASA did not 
violate this restriction when it convened study teams to conduct 
planning activities. Agencies must conduct planning activities as part 
of the budget process, and the prohibition in the Exploration 
appropriation did not preclude the use of funds for planning purposes. 
Further, NASA's planning activities did not result in the use of funds 
to create or initiate a new program, project, or activity.\17\
---------------------------------------------------------------------------
    \15\ B-319488, May 21, 2010.
    \16\ A ``program, project, or activity'' is ``[a]n element within a 
budget account. For annually appropriated accounts, the Office of 
Management and Budget (OMB) and agencies identify [programs, projects, 
or activities] by reference to committee reports and budget 
justifications.'' GAO, A Glossary of Terms Used in the Federal Budget 
Process, GAO-05-734SP (Washington, D.C.: September 2005).
    \17\ NASA's actions differed from those of the Department of Energy 
(DOE) when it began to implement a loan guarantee program. B-308715, 
Apr. 20, 2007. There we found that DOE had staffed and operated a 
program office, drafted regulations, and solicited and evaluated ``pre-
applications.'' Therefore, we concluded that DOE violated a statutory 
provision that barred it from using funds to ``implement or finance'' 
the loan guarantee program. In contrast, NASA had not created a new 
office or drafted any regulations; instead, NASA staff developed 
preliminary plans.
---------------------------------------------------------------------------
    In July,\18\ we considered whether NASA improperly terminated or 
eliminated any program, project, or activity of the Constellation 
program. We determined that NASA had five programs, projects, or 
activities within the ``Constellation Systems'' category:
---------------------------------------------------------------------------
    \18\ B-320091, July 23, 2010.

---------------------------------------------------------------------------
  <bullet> Program Integration and Operations,

  <bullet> Orion Crew Exploration Vehicle,

  <bullet> Ares I Crew Launch Vehicle,

  <bullet> Ares V Cargo Launch Vehicle, and

  <bullet> Commercial Crew and Cargo.\19\
---------------------------------------------------------------------------
    \19\ NASA, Fiscal Year 2010 Budget Estimates, at EXP-2, available 
at www.nasa.gov/news/budget/FY2010.html (last visited Nov. 10, 2010).

    We concluded that NASA did not terminate or eliminate any program, 
project, or activity of the Constellation program because NASA 
continued to obligate Exploration appropriations to all five of the 
Constellation programs, projects, and activities. NASA diverted no 
Exploration funds to create a new program, project, or activity. We 
also noted that as long as NASA does not improperly create or terminate 
a program, project, or activity, the agency has discretion in how it 
carries out the Constellation program consistent with Congress's 
statutory direction. Shifts in priority do not in themselves constitute 
the termination or elimination of a program, project, or activity.
Steps NASA Should Take to Reduce Acquisition Risk and Increase the 
        Likelihood of Success as it Implements the Authorization Act
    Regardless of its current restrictions, once NASA begins to 
implement the new direction outlined in the Authorization Act, it will 
need to adopt new ways of doing business--particularly with respect to 
matching requirements to resources, managing costs, increasing 
transparency into the most critical phases of development, and 
strengthening accountability--to reduce acquisition risk and increase 
likelihood of success. Our work has consistently shown that NASA's 
projects cost more and take longer to develop than planned. This year, 
for example, we reported that 10 NASA projects that had their cost and 
schedule baselines set within the last 3 years experienced cost growth 
averaging $121 million, or 18.7 percent, and schedule growth averaging 
15 months.\20\ Many of the projects we reviewed experienced challenges 
developing new or retrofitting older technologies, stabilizing 
engineering designs, and managing the performance of contractors and 
development partners. These challenges, and the significant cost growth 
experienced by NASA projects after they were baselined, occurred as a 
result of projects being approved with considerable unknowns about 
requirements, technologies, costs, or other resources. Our reports have 
highlighted the risk that the Constellation Program was headed in this 
same direction. For example, in 2009 we reported that Constellation 
program had significant technical and design challenges that until 
resolved would hinder NASA's ability to reliably estimate the time and 
funding needed to execute the program. In addition, the Constellation 
program's poorly phased funding plan has affected the program's ability 
to deal with technical challenges.\21\ Similarly, the Review of U.S. 
Human Spaceflight Plans Committee reported that ``the U.S. human 
spaceflight program appears to be on an unsustainable trajectory. It is 
perpetuating the perilous practice of pursuing goals that do not match 
allocated resources.'' \22\
---------------------------------------------------------------------------
    \20\ GAO, NASA: Assessments of Selected Large-Scale Projects, GAO-
10-227SP (Washington, D.C.: Feb. 1, 2010).
    \21\ GAO, NASA: Constellation Program Cost and Schedule Will Remain 
Uncertain Until a Sound Business Case Is Established, GAO-09-844 
(Washington, D.C.: Aug. 26, 2009).
    \22\ Review of U.S. Human Spaceflight Plans Committee, Seeking a 
Human Spaceflight Program Worthy of a Great Nation, available at 
www.nasa.gov/offices/hsf/home/index.html.
---------------------------------------------------------------------------
    While space development projects are complex and difficult by 
nature, and most are one-time efforts, the nature of the work should 
not preclude NASA from being accountable for achieving what it promises 
when requesting and receiving funds. Moreover, measures can be taken to 
better position programs for success, which we believe should be 
emphasized as the Authorization Act is implemented. Specifically, our 
past work has shown that developing a sound business case, based on 
matching requirements to available and reasonably expected resources--
including time, dollars, technology, and people--before committing to a 
new development effort, reduces risk and increases the likelihood of 
success.\23\ GAO's work has shown that how well an agency matches 
resources with requirements sets the stage for the eventual outcome--
desirable or problematic--of the project. The match is ultimately 
achieved in every development project, but in successful development 
projects, it occurs before significant commitments and investments are 
made.
---------------------------------------------------------------------------
    \23\ GAO, Defense Acquisitions: Key Decisions to Be Made on Future 
Combat System, GAO-07-376 (Washington, D.C.: Mar. 15, 2007); Defense 
Acquisitions: Improved Business Case Key for Future Combat System's 
Success, GAO-06-564T (Washington, D.C.: Apr. 4, 2006); NASA: 
Implementing a Knowledge-Based Acquisition Framework Could Lead to 
Better Investment Decisions and Project Outcomes, GAO-06-218 
(Washington, D.C.: Dec. 21, 2005); NASA's Space Vision: Business Case 
for Prometheus 1 Needed to Ensure Requirements Match Available 
Resources, GAO-05-242 (Washington, D.C.: Feb. 28, 2005).
---------------------------------------------------------------------------
    We have reported that steps agencies should take prior to 
undertaking new projects include:

  <bullet> Prioritizing investments so projects can be fully funded and 
        it is clear where projects stand in relation to the overall 
        portfolio.

  <bullet> Following an evolutionary path toward meeting needs rather 
        than attempting to satisfy all needs in a single step.

  <bullet> Matching requirements to resources--that is, time, money, 
        technology, and people--before undertaking a new development 
        effort.

  <bullet> Researching and defining requirements before projects start 
        and limiting changes after they start.

  <bullet> Ensuring cost estimates are complete, accurate, and updated 
        regularly.

  <bullet> Committing to fully fund projects before they begin.

  <bullet> Ensuring critical technologies are proven to work as 
        intended before projects start.

  <bullet> Assigning more ambitious technology development efforts to 
        research departments until they are ready to be added to future 
        generations (increments) of a project.

  <bullet> Using systems engineering to close gaps between resources 
        and requirements before launching the development process.\24\
---------------------------------------------------------------------------
    \24\ GAO, Space Acquisitions: Major Space Programs Still at Risk 
for Cost and Schedule Increases, GAO-08-552T (Washington, D.C.: Mar. 4, 
2008).

    Our work has shown that projects that have not attained the level 
of knowledge needed to support a sound business case that proceed to 
development have been plagued by cost overruns, schedule delays, 
decreased capability, and overall poor performance. This phenomenon is 
not unique to NASA--the Department of Defense and the Department of 
Homeland Security experience the same outcomes with many of their 
acquisition programs. If the knowledge the project has attained does 
not confirm the business case on which the acquisition was originally 
justified, the best practice organizations we have studied do not allow 
the project to proceed.
    Critical to success is performance and requirements flexibility in 
early phases of development. NASA needs to be open to reducing 
expectations, deferring them to future projects, or to investing more 
resources up front to eliminate gaps between resources and 
expectations. In successful projects we have studied, requirements were 
flexible until a decision was made to commit to development given the 
desire to obtain the capability as soon as possible. This makes it 
acceptable to reduce, eliminate, or defer some capabilities so the 
project's requirements could be matched with the resources available to 
deliver it within the desired time frame.
    In addition to ensuring projects establish a business case before 
they are approved for long-term financial commitments, both program 
officials and senior leaders need to be held accountable for executing 
the project by the most efficient and effective means. To that end, the 
NASA projects need to be structured to ensure that decisionmakers, 
including NASA and Congress, have the insight necessary to make 
informed, knowledge-based decisions and hold project managers 
accountable for managing projects effectively and efficiently. We have 
reported that during development, NASA should ensure its decisionmakers 
do the following:

  <bullet> Use quantitative data and demonstrable knowledge to make go/
        no-go decisions, covering critical facets of the project such 
        as cost, schedule, technology readiness, design readiness, 
        production readiness, and relationships with suppliers.

  <bullet> Establish consistent metrics to measure design readiness and 
        ensure they are met before development proceeds.

  <bullet> Empower project managers to make decisions about the 
        direction of the project and to resolve problems and implement 
        solutions and hold them accountable for their choices.

  <bullet> Ensure contractors are holding suppliers accountable to 
        deliver high-quality parts for their products through such 
        activities as regular supplier audits and performance 
        evaluations of quality and delivery, among other things.

  <bullet> Encourage project managers to share bad news, and promote 
        collaboration and communication.

    Over the past several years NASA has moved to incorporate a more 
knowledge-based approach to managing its development projects and 
instill a stronger focus on managing costs. For example, NASA has taken 
steps to enhance cost-estimating methodologies and ensure that 
independent estimates are used to provide decisionmakers with an 
objective representation of likely project cost and schedule. As a 
result, NASA has begun to budget its projects at a higher degree of 
confidence. Broader steps NASA is taking focus on strengthening program 
and project management, facilitating monitoring of contractor cost 
performance, improving agency-wide business processes, and improving 
financial management.\25\
---------------------------------------------------------------------------
    \25\ GAO, High-Risk Series: An Update, GAO-09-271 (Washington, 
D.C.: January 2009).
---------------------------------------------------------------------------
    While NASA has laid out a broad plan for reducing acquisition risk, 
more needs to be done as the Authorization Act is implemented. For 
example,

  <bullet> NASA does not use a common measure to assess design 
        stability before allowing programs to move from the design 
        phase to the test and integration phases of the development 
        process. At the same time, our studies and others have found 
        that significant cost growth occurs in these phases and, in 
        some instances, has tied these problems to issues related to 
        design. Moreover, a recent study by the National Research 
        Council found that the critical design review milestone for 
        many missions may be held prematurely--driven by schedule 
        rather than driven by design maturity. GAO reports and this 
        study have found that critical design review approval of an 
        immature design can cause downstream problems for complex 
        acquisitions such as integration difficulties and late changes.

  <bullet> NASA does not provide enough transparency in the early, 
        critical phases of development to help Congress identify risks 
        and inefficiencies and ensure earlier accountability. 
        Currently, NASA only begins to publicly share cost and schedule 
        information for projects that have been formally approved to 
        enter development. To add some perspective to this timing, 
        neither the Ares nor Orion projects have reached this point, 
        despite having spent over $9 billion dollars combined; and the 
        James Webb Space Telescope (JWST) just reached this point in 
        2008, despite having spent nearly $2 billion prior to that 
        time. While there is a need to allow projects a period of time 
        for discovery and to pursue different concepts--particularly 
        highly complex efforts such as JWST--inadequate transparency 
        into their progress for what sometimes amounts to 5 or more 
        years can preclude effective oversight and accountability and 
        make it even more difficult to stop projects that are not on 
        track to meet the agency's goals with available resources.

  <bullet> An independent study released just last week of problems 
        affecting the James Webb Telescope program concluded that 
        significant changes are still needed in NASA's oversight and 
        accountability functions to ensure that programs base their 
        decisions on sound knowledge, noting that NASA's governance 
        policy is not consistent with accountability for project 
        execution. In particular, the study found that lack of clear 
        lines of authority and accountability contributed to a lack of 
        executive leadership in resolving the broken JWST life-cycle 
        cost baseline. The study found that JWST's flawed budget should 
        have been discovered as part of the Goddard Spaceflight 
        Center's execution responsibility, but the interpretation of 
        the agency's governance policy on the role of the center in 
        this regard is ambiguous and not uniformly interpreted within 
        NASA. The study also noted that ongoing, regular independent 
        assessment and oversight processes at the agency are missing.

    Because NASA is pushing the exploratory envelope, it is reasonable 
for unexpected problems and discoveries to occur. Not all projects will 
go as planned. On the other hand, it is clear from recent findings from 
the JWST Independent Review, the National Research Council (NRC), and 
GAO's continued assessments of major projects that inherent risks to 
spacecraft development are being exacerbated by poor management and 
oversight practices. While NASA still needs to make fundamental changes 
to how it plans, manages, and oversees its major investments, it will 
be a challenging endeavor as the agency is faced with implementing a 
new direction for its human spaceflight programs, retiring the space 
shuttle, and balancing investments among its science portfolios. Our 
reports, as well as recent studies by the NRC and the JWST Independent 
Review Team, however, provide a map that can help NASA adopt best 
practices and more effectively manage investments. As stressed in our 
2009 high-risk report, to maximize NASA's investment dollars, 
implementation of these steps needs to be complemented by vigorous 
executive leadership to foster the expansion of a business-oriented 
culture and a sustained commitment to identify and take action on 
projects that are not achieving cost, schedule, or performance goals 
upon which they were based when they were initiated.\26\
---------------------------------------------------------------------------
    \26\ GAO-09-271.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes our prepared statement. We would be 
glad to answer any questions that you or members of the Committee have 
at this time.

    Senator Nelson. I thank all of you for your testimony and 
thank all of you for your public service.
    Dr. Holdren, do you intend to follow the law in the NASA 
authorization bill?
    Dr. Holdren. Absolutely, we are committed to following the 
law. The President signed it. The Congress passed it. We will 
follow it, and we will execute it and implement it to the best 
of our ability.
    Senator Nelson. Dr. Robinson, as the Chief Financial 
Office, are you intending to follow the law?
    Dr. Robinson. Most definitely.
    Senator Nelson. I want to ask you about a statement that 
you made on page 4 of your testimony that would indicate 
otherwise. In speaking about the implementation, the following 
guidance to the Constellation program at the top of page 4, you 
note in the execution under the existing appropriations of the 
law that the following priorities have been in place since the 
June replan. And you go on to list avoid termination of prime 
contracts and continue development of critical capabilities. 
And then you list prioritize investments that support the 
initiatives under the 2011 President's budget request and the 
NASA Authorization Act of 2010.
    The President's budget request is history. The law is now 
the authorization bill. So are you suggesting in this testimony 
that you intend to follow the President's budget request 
instead of the law?
    Dr. Robinson. No, not at all. To us the end is very 
important. What we were trying to convey there is there are 
some elements in the Authorization Act which were discussed and 
presented in the budget. And so to the extent that there was 
guidance there and parameters, we wanted to make sure that the 
program was looking at those because that is the basics of 
budgeting. Right? We present a proposal and if you say yes, 
then you expect us to follow our proposal, and that is all we 
are saying there.
    Senator Nelson. The reason I bring this up is exactly what 
Senator Vitter had raised in his comments, that there have been 
plenty of messages that have been sent to the overseers--which 
is this committee--that certain elements of NASA and other 
parts of the Administration intend to follow their own 
directions instead of the law. And as a matter of fact, you 
would lend to that by this statement. So I am glad that you 
clarified that for the record.
    Dr. Holdren, how would you characterize the 
Administration's support for the entire Authorization Act?
    Dr. Holdren. We support it wholly, sir. Again, you passed 
it. The President signed it. It is the law of the land. We 
intend to implement it. We support it. We are looking forward 
to working with this committee and the rest of the Congress in 
getting that done. We are looking forward to the additional 
guidance and the resources that will come with appropriations 
that will make it easier to move forward rapidly with all of 
the elements of the Authorization Act. But we support it fully.
    Senator Nelson. What direction have you as the Science 
Advisor to the President given to the agency to assure what you 
just said: the full, faithful, and timely implementation?
    Dr. Holdren. I have spoken with Administrator Bolden, with 
Deputy Administrator Garver, with the CFO, the Honorable Beth 
Robinson, who is here with me, and we have had no trouble 
coming to complete agreement, that NASA is in full support of 
the law that has been passed and signed. And we will implement 
it. We are in complete agreement on that. I did not need to 
offer any particular further guidance because that was already 
NASA's position, but I have been very clear it is the 
President's position. I have been assured that it is NASA's 
position.
    Senator Nelson. As you know, the President's initial 
proposal, as referenced by Dr. Robinson in her statement on 
page 4, as Senator Hutchison had said, was met with a great 
deal of resistance to some of its elements. I think part of it 
was in some cases a poor choice of words: the President's 
budget request, for example, utilizing the word ``cancel'' the 
Constellation program instead of using the word ``redirect'' 
the Constellation program. And it gave perceptions and 
impressions that did not reflect the President's true intention 
about a manned space program.
    And yet, since then we have seen that some people, whether 
it be that or it be the question of the appropriations on the 
commercial crew program, whatever it was, feel strongly that 
the President's proposal was the only way to go. I think you 
have sufficiently given the authority as the President's 
Science Advisor what this committee needs now in stating that 
the President's signature on the law is now the President's 
proposal. And that is what we are going to proceed with.
    Dr. Robinson, do you concur with what Dr. Holdren said?
    Dr. Robinson. Definitely. We are very committed to moving 
forward on all aspects of the law. From our perspective, we are 
doing that. I regret if there have been any messages to the 
contrary because we are very excited at NASA about this new 
path and implementing as fast as we can.
    Senator Nelson. Last June, a national space policy was 
articulated. It is broader. It has goals and objectives.
    What do you think about--Dr. Holdren, is the Authorization 
Act that is now signed into law the new national space policy?
    Dr. Holdren. Well, Senator, it is the authorization for 
NASA. It is the law, and we will follow it. As far as I can 
see, it is consistent with the national space policy which 
also, however, addresses some additional issues related, for 
example, to national security and homeland security and the 
role of space in that domain, issues that are not specifically 
addressed in the Authorization Act. I think these two documents 
coexist nicely.
    Senator Nelson. Senator Hutchison?
    Senator Hutchison. Thank you.
    Let me say I am very pleased to hear both of you being very 
clear and very supportive, and that is what we all are looking 
for to go forward.
    Let me ask Dr. Robinson. There is a specific part of the 
law which I will read. Section 101 of the law that passed this 
year states, after providing an authorized funding level for 
the space operations line: ``. . . of which $1,609,700,000 
shall be for the Space Shuttle to support Space Shuttle flight 
operations and related activities.''
    Further, in section 503 of the same law, it states: ``The 
Administrator shall fly the launch-on-need shuttle mission 
currently designated in the shuttle flight manifest, dated 
February 28, 2010.''
    Finally, in section 503, it says: ``Amounts authorized to 
be appropriated by section 101 shall be available for the 
mission authorized by paragraph 1.''
    So given that precise language, is it your understanding, 
Dr. Robinson, that the law requires NASA to conduct that 
mission subject, obviously, to safety certifications and that 
type of requirement?
    Dr. Robinson. The law definitely does. The only caveat that 
I would put forth is that we still do not have the final 
appropriations. So we do not know if we have the money to carry 
it out. But it is NASA's complete intention to fly the third 
flight.
    Senator Hutchison. But if we pass a long-term CR--we are 
not sure yet if it will be a short-term/long-term CR. But if 
there is the long-term CR and it would provide, as the Chairman 
has stated earlier, $18.7 billion at least, it would cover, 
given the priorities of the bill, that capability to go 
forward, which we will know in the next few weeks? I mean, time 
is running out.
    Dr. Robinson. Right. Definitely. If we were operating on a 
long-term CR, we would have enough funding to fly the third 
flight.
    Senator Hutchison. Thank you. Of course, the reason that we 
were so specific is that we are looking for the reports now on 
the needs of the station and trying to forecast any equipment, 
any kind of emergency capability that we might need to keep the 
station operative to fulfill the investment that we have made 
in it for research. So it is essential that we have that report 
so that we are able to know what is needed in the last shuttles 
because that will be our last chance.
    Now, I would ask Dr. Holdren, as well as you, Dr. Robinson. 
If we are all on the same wavelength here, that we have got to 
get the report--and what we are hearing is that there might be 
an interim report, with the President's 2012 budget request. 
But we need a full-steam-ahead effort to determine what is 
going to be needed for the Space Station because we are moving 
up on the last two shuttles next year. So could I hear from 
both of you on your view of that priority and on the reports?
    Dr. Robinson. We fully agree with you, and the reports are 
on track. I do know this is also an issue of the manifest that 
Space Operations Mission Directorate works consistently. And so 
we fully expect to have those reports up on time.
    Dr. Holdren. Yes. I would just add I completely agree with 
what the CFO has just said. Certainly the future of the Space 
Station and how we manage that and how we provide for it is one 
of those areas where the President's initial proposal and the 
bill that is now law, the Authorization Act, are in complete 
agreement. We are completely with you.
    Senator Hutchison. Well, I am pleased that the President 
does focus on the need to use the station for this purpose and 
has extended its capability or, hopefully, the use of it beyond 
the original end date that we had because, of course, there has 
been such a lag time in the development of the next crew launch 
vehicle and so we have to deal with that. But I think that 
going forward on a quicker timeline than was in the President's 
for the next vehicle so that we know we have that capability, 
hopefully, quicker is something that we have got to all work 
together to do.
    Let me ask this. The holding back of funds that might be 
made available to begin the development for the space launch 
system and the multipurpose crew vehicle--obviously in our bill 
the highest priority is in the Exploration Systems Mission 
Directorate, ahead of things like space technology initiatives 
which the law clearly states are activities expected to be 
undertaken in later years.
    Can you give our committee assurances that the 
Congressional intent to aggressively pursue immediate 
initiation of the space launch system and crew exploration 
vehicle development activities will be followed? Both of you--
Dr. Holdren?
    Dr. Holdren. Senator, we are going to follow the law. I 
cannot emphasize that enough. It is the law. We are going to 
follow it.
    Dr. Robinson. I would further say we have already begun 
those efforts, the planning and design efforts.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Vitter?
    Senator Vitter. Thank you, Mr. Chairman.
    I want to go back to this issue of the restrictive language 
in the continuing resolution from the 2010 Appropriations Act 
because I think if we really want to solve that problem, it is 
easily, easily solved. I think the almost certain next step, in 
terms of funding, is going to be another CR for some length of 
time. As the Chairman indicated, that would put NASA funding 
extremely close to what is outlined in our new Authorization 
Act, less than a 2 percent difference. In the grand scheme of 
things, that difference is trivial. So, therefore, for that 
next step, it seems to me it should be easy to all agree on 
clarifying language saying that anything from that 2010 
Appropriations Act inconsistent with the new 2010 Authorization 
Act will have no force and effect, except the overall funding 
level which should not be a big deal to come down $300 million 
out of however many billion.
    Given that the Authorization Act passed unanimously in the 
Senate and by a three-fourths vote in the House, it should not 
be a big hurdle to insert that language in a new CR. Maybe I am 
missing something, but if we are really trying to accomplish 
that, it should be a no-brainer.
    Have you developed language to accomplish that for the new 
CR, and have you told Congressional leaders that the President 
absolutely wants that language included?
    Dr. Robinson. We have developed that language. We have been 
working with staff on the authorization committees and 
appropriations committees. As you point out, it is a relatively 
simple matter in terms of legislative language, and we do fully 
support it at NASA.
    Senator Vitter. As Administration policy, have you said the 
President absolutely wants this language included so that we 
can fully, without any restriction, accomplish the new 
Authorization Act?
    Dr. Holdren. I cannot say for sure to whom that message has 
been communicated up until now because legislative affairs is 
not something I can keep track of to that detail. But certainly 
that message will be communicated if it has not already been 
communicated to the key folks.
    Senator Vitter. Can you put that message in writing, and 
can I get a copy?
    Dr. Holdren. Sure.
    Senator Vitter. And can I get a copy of your drafted 
language that you think will do the trick?
    Dr. Robinson. Sure.
    Senator Vitter. OK, great.
    I am a recovering lawyer. So that is dangerous. It seems to 
me it should be pretty simple, something like no language in 
the Fiscal Year 2010 NASA Appropriations Act inconsistent with 
the NASA Authorization Act of 2010, except the overall NASA 
funding level, shall continue to have force and effect. 
Something like that. Maybe that is not the perfect language, 
but something like that. Do you have any reaction to the 
general notion?
    Dr. Robinson. That sounds like it would work. I think the 
draft that we have is more forward-looking, basically saying 
anything that is in the Authorization Act NASA is allowed to 
do, and we also remove the specific restrictions. It is a 
different approach. Same idea.
    Senator Vitter. OK. Well, again, if you all could send me--
and I am sure the others would like to see it--both the draft 
language and the letter to appropriate leadership, committee 
chairmen, stating that it is the Administration's position that 
this really needs to be included. Thank you.
    And I would like to ask the folks from GAO if they have a 
reaction to that solution to the problem that your report 
highlights.
    Ms. Poling. I think it is important that there be an 
anomaly in any continuing resolution so that there is no 
question that NASA can move forward, and the form that that 
takes--as you just discussed, there are probably many forms 
that it could take. You might also want to include in it that 
the no new starts provision of the continuing resolution also 
would not apply.
    Senator Vitter. I mean, you can do it different ways, but 
my language would clearly cancel that out because that is 
inconsistent with the Authorization Act.
    Ms. Poling. Perhaps, but you referenced it back to the 2010 
appropriations which has its own set of restrictions. The 
continuing resolution has a different set of restrictions.
    Senator Vitter. OK, good point. So we would have to include 
any language in the CR----
    Ms. Poling. I think so, yes.
    Senator Vitter.--that is inconsistent would not have force 
and effect.
    Ms. Poling. Yes. You want to relate it back to both Acts 
and to the amendment that was passed in late July that also had 
to do with termination of contracts.
    Senator Vitter. OK. Well, I just wanted to focus on this.
    But let me underscore quickly I think we are going to have 
another CR. As the Chairman said, that funding level for the 
next Fiscal Year will be right about at where it is in the 
authorization bill. So this should be a simple task if we 
really all want to accomplish it. And so the proof will be in 
the pudding if it gets done. And so I look forward to getting 
that done in the next CR.
    Thank you, Mr. Chairman.
    Senator Nelson. And Senator Vitter, it is actually even 
closer. I was rounding it, the $300 million difference. It is 
actually a difference of $276 million. The funding level in 
last year's 2010 appropriations was $18.724 billion.
    Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. Let me start by 
thanking you for working with me and others on another, I 
think, critical piece of NASA's program, the commercial 
development side and the private sector side. And I was happy 
to hear in Dr. Holdren's comments a recommitment to that part 
of the program.
    I wanted to make a couple of quick comments and then ask 
reflection from Dr. Holdren and Ms. Robinson.
    It appears the commercial spacecraft side of the house 
seems to have accomplished quite a few milestones for basically 
small--less than $50 million so far in the commercial crew 
development. I was pleased to see today, for example, on a 
related--but something I think will dominate, I hope, all of 
our efforts going forward--that the President's Deficit 
Commission final report which in the preliminary report had 
said perhaps this investment in the commercial side of the 
house from the public dollars should not be included--that part 
was actually dropped out. So I think the Deficit Commission 
concurred with those of us who believe that the commercial 
side, both in terms of a viable, new worldwide industry for 
America to take a lead in and for more public/private 
partnerships with NASA--I think it is going to be a critical 
part of our space future. And I just want to--again, in 
recognizing that the Chairman helped build this into the 2010 
authorization, I would like to get a couple of quick comments 
from Dr. Holdren or Ms. Robinson on that subject.
    Dr. Holdren. Well, first of all, let me join you, Senator 
Warner, in welcoming the fact that the Deficit Commission 
dropped from their report that was just released, the 
proposition that this would not have been a good investment. We 
think it is a terrific investment. We think we are going to get 
great value for the money invested in terms of the future of a 
commercial space industry and the jobs and opportunities that 
will provide and, as I noted in my testimony, meeting at the 
same time a critical national need. So we are grateful that 
this element is in the authorization bill. We are grateful that 
the Deficit Commission did not put a bull's eye on it, and we 
are very optimistic about progress in that domain.
    As you probably know, the SpaceX launch of Falcon 9 with 
the Dragon spacecraft is now scheduled for December 7. This 
will be the first time that a commercial craft has actually 
reentered, and we are very excited about it. We think that the 
industry has terrific prospects, and I agree with you that it 
has made a substantial amount of progress so far with rather 
modest resources. We are going to see a lot more progress.
    Dr. Robinson. You also pointed to the commercial crew 
development effort that was begun last year, and I also just 
wanted to point out that the Authorization Act encouraged us to 
continue that effort in 2001, and we have done that. We are 
going out with another round of--to seek another round of 
proposals because we do think tremendous things came of that 
effort, and we hope it will continue in this year.
    Senator Warner. Let me raise one other issue with my 
remaining time which is a little off subject and candidly not 
an area that is a huge piece of the NASA budget, but that is 
the NASA aeronautics program. I am blessed to have a large 
piece of that in my state at NASA Langley.
    But I would like a comment from you all, that it seems to 
me that one of the real growth areas again from an industry-
wide standpoint is the development of a more fuel-efficient 
aeronautics program worldwide. I think no one sees a 
diminishment of the amount of air traffic. Obviously, in other 
parts of this committee, we have looked at the enormous needs 
we have to upgrade our aviation control system with NextGen, 
but actually redesigning 21st century airplanes in a more fuel-
efficient way to my mind is one of the great next frontiers.
    I would like, again, either one of you to make a brief 
comment on how you see the NASA aeronautics program. We saw a 
small increase in the authorization in Fiscal Year 2010. What 
kind of potential do you see for growth in that field?
    Dr. Holdren. Well, first of all, I can only agree that 
there is tremendous potential in the domain of more fuel-
efficient aircraft and the development of those. And there is 
also tremendous potential, as you have noted, in upgrading our 
national air traffic control system to a 21st century standard. 
NASA's role in advancing these goals is an important one, and 
we intend to pursue it vigorously.
    Senator Warner. And Mr. Chairman, I would just add that 
this is an area in which I think there has yet to be a hub. 
Whether this will be America leading the way or Europe or 
elsewhere on the development of next generation aeronautics and 
aviation I think is an open question. And I hope in this coming 
year we will get a chance to look at this issue more deeply and 
make sure that America takes an appropriate leadership role in 
this field.
    Senator Nelson. And Senator Warner, you might note that 
there was a huge plus-up in the aeronautics part of this 
budget, some $422 million, which was a substantial percentage 
increase for the aeronautics. And of course, it all plays into 
the skies of the future, all the needs on upgrades that we are 
seeing there in the FAA.
    Senator Warner. Great leadership by the Chairman.
    Senator Nelson. And Senator Hutchison.
    Senator Warner. And Ranking Member.
    Senator Nelson. My colleague, Senator LeMieux.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Thank you all for being here. Thank you 
for your public service.
    As I know you know from my colleague from Florida, these 
issues of NASA are very important to our state, and it is a 
very emotional issue because where America first reached for 
the stars was from Florida. And we have this huge investment in 
our communities in the space coast, and we have a lot of folks 
now who are worried about losing their jobs and who will be 
losing their jobs in an area that is already economically 
depressed.
    When I first came to the U.S. Senate and learned sort of 
the process, it gave me a lot of consternation about where we 
are with manned space travel. And it was described that the 
Constellation program was vision without funding. And it 
occurred to me that the Administration's original proposal was 
funding without vision. But we came to a consensus on this 
committee, and with the good work of the people on this 
committee, we came to this authorization bill. It is not my 
first choice. I would have liked more, but it was a good 
consensus-building product I think.
    Now, I have read--Madam CFO--I have been reading your 
statement, and I am concerned that Congress has gotten in the 
way of you implementing this bill. You have made very positive 
statements today, all of you, about you are going forward, it 
is the law of the land, and you support it. But in your 
testimony on page 2, specifically in points 4 and 5--5 goes 
over to page 3--you talk about the fact that because an 
appropriations bill has not been passed, that you are 
continuing to apply the previous appropriations bill. Now, I 
want you to tell us, because of the failure of Congress to act, 
what have you not been able to do to move forward on the 
authorization bill that was passed and signed by the President.
    Dr. Robinson. There are a number of ways to look at it. One 
is that there is a tremendous amount of uncertainty, and there 
is uncertainty about what our legal basis is to move forward 
with specific authorized efforts, and we are working through 
that. And without clarity, it is a long task to be able to 
buttress that, the argument that we can move forward.
    Also, the funding levels. In the various acts, we have seen 
different funding levels, and so there is uncertainty around 
that and then also, of course, whether or not there will be 
reductions taken further from those bills or even further in a 
full-year CR.
    And so in that kind of environment, it is just very 
difficult to put your foot firmly on the path and start walking 
because you are still trying to make sure that you are going in 
the right--that you will have the resources to get there. And 
so it is mainly that, that just puts a damper on the system 
from being able to move forward quickly.
    Senator LeMieux. Can you give us some examples of things 
that you cannot do because the funding is in question?
    Dr. Robinson. We have moved forward in select areas. The 
real issue is not whether or not a specific activity is one we 
can pursue. It is how much we can pursue it. For example, will 
we get funding at a specific level for heavy lift? What will 
that funding level be? You will have a different program if you 
start out at a different funding level in the first year and 
thereabouts. And so it is not a specific activity. It is more 
you just cannot finalize your plans until you have the overall 
funding and other terms and conditions set so that you can move 
forward.
    Senator LeMieux. Dr. Holdren, can you speak to this topic?
    Dr. Holdren. Well, I guess I cannot speak to it as 
accurately or with as much information as CFO Robinson can do. 
I am the Science and Technology Advisor. I cannot really speak 
to the details of the constraints of existing legislation and 
lack of appropriations on exactly what NASA does. I think that 
expertise resides both to my right and to my left.
    Senator LeMieux. Well, it is my hope that this will get 
resolved and the language that Senator Vitter proposed or 
others have suggested can get done. It seems time and time 
again this Congress' dysfunctionality and failure to move on 
things is causing paralysis out in the world. And for my 
colleague from Florida and I, this is a big issue because this 
is not just an abstract issue and it is not just manned space 
flight which is an essential part of being exceptional in this 
country, all important things, but it is people's lives. There 
is an article today from the Orlando Sentinel about NASA's 
human space flight program, that it is adrift. You know, there 
is all this uncertainty. What is it going to mean for the 
people of our state?
    So working with Senator Vitter, with the Chairman, with our 
Ranking Member, and others to get this done, helping us get 
this done I think is very important. So I appreciate your 
statements today that you will do that.
    Thank you very much, Mr. Chairman.
    Senator Nelson. Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding the hearing and the witnesses for being here and 
their input on these important issues.
    I want to bring up the issue of solar electronic propulsion 
demonstration with you, Ms. Robinson, if you could. The NASA 
Reauthorization Act calls for a balance between human 
spaceflight using and building upon existing capabilities and 
then investing in new capabilities. One such technology is 
solar electronic propulsion.
    So what is the current status of the research on that, and 
how much is NASA budgeting for that demonstration in the next 
5-year time window, 2011 to 2015?
    Dr. Robinson. Well, I will have to get back to you on the 
specifics of how much we are spending now and how much we have 
carved out in the future lines. Again, given the uncertainty 
that we have, some of the lines that would support solar 
electric propulsion are the ones that are most in question.
    But NASA is very excited about that technology and is 
pursuing it in a number of laboratories and certainly in a 
concerted research effort. That was one of the technologies 
that we want to bring forward and bring to a higher technology 
readiness level so that we can start demonstrating its effects.
    Senator Cantwell. Well, it obviously factors into the human 
exploration framework team for space missions.
    Dr. Robinson. Right.
    Senator Cantwell. I guess a budget number is what we are 
really after for Fiscal Year 2011 to Fiscal Year 2015.
    Dr. Robinson. We will do that for the record.
    Senator Cantwell. Great.
    Another thing that is of lots of interest, I think, across 
the country is the site selection process for the retired 
shuttles. Obviously, the NASA Authorization Act of 2010 stated 
that these space orbiters shall be available and located for 
display and maintenance through a competitive process. Could 
you describe for the Committee what that competitive procedure 
or process is and what is being undertaken?
    Dr. Robinson. Well, the process that we have at NASA--it 
will be the Administrator's decision where the orbiters go. We 
have put out several requests for information. We have been 
contacted. It has been wonderful. We have been contacted by 
hundreds of potential applicants, and we have been looking--the 
team, which I am not on, but the team has been looking through 
and evaluating those proposals from potential museums and sites 
as to some of the key factors that the authorization bill and 
other places have stressed for us in terms of how many students 
can see it, do people around the country have access to them. 
And so that evaluation is ongoing.
    Senator Cantwell. When you say a team, is that a site 
selection committee?
    Dr. Robinson. No. It is just a team that is looking at the 
information and advising the Administrator.
    Senator Cantwell. And so what will the Administrator make 
his decision on?
    Dr. Robinson. He will make his decision based on several 
criteria that have been set forth and talked about in the 
request for information. I will have to get those for you for 
the record. I cannot list them all.
    Senator Cantwell. And is there going to be geographic 
diversity as part of the consideration?
    Dr. Robinson. That is part of the consideration, yes.
    Senator Cantwell. Will the White House be involved?
    Dr. Robinson. We will have to get back to you for the 
record. I am not involved in the process. I do not believe they 
are. It is the Administrator's decision.
    Senator Cantwell. Well, I think there are a lot of 
different people who are very interested in this, and I think 
the RFI has stipulated that $28 million was required to be 
interested. Anyway, I think there are lots of different 
changing things here, and I think what people are looking for 
is a process that people really understand, that it is 
transparent, that people know what the requirements are, and if 
the Administrator is going to make the decision and on what 
basis is the Administrator going to make the decision. So if it 
is not an official RFP with a site selection process and it is 
just advice, a little more framework--obviously, communities 
like ours have already built an entire infrastructure around 
the public access to our space and flying history and obviously 
would like to build on that further, but certainly want to 
understand that the western part of the United States is not 
going to be overlooked in the assets that it has brought as 
part of this history.
    So anyway, I mean, is NASA considering the Smithsonian for 
one of these sites?
    Dr. Robinson. As regards to the Smithsonian, the 
Smithsonian has the right of first refusal.
    Senator Cantwell. Why do they have the----
    Dr. Robinson. Why? Because they are the--I do not actually 
know the term of art, but they are the nation's--it is an MOU. 
It is a Memorandum of Understanding with them. The orbiters are 
one class of NASA artifacts that we have interacted with the 
Smithsonian. If you go to the Air and Space Museum, you see 
lots of NASA hardware, and so we have an ongoing MOU with them.
    Senator Cantwell. Are they required to pay the $28 million?
    Dr. Robinson. Yes. At this point, yes. NASA does not have 
the funds to cover transportation and making the orbiters ready 
for using them in public exposure.
    Senator Cantwell. OK. Well, I will look forward to more 
specifics about how the Administrator is going to make the 
decision. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Cantwell.
    Dr. Robinson, you say in your testimony that, ``to best 
manage workforce impacts, the shuttle program needs to confirm 
approval to add the third shuttle flight, STS-135 mission, by 
December 2010.'' Well, we are at December the 1st today, and 
given the Administration's emphasis that we want to supply and 
equip the International Space Station, can you tell me where 
NASA is in the approval process for that third shuttle flight?
    Dr. Robinson. As I said, we have every intention of flying 
that flight. With the continuing Continuing Resolutions, we 
still have some uncertainty about the ultimate funding level, 
and we are trying to quantify what it means to hedge our bets, 
in other words, in case there is a drastic change in funding 
level. But we have every intention of moving forward on that.
    Senator Nelson. Do you concur, Dr. Holdren?
    Dr. Holdren. I do. The only challenge would be is, as Ms. 
Robinson just indicated, if there were a funding level 
drastically different than the one we have been talking about 
here. That would clearly pose challenges. But as we have stated 
here already, we are committed to fly it and with the funding 
levels that have been discussed here, we will certainly be able 
to do so.
    Senator Nelson. Back to the issue of implementing the law, 
you all in NASA already have a general counsel opinion on 
implementing two parts of the authorization law: one, space 
technology; and two, commercial crew. And you have a legal 
opinion that says that you can pursue that. The question is, 
why do we not have a legal opinion on pursuing the part of the 
new authorization law on the Space Launch System, which is the 
heavy lift vehicle, and the multipurpose vehicle, which is the 
crew capsule?
    Dr. Robinson. Well, as I referred several times here, it is 
a lengthy thing to generate these opinions. We actually have a 
third now. We have a third for the ISS NGO, the nongovernmental 
organization, that will be doing the research which was 
authorized in the act. So they have cleared that too.
    I think the issue of priority was which program needed 
clarity first, and space technology was driven primarily by the 
cycle for graduate students, that they wanted to be able to 
tell potential graduate students that there would be funding 
available for that graduate program. I already know that they 
are working on the one for heavy lift and the Orion Multi-
Purpose Crew Vehicle.
    The other thing about those activities is that they have 
been able to go forward with a whole host of things that are 
just in line with setting priorities among the Constellation 
activities and have not really needed any buttressing to be 
able to make progress, and that is the only reason that they 
were further down in the list.
    Senator Nelson. Do you know when we might expect those 
legal opinions to be produced on those two items?
    Dr. Robinson. I do not know exactly when, but I know they 
are working them as we speak.
    Senator Nelson. Dr. Holdren, I want to come back to this 
theme of consensus building. The perception of the President's 
position did not, in this Senator's opinion, do justice to the 
President in the way that the budget was rolled out on the 
President's budget for NASA. And in order to avoid the disaster 
of that perception in that budget rollout, can you express to 
this committee the intent of collaboration between the Congress 
and the Administration and the Agency to be improved as we are 
now looking to next February in the rollout of the next 
President's budget which is the 2012 budget request?
    Dr. Holdren. The short answer, Senator, is yes. The 
slightly longer answer in support of that is that I think we 
are in a much better position now with the Authorization Act 
passed and signed by the President giving direction. This 
provides a basis for our consultations and collaboration going 
forward, which I think will be very beneficial, and it is 
certainly our intention to collaborate and cooperate with this 
committee and others in the Congress as we move toward a Fiscal 
Year 2012 budget proposal.
    Senator Nelson. So, is the new law being incorporated into 
the Fiscal Year 2012 planning process of the budget?
    Dr. Holdren. Of course, it is. It has to be. There is no 
way that we could meaningfully think about the 2012 budget 
without taking into account the guidance of that legislation 
which is now law.
    Senator Nelson. And in the spirit of collaboration, of 
which there has been some paucity in the past--and I refer back 
to specifically the previous budget--are you going to seek--and 
by the way, the paucity is not directed at you personally, but 
you are the Science Advisor. And so my question is, will you 
seek Congressional input before the rollout of that budget in 
February?
    Dr. Holdren. Well, sir, again the answer is yes. And as you 
will recall, even in the circumstance of the 2011 budget, you 
and I met on a number of occasions to discuss the priorities 
and the issues there. I met with Senator Vitter on one occasion 
to discuss issues around the space program and the budgets 
going forward. So I would not quite agree that there was--there 
may have been a paucity in the sense that it was not 
sufficient, but there was consultation before and there will be 
more consultation going forward.
    Senator Nelson. Well, it was certainly insufficient in the 
rollout of the budget with the use of the words ``cancel the 
Constellation program'' because that was not the intent that 
the President was trying to convey. And that is why I keep 
harping on the issue of collaboration.
    Dr. Holdren. We will do better this time.
    Senator Nelson. Senator Hutchison?
    Senator Hutchison. Could I be added to your list of people 
with whom you consulted?
    Dr. Holdren. Yes. I did also consult with Senator 
Hutchison. That is true. I apologize for omitting that.
    Senator Hutchison. All right.
    I think the point is that we would like to all be on the 
same page because it will just be more expedited if we are. I 
think you all have been forthcoming and I appreciate it very 
much. Just know that if we can all agree on language and all 
put our collective weight behind getting it into the CR so that 
we can move forward--we need the design to be done so that we 
can fully fund that because it is our highest priority in order 
to shorten the gap that we would have to depend on Russia to 
get our people into the Space Station and, second, to fully 
utilize the Space Station. So I think that going forward, we 
just have to collaborate right away on the CR language that 
would satisfy all of the potential legal hurdles to going full 
force toward the design of the next launch vehicle with the 
crew capsule.
    Dr. Holdren. I agree.
    Senator Hutchison. Thank you.
    Senator Nelson. Senator Vitter?
    Senator Vitter. Yes. Just as a quick follow-up to something 
the Chairman mentioned, Ms. Robinson, the three opinions that 
you have--were those three activities all activities included 
in the President's budget proposal and submission plan?
    Dr. Robinson. Two of them definitely were. The commercial 
crew one--they were cleared to do a different activity than 
what was proposed in the President's budget. It was not the 
full-up crew activity that was proposed there.
    Senator Vitter. But he certainly had a lot of commercial 
activity in the budget that was similar or consistent.
    Dr. Robinson. Yes.
    Senator Vitter. Well, my point is simply this. You have 
three opinions. They are all basically about activity that the 
President wanted as reflected by his budget submission. You 
have no opinions yet about the changes Congress made. That is 
sort of a perfect example of the sort of thing to date that has 
us skeptical and concerned, and that is what really needs to 
change so that we come together around what is law and move 
forward aggressively around every aspect, not just certain 
favored aspects about what is law.
    And I think this CR language discussion is very useful. 
First of all, it is the next step in terms of what we all need 
to accomplish. Second, I think it will be a very useful test. I 
mean, if the Administration wants that to happen, it will 
happen. If the Administration is not committed to really coming 
together and aggressively implementing the new authorization 
language, it will not happen. So I consider it an immediate and 
useful test because it should not be difficult, particularly 
considering the President's leverage of--in any CR discussion 
it should not be difficult to accomplish. So I am certainly 
hopeful it will happen and we will see.
    Thank you.
    Senator Nelson. Do not worry, Ms. Chaplain. We are going to 
get to you.
    Dr. Robinson, if we are under a CR at the 2010 funding 
level which was the $18.724 billion level, what recommendations 
would you provide to the Administrator of NASA for the 
necessary $276 million funding reduction from what was 
authorized in the NASA bill, which is $19 billion?
    Dr. Robinson. Well, the Administrator has already 
considered that, and he decided that the best place to take 
that money would be the 21st Century Launch Complex Initiative 
for 2011. The fact that we are already a quarter in--the fact 
that the bulk of that money is being spent on things like 
construction and things like that, we thought that it would be 
difficult at this point, once we get clearance, to actually 
obligate all that money. And so he wanted to take the reduction 
there with the thought that we would make it up later.
    Senator Nelson. Even though some of those projects are 
already underway?
    Dr. Robinson. No. Some of the projects are definitely 
underway, but for the full $429 million program, all of that is 
not planned and underway.
    Senator Nelson. By that, is the implication of your answer 
that you would pick up that full funding for the 21st century 
launch center in fiscal year--it would be 2012, starting in 
October of 2011?
    Dr. Robinson. Right. The commitment to that initiative is, 
I believe, $1.9 billion over 4--5 years. And so we would 
rephase it. We would look and see when we needed to obligate 
money for the various projects, but that would be our intent if 
NASA is blessed with having the funding levels continue in the 
out-years.
    Senator Nelson. Well, if you would pass on to the 
Administrator that I would like to know the specifics of that. 
One of the President's major goals that he stated in the speech 
down at the Kennedy Space Center is that in order to be able to 
have the NASA of the future, you have got to modernize the 
facilities that in fact are used to launch the space vehicles. 
And that we cannot lose any time on. So I want to see the 
implementation of what the Administrator would be proposing 
there.
    Dr. Robinson, how would the agency prioritize the funding 
cuts if they are more dramatic?
    Dr. Robinson. Well, I have agreed we will look to the 
Congress to provide us guidance on how to do that. For example, 
one level that is talked about is the 2008 funding level which 
for NASA was about $17.4 billion, a $1.6 billion cut from the 
numbers that we have talked about. We are already a quarter 
into the fiscal year basically, and so it is even more of a 
magnitude cut for the remainder of the year. And we would have 
to look very hard at places where we could instigate those 
kinds of savings on that kind of timetable. It would be a truly 
drastic situation at that point and we would be looking to be 
able to share the expenses wherever we could. But most of our 
programs are long-term. Most of them have long-term contracts, 
and so we would be limited in many different areas to 
implementing a cut that quickly.
    Senator Nelson. You have heard this recent Casani report, 
and Dr. Holdren, I will ask this to you as well. It documents 
the major financial problems with the James Webb Space 
Telescope. It is going to cost more money, and it is going to 
add another year to the development on a schedule for a launch 
somewhere around 2014. So how is NASA responding to the 
reports, and will the funds from other programs have to be 
shifted to allow the telescope to move forward in a timely 
manner? Dr. Holdren?
    Dr. Holdren. Well, I would start by saying that I was 
certainly very disappointed to read the findings of the Casani 
report indicating the dimension of the problems with the James 
Webb. We think the James Webb is a very important component of 
our ability to understand the universe going forward. It is a 
very important successor to the Hubble. And given its 
importance and given the difficulty that we now understand that 
program is in, I can assure you that a very hard look is being 
taken in NASA at how those challenges are going to be addressed 
and ameliorated. It is possible that CFO Robinson can add 
something about that process that is going on, but I know from 
my own direct interactions with Administrator Bolden that this 
is now a very serious focus of his attention.
    Dr. Robinson. I wanted to add to that too that when we all 
read the Casani report, we were heartened to see that the 
program is making its technical milestones, but from a 
budgeting and planning perspective and a lot of the work that 
we have done with GAO, it simply had not followed those. It was 
somewhat shocking actually that it had just not followed the 
normal NASA procedures. And so we are taking a look at that.
    The Casani report gave us a parametric look, a broad scale 
look at the money that was going to be needed. Also, they were 
looking at the quickest route to get there which would involve 
changes this year. Of course, we are already a quarter into 
this year and we are unlikely to be able to implement increased 
funding this year to the level that Casani was recommending 
earlier. And so we are doing a bottoms-up analysis trying to 
get a more detailed cost estimate, looking at the phasing in 
the budget for that program, and we will be presenting more 
details in the 2012 budget.
    Senator Nelson. If the newspaper accounts are accurate that 
I have read, this could be a hit of something like $200 million 
in 1 year in order to make up for the deficiencies in the 
telescope project. Is it the position of the CFO to recommend 
to the Administrator a place to take that $200 million if that 
is the Administrator's decision?
    Dr. Robinson. The way we do this at NASA is a very 
collaborative effort. The Science Mission Directorate, which 
owns JW and a whole host of other programs, will be looking 
hard at that funding profile. The Casani report was about $200 
million a year. So that is in line with what they said. And we 
will just have to do an analysis throughout the entire budget 
of where to make those kinds of changes.
    Senator Nelson. Ms. Chaplain, could you comment on behalf 
of GAO on this Casani report?
    Ms. Chaplain. We were very disappointed to see the findings 
of the report. In my own mind, it kind of has to re-baseline my 
thinking about the improvements NASA has been making because we 
have been hearing for several years now that we have a plan, we 
are trying to incorporate those practices, we are trying to 
reflect them where we can. And James Webb was actually one 
program where you did see those practices reflected in the 
technology development portion of it. But then to have this 
kind of news come out so late in the game after so much has 
been spent is very disconcerting and disappointing. I think 
NASA really needs to pay attention to the report and really 
examine the accountability processes it has, the oversight 
processes it has to make sure they are the most effective as 
possible.
    Senator Nelson. And this was at the same time that NASA got 
some good news that it achieved a qualified opinion from the 
auditors for the first time since 2002. So, Ms. Chaplain, what 
issues does NASA need to address in order to continue this 
forward progress?
    Ms. Chaplain. I think NASA is making good progress on the 
financial statement side of things and the accounting side of 
things. I think where progress really needs to be made is 
translating the good practices that are embedded in their 
policies and procedures into real decisions and getting more 
insight into programs early in their development. In the case 
of James Webb, we will not have official cost estimates or a 
lot of information until they have been in development for 
quite a long time, years maybe. So the more we could have some 
insight up front to see if programs are really being set up for 
success and we have more indicators about whether management 
reserves are sufficient or not and have more insight into 
things like cost estimates, the better off everybody will be 
because we can see what kind of path a program is headed down. 
So it is a matter of gaining more insight up front and also 
getting more accountability and attention to actually 
implementing the policies that are on paper.
    Senator Nelson. Your written statement, Ms. Chaplain, puts 
emphasis on the design stability prior to proceeding. The new 
law adopts a proven heritage approach to development of the new 
launch system which requires maximum use of design elements 
with a large body of experience and knowledge behind them. Do 
you think that if the law is implemented by NASA in this way, 
that it is going to contribute to an increased chance for a 
successful space launch system development?
    Ms. Chaplain. I think there were a lot of good practices 
reflected in the authorization, including an emphasis on 
evolutionary development. That way you are putting off some of 
the more challenging and costly aspects to later on, relying on 
heritage, as you said, encouraging earlier design knowledge 
than would normally be attained, and also scaling requirements 
to a minimum and being flexible.
    That said, I still have concerns when I see any effort like 
this. There is a tendency across NASA and, as you know, the Air 
Force, to consistently underestimate--or overestimate--how much 
heritage technology you can actually use in your next project. 
So while it seems like we can use a lot of the stuff that is 
already around, we do not always have realistic estimates of 
the engineering and integration needed to make that happen.
    Also, when we have dates set out in a bill or anywhere else 
that are kind of set out there in stone, you have to be careful 
because sometimes it can encourage an agency to take higher 
risk development paths. They may do more concurrent 
development. They may skip testing and things like that if 
their progress is not going well. And that is why it is just 
very important to have a lot of insight into the progress NASA 
is making. Do not just accept what they tell you up front about 
what can be done and not done. You really have to have checks 
along the way to see what is that progress, is what they are 
saying really happening, and get back the knowledge that you 
need about technology design, production, and all those other 
issues.
    Senator Nelson. We were pressing for a focus on 
transparency and accountability, and that has certainly been 
the theme of a lot of your recommendations. And that is what we 
were looking for in section 309 of the law. It is a reporting 
requirement on launch vehicle design and development, both for 
the initial launch system design and the subsequent annual 
reporting requirement. We anticipate an initial 90-day report 
to result in what they call a baseline program.
    What else do you believe that we as the oversight committee 
should be looking for to ensure the transparency and 
accountability?
    Ms. Chaplain. I think as the program proceeds, you probably 
want to get knowledge indicators, things like technology 
maturity readiness levels, design stability readiness levels. 
It is one thing to have an architecture kind of laid out in the 
beginning, but as the program proceeds, you actually want to 
see the number of design drawings that are releasable so you 
can see the progress the program is making on that.
    Also, you need to look at things like management reserves, 
the funding that is available to the program, and things just 
like how is the contract working. In the Constellation program, 
the contract was undefinitized for a very, very long period of 
time, meaning a lot of things were still in flux and you could 
not set baselines down early on to manage contractor progress. 
So there are a lot of just key knowledge indicators that I 
think are typical in any type of review of a program that you 
want to keep following as the program proceeds.
    Senator Nelson. Senator Hutchison?
    Senator Hutchison. Thank you all very much.
    Senator Nelson. Yes.
    Senator Hutchison. This has clarified a lot and I think we 
can all go forward now very productively. Thank you.
    Senator Nelson. To put it in the vernacular, we can all get 
hitched up in a harness all pulling in the same direction. What 
is at stake is very, very important, and that is the future of 
our American space program. And we are at a critical juncture 
here for everybody that has helped us get to this point, which 
I believe the President is--this is his vision for a vigorous 
space program, both human and robotic. So, I hope we have 
brought to light some clarity on the future direction as a 
result of this hearing.
    And with that, the hearing is adjourned, and thank you.
    [Whereupon, at 12:14 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    The NASA Authorization Act of 2010 was signed into law nearly two 
months ago. The bill was the culmination of a spirited year-long debate 
between members of Congress, the Administration, the space community, 
and the American public on the future of America's space agency. We 
were able to find a sensible center, and the resulting bill signed into 
law will help refocus and reinvigorate NASA, while making key 
investments in aeronautics, science and human space flight missions.
    For this achievement, I again want to thank my Committee 
colleagues--the Committee's Ranking Member, Senator Kay Bailey 
Hutchison, and the Science and Space Subcommittee Chairman, Senator 
Bill Nelson--who worked day-in and day-out to get this bill passed and 
sent to the President's desk.
    Passing the NASA Authorization Act of 2010 into law was the first 
step. We're now in the implementation process. This transition is an 
opportunity to chart a clear course forward for NASA, but we must 
remain vigilant to ensure implementation throughout the authorization 
period. Objectives must be achieved in a fiscally responsible manner. I 
intend to fully exercise this committee's oversight role throughout the 
transition and implementation of the NASA Authorization Act.
    With proper implementation of the law, I believe NASA can continue 
to lead the world in innovation and discovery, and inspire future 
generations of scientists. Dr. Holdren, the Director of the Office of 
Science and Technology Policy, joins us today to discuss these 
opportunities, as well as the Administration's plans for implementing 
the NASA Authorization Act. Also joining us is Dr. Beth Robinson, 
NASA'S Chief Financial Officer. This is Dr. Robinson's first time 
testifying before the Committee since her confirmation hearing.
    I have made my concerns about NASA's fiscal and program management 
clear. At the first hearing we conducted on NASA this year, I stated 
that I wanted strong financial accountability from NASA's Chief 
Financial Officer. Dr. Robinson, you have been on the job now for just 
over a year. I look forward to hearing what advice and options you have 
provided to the NASA Administrator, and what actions you have taken to 
strengthen the agency's financial management.
    Finally, we have two experts from the Government Accountability 
Office here today. Ms. Cristina Chaplain, Director of Acquisition and 
Sourcing Management, and Ms. Susan Poling, the Managing Associate 
General Counsel, will provide guidance on how NASA can improve its 
financial and acquisition management to ensure effective implementation 
of the NASA Authorization Act.
    I want to thank all of our witnesses for being here today. I look 
forward to your testimony.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                      Hon. John P. Holdren, Ph.D.
    Question 1. I have long believed that in the operations of the 
government, the national policy should serve to drive the allocation of 
resources. The Budget should not drive the policy. Certainly, there are 
times of limited resources--I am one who believes the government should 
always be the consumer of limited resources--but that is one of the 
considerations that policymakers must take into account in defining the 
policy. All too often, it seems, we have seen the Office of Management 
and Budget drive the policy for the U.S. Space Program. As the Director 
of a White House Policy office, how do you view the distinction between 
policy and budget?
    Answer. As you indicate, budgetary issues must be considered in a 
careful and realistic way by policymakers, and the same is also true in 
reverse. One cannot take a linear approach to these considerations, 
that is to say, considering policy before budget or budget before 
policy. Instead they must be addressed concurrently, in an integrated 
manner, in order to identify a stable and achievable plan.

    Question 1a. Did OMB, for example, have to review and approve your 
testimony before this Committee today?
    Answer. As you are aware, the Office of Management and Budget (OMB) 
Circular A-11 requires all budget-related materials to be reviewed by 
OMB. This guidance applies to testimony before Congress as well.

    Question 2. As you know, the past 9 months has seen a vigorous 
debate regarding the correct ``policy'' for moving forward with human 
space flight programs in this country, whether government, commercial, 
or some blending of both. The NASA Authorization Act of 2010, agreed to 
in principle by the President, as communicated to the Chairman of this 
Committee and others before we marked up and reported that bill, 
established what was clearly a compromise among the many diverse views 
on that subject. The President signed that Act into law. In your view, 
does that unqualified signature represent, in effect, the President's 
agreement with--even his adoption of--the policy embodied in that law 
as the new policy of his Administration?
    Answer. I believe the President's signature demonstrates the 
Administration's strong support for the NASA Authorization Act, which 
will help put the nation on track for an ambitious and sustainable 
future space program.

    Question 3. What have you done to ensure that your relevant 
deputies, chief of staff and supporting staff have a clear 
understanding of the President's acceptance of the direction provided 
by the NASA Authorization Act of 2010?
    Answer. I have communicated clearly to my staff, and also with 
NASA's senior leadership, that the Administration is committed to 
following the law in pursuing these and all other programs, as I have 
previously stated.

    Question 4. What would your response be to information that any 
member of your staff were acting in a manner contradictory to that 
direction?
    Answer. I would work with my staff to address such a situation and 
correct any misunderstandings or errors.

    Question 5. There appears to be a focus only on implementing those 
portions of the law that were a part of the President's request. That 
was not the expectation of this Committee in accepting those portions 
of the request as part of the authorization bill. In fact, the 
Committee--and the Congress--placed a higher priority through numerous 
expressions in the act of moving forward quickly on the development of 
a new replacement set of vehicles for the Shuttle. What steps will you 
take to ensure the full intent and purposes of the Act are carried out?
    Answer. I believe the Administration and Congress share the goals 
both to assure timely U.S. access to the International Space Station 
after the retirement of the Space Shuttle, and to swiftly assure a 
worthwhile beyond-Earth-orbit human spaceflight and exploration program 
that initiates a new era of discovery for the next generation in a 
cost-effective and timely manner. I am confident that NASA will 
implement its programs consistent with these goals, and both I and my 
staff intend to continue coordinating with NASA regarding these 
activities going forward.

    Question 6. Timing is one of our significant enemies in the 
situation in which we find ourselves. The Administration is already 
pulling together the content of the FY 2012 Budget Request. We expect 
it will be rolled out--this time with a markedly improved pre-briefing 
to the Hill--in early February. Yet we are being told we may expect to 
see only an interim report on the design for the Space Launch System by 
the middle of January--and that, in fact, the target date for 
completion of three studies currently underway is mid-February--after 
the FY 2012 Budget submission. The Congress has made it clear we need 
to begin immediate development of the Space Launch System. . . . . . . 
As a reference point, I note that the Administration indicated it would 
offer an amended budget request for Exploration Systems when you 
released the FY 2010 Budget Request with the requirement for the 
Augustine Report. In the end, you did not do that, and chose to come 
back, instead, with the FY 2011 request which ultimately was 
unacceptable to the Congress. Can you commit to us today that the 
Administration will be willing to offer an amended budget request for 
this portion of NASA to reflect the needed funding levels for 
expeditious development of the Space Launch System?
    Answer. The President's budget will be released on February 14, and 
we look forward to working with you throughout the budget process. Any 
amended budget request for NASA, or any other agency for that matter, 
would be transmitted by the President.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                      Hon. John P. Holdren, Ph.D.
    Question 1. During the hearing, I requested copies of two items to 
be provided to myself and to the other members of the Committee:

        a. A copy of a letter from the President or a senior official 
        within the White House to the appropriate Senate and House 
        leadership, stating the Administration's support for clarifying 
        language in any FY 2011 appropriations legislation to remove 
        any constraint from initiating full and active development of 
        the Space Launch System and Multi-Purpose Crew Vehicle, as 
        provided in P.L. 111-267, and

        b. A copy of the draft language that would accomplish the above 
        objective, which Dr. Robinson said had been prepared.

    I received a letter from you dated December 7,<SUP>*</SUP> 
addressed to me, stating the support of the Administration for 
clarifying language, and noting that such language had been forwarded 
to the Congress requesting government-wide permissive language to 
initiate new programs. That letter will be included for the record. 
However, to date, I have seen neither the language referred to by Dr. 
Robinson in that conversation, nor the language mentioned in your 
referenced letter as having been sent subsequent to the hearing. Nor 
have I received a copy of any communication to the appropriate Senate 
and House leadership requesting consideration of either set of 
language. Can you please provide these materials for the hearing 
record?
---------------------------------------------------------------------------
    \*\ The letter referred to is printed at the end of the appendix of 
this hearing.
---------------------------------------------------------------------------
    Answer. I was pleased to send you the referenced letter regarding 
the Administration's support for clarifying language on new FY 2011 
programs under a CR. Further, as I indicated in that letter, quickly 
advancing the new initiatives reflected in the Act is a goal we share. 
As is custom, the Administration provided informal technical assistance 
to the Appropriations Committees to assist them in drafting the CR. 
There is no official public list. With respect to your request of Dr. 
Robinson, I must refer you to her and to NASA Administrator Bolden.

    Question 2. As you know, in the end, following the hearing, neither 
the proposed omnibus appropriations or the ``instructional'' Continuing 
Resolution were adopted, both of which did include the necessary 
clarifying language, and a relatively ``clean'' CR was adopted to fund 
the government through March 4, 2011. There will then be another 
opportunity to address this issue with a request for clarifying 
language as the Congress considers a successor to the current CR prior 
to March 4, 2011. Please provide both the assurance that the 
Administration will pursue the required language change, if still 
deemed necessary, as well as supporting correspondence and 
documentation.
    Answer. As I noted to you in my letter of December 7, and as you 
quote immediately below, making immediate progress in advancing the 
goals and requirements contained in the 2010 NASA Authorization Act is 
a goal we all share. That is and will remain a fundamental priority of 
the Administration.

    Question 3. In the letter referenced above, there appears to be a 
discrepancy between part of the content and statements made by Dr. 
Robinson during the hearing. Specifically, the letter states:

        ``Making immediate progress in advancing the goals and 
        requirements contained in the 2010 NASA Authorization Act is a 
        goal I believe we both share. However, as both you and the U.S. 
        Government Accountability Office noted at the hearing, the FY 
        2010 NASA appropriations contains limitations on the transfer 
        of funds from certain programs, and also contains limitations 
        on using funds to `create or initiate a new program, project or 
        activity, unless such program termination, elimination, 
        creation, or initiation is provided in subsequent 
        appropriations Acts.' ''

    During her oral statement, Dr. Robinson stated, with respect to the 
appropriations restrictions and limitations noted in your letter:

        ``. . . we have not yet found anything in the Authorization Act 
        on which we cannot proceed, but we are not done with our 
        analysis, this unfortunately lengthy analysis, and we are 
        working the issue daily. However, there are some areas in which 
        we can clearly proceed. For example, planning efforts for the 
        heavy lift and multipurpose crew vehicle activities, both 
        authorized in the act, are proceeding and are assessing the 
        transition from the Constellation efforts to the new 
        programs.''

    There appears to be a difference in interpretation between these 
two statements and their representation of whether the FY 2010 
appropriations language is, in fact, an impediment to moving forward 
with the ``redirected'' program. Note my use of that term, or the term 
``modified'' which would be equally applicable; neither of which were 
included in the restrictions put in place by the appropriators before 
the Congress had completed its consideration of the FY 2011 Budget 
Request. Could you explain the precise situation as you see it, and 
whether or not NASA is in any way being hampered in moving forward with 
implementation of the Act in the current appropriations situation?
    Answer. My letter to you accurately reflected the views expressed 
by both Members of the Committee and the U.S. Government Accountability 
Office on this subject, i.e., that some restrictions were in fact in 
place and that these restrictions could be an impediment to significant 
progress for various programs. I was pleased, as I am sure you were, to 
hear Dr. Robinson describe what is apparently a deliberate, case-by-
case approach to assessing how or if one of those limitations--that on 
``new starts''--applies to the initiatives of the 2010 NASA 
Authorization Act, and that perhaps the actual impacts of that 
restriction will be more limited than initially feared in many cases. 
In this context, it appears that NASA is able to move forward 
productively in several efforts, but I must defer to Administrator 
Bolden and his legal experts on the specifics.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Orrin G. Hatch to 
                      Hon. John P. Holdren, Ph.D.
    Question 1. Dr. Holdren, in your testimony before the Commerce 
Committee you stated ``We are committed to following the law [the 2010 
NASA Authorization Act]. The President signed it. The Congress passed 
it. We will follow it and we will execute it and implement it to the 
best of our ability.''

    a. Will the Administration and NASA fully, faithfully and timely 
implement the provisions of the 2010 NASA Authorization Act, including 
Sections 302 and 304 which, in part, direct the agency to build a new 
heavy-lift Space Launch System with the following minimum capabilities?

  <bullet> ``The Space Launch System shall be designed from inception 
        as a fully-integrated vehicle capable of carrying a total 
        payload of 130 tons or more into low-Earth orbit in preparation 
        for transit for missions beyond low-Earth orbit.''

  <bullet> ``Priority should be placed on the core elements with the 
        goal for operational capability for the core elements not later 
        than December 31, 2016.''

  <bullet> In developing the Space Launch System, NASA ``to the extent 
        practicable, [will] utilize existing contracts, investments, 
        work force, industrial base, and the capabilities for the Space 
        Station . . . Ares 1 projects, including . . . Space Shuttle-
        derived components and Ares 1 components that use existing 
        United States propulsion systems including . . . solid rocket 
        motors . . .''

    b. If not, under what legal authorities does the Administration and 
NASA cite and argue justify violating the law?

    c. Will the Administration and NASA fully, faithfully and timely 
implement the intent of Congress, which was written by the Senate 
Commerce Committee and included in the legislation's report, including 
the following section?

    The Committee anticipates that in order to meet the specified 
vehicle capabilities and requirements, the most cost-effective and 
``evolvable'' design concept is likely to follow what is known as an 
``in-line'' vehicle design, with a large center tank structure with 
attached multiple liquid propulsion engines and, at a minimum, two 
solid rocket motors composed of at least four segments being attached 
to the tank structure to form the core, initial stage of the propulsion 
vehicle. The Committee will closely monitor NASA's early planning and 
design efforts to ensure compliance with the intent of this section.
    Answer. NASA has recently transmitted to Congress its interim 90-
day report describing its progress in assessing designs and acquisition 
approaches for the Space Launch System (SLS) and the Multi-Purpose Crew 
Vehicle (MPCV). In that report NASA clearly indicated that its 
baseline, reference design for the SLS is consistent with the technical 
requirements spelled out in the 2010 NASA Authorization Act (i.e., the 
Act). Specifically, this reference design reflects a launch vehicle 
with an ``in-line'' configuration that uses the Space Shuttle main 
engine, the Shuttle/Ares solid rocket boosters, and the Space Shuttle 
external tank and that can ultimately be capable of lifting 130 tons or 
more to low-Earth orbit. As you know, that report indicated that there 
are challenges associated with meeting the combined cost and schedule 
restraints in the Act for this reference design. Therefore, NASA has 
indicated that it will continue to study affordability initiatives and 
approaches for addressing these challenges in an effort to achieve the 
goals of the Act in an affordable and sustainable manner. We believe 
that this is an appropriate and prudent exercise and look forward to 
NASA's conclusions.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                       Hon. Elizabeth M. Robinson
    Question 1. Can you describe a summary of your role and 
responsibility as the National Aeronautics and Space Administration 
(NASA) Chief Financial Officer (CFO)? Who do you work for? What is your 
reporting chain?
    Answer. The CFO reports to the Administrator and Deputy 
Administrator of NASA, and is an employee of NASA. NASA's CFO is also 
appointed by the President and is confirmed by the Senate; and she 
reports to the Administrator of NASA. The role as CFO is summarized in 
NASA Policy Directive 1000.3D which states, in part, that the NASA CFO 
``a. Oversees all financial management, budget, strategic planning, and 
performance activities relating to the programs and operations of the 
Agency[; and] m. Leads the Agency's effort in financial reporting under 
the CFO Act and coordinates on the Annual Performance Plan and 
Performance Report in accordance with the Government Performance and 
Results Act (GPRA) of 1993 (Public Law 103-62), as amended, and other 
relevant legislation.''

    Question 2. I assume you believe it is your sworn duty to uphold 
the laws of the United States, so I won't ask that direct question. But 
do you see it as your role, in upholding those laws, to seek every 
means possible to ensure the resources available to the Agency are 
effectively marshaled to enable the fulfillment of the requirements of 
the law?
    Answer. Yes. In carrying out duties under the CFO Act, part of the 
CFOs responsibilities includes oversight and effective financial 
management of Agency resources and their strategic alignment with 
Agency mission--in collaboration with the Administrator, NASA 
leadership, and the applicable programs--consistent with all applicable 
laws, regulations and national policies.

    Question 3. Would you agree that it is not your role to second-
guess, or impose your own judgment on the wisdom of the applicable laws 
governing NASA programs and policies?
    Answer. Yes. The CFO, like any other NASA employee, always attempts 
to faithfully carry out the law. Without questioning the wisdom of any 
particular law, part of that role as CFO includes working closely with 
the Administrator, NASA leadership, other Agencies, and Congressional 
Committees on proposals for new statutory provisions, which may include 
improvements or clarifications to existing laws.

    Question 4. Your statement notes the constraints against moving 
forward with some of the requirements of the new NASA authorization law 
(P.L. 111-267) that result from restrictive language contained in prior 
Appropriations Acts in 2009 and 2010 and continued in effect by blanket 
restrictive language carried over into the current Continuing 
Resolution making appropriations through December 3, 2010. Can you 
provide the Committee with a specific list of those activities 
authorized and directed by the law and which you believe continue to be 
constrained by that restrictive language? Include in your accounting, 
the specific legal analysis which supports your belief of the 
continuing restrictions.
    Answer. The FY 2010 Appropriations Act states: ``none of the funds 
provided herein and from prior years that remain available for 
obligation during Fiscal Year 2010 shall be available for the 
termination or elimination of any program, project or activity of the 
architecture for the Constellation program.'' In addition, the 2010 
Supplemental Appropriations Act inserted additional restrictions. These 
provisions continue to apply, despite the fact that the 2010 
Authorization Act makes no reference to the Constellation Program. 
While many aspects of the Constellation Program have applicability to 
the MPCV and SLS authorized in the Authorization Act, resources cannot 
be fully brought to bear on these new programs without the flexibility 
to terminate Constellation projects and contracts when necessary.
    Regarding programs authorized in the NASA Authorization Act of 
2010, NASA has found no program to date on which we cannot proceed with 
required activities during the remainder of FY 2011. However, until the 
NASA FY 2011 appropriation is finalized, many of these authorized 
activities are not proceeding, due to lack of funding certainty. For 
example, the Act authorized $580M in FY 2011 for Aeronautics 
activities, including several program initiatives. However, the 
annualized CR amount at the FY 2010 level is approximately $501M. At 
this time Aeronautics is not beginning its new initiatives, except for 
prudent preparatory activities.
    In addition, the FY 2011 President's Budget request for Space 
Technology programs is $572M (including Innovative Partnerships 
Program) and the authorized level is $350M; programs have been 
formulated and stand ready for implementation. While not considered 
``new starts,'' without a final FY 2011 appropriation key authorized 
NASA Space Technology (non-IPP) activities will not be awarded.

    Question 5. Below are two charts I understand to be related to the 
HEFT exercise--the Human Exploration Framework Team--so I recognize 
they are not charts that relate directly to the development of plans 
for a Space Launch System, per se. What they seem to reflect, though, 
is a mind-set within the Agency--and particularly within your 
organization--regarding the priority for Human Space Flight programs 
within NASA--a priority that would appear less than that given to those 
areas of activity by the new law. The charts include a number of items 
that would be part of a broader ``Exploration Architecture''--items 
which the law places as downstream initiatives to be undertaken at a 
point subsequent to the development of a new heavy-lift launch 
capability. I want to illustrate the kinds of questions raised by these 
charts to underscore why we are holding this hearing--and why we will 
undoubtedly be holding many more of these kinds of oversight hearings 
in the next Congress.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    First is what is called a ``sand chart'' showing relative funding 
levels across a number of program activities within a given category of 
funding--in this case, it appears, the NASA human spaceflight programs.
    The second chart was provided as partial interpretation of the sand 
chart, in that it describes guidance and budget assumptions--including 
some specifically from your office, the OCFO, or Office of the Chief 
Financial Officer--as of November 3--provided to the Human Exploration 
Framework Team (HEFT).
    Separate information we have been provided along with these charts 
raise a number of questions:

    Question 5a. All categories on the sand chart show declining 
numbers starting in FY 2014--after the period covered by the NASA 
Authorization Act of 2010. What is the basis for that projection?
    Answer. The sand chart does not represent the position of NASA or 
the Administration regarding NASA's budget. It is one early estimate 
from an internal study team of the costs of a specific Design Reference 
Mission (DRM) for a complete exploration architecture, including the 
additional elements required for a deep-space mission. This estimate 
shows numerous elements of the program expanding after 2014. The 
decline for SLS and MPCV starting about 2015 was based on an estimate 
that costs for SLS and MPCV would peak about 2014 during development, 
and then fall off as development completes and the programs shift to 
operations. As SLS and MPCV costs fall off, development of the 
additional elements required for a deep-space mission begins. (Without 
those additional elements, a deep-space mission cannot be performed, 
and MPCV and SLS will have limited utility.)

    Question 5b. NASA Authorization items outside of human spaceflight 
(Science, Cross Agency Support, etc.) are projected to escalate at 2.4 
percent for inflation. Human Spaceflight is escalated only at 1.7 
percent. (This would result in a net reduction in spending power in 
this account of almost a billion dollars per year by 2030.) Can you 
explain why a different escalation projection is used?
    Answer. In past budgets, an escalation projection of 2.4 percent 
was used per A76 guidance for the NASA top-line budget. However, the 
guidance for the HEFT study was to initially use a rate of 1.7 percent 
budget escalation, although this was later changed to 1.4 percent, 
based on the Authorization Act increase from 2012 to 2013 for the 
combined ESMD and SOMD budget projections. Budget escalation is how the 
real year dollars of succeeding budgets change. Thus, when budget-
escalation is less than cost-inflation, which is the case assumed in 
these estimates based upon input guidance, the associated ``buying 
power'' is reduced.

    Question 5c. The 21st Century Launch Complex has to pay for its own 
facility recapitalization costs, rather than be included in the Cross-
Agency Support line item. Assumption of sustaining ISS through 2030 
removes about $30-35B of funds that might otherwise be available to 
Exploration post 2020, if no increase in top line is available through 
that period (which is assumed). Using a 2030 assumption for sustaining 
ISS (while in principal I would not oppose that notion) seems an 
artificial means of constraining our-year funding to force near-term 
design concessions. Can you explain the basis for this?
    Answer. ISS to 2030 was a budget planning assumption for HEFT. 
Based on technical estimates of ISS lifetime and the program of 
maintenance and in-place spares, NASA anticipates that ISS can be 
operated well beyond 2020, and possibly to 2030. The estimate of 
funding available for HEFT prudently assumes that ISS will operate 
through 2030, rather than build a HEFT case that requires arbitrary 
early ISS termination to close financially. If ISS were terminated 
before 2030 but after 2020, the primary effect on this DRM would be to 
advance the schedule of the additional elements required for a Near-
Earth Asteroid (NEA) mission.

    Question 5d. Commercial Crew Transport to ISS was not submitted as 
a costed-effort in the summer to OMB, meaning funding comes from within 
the Exploration line, at an amount estimated at $400-$500M per year 
after 2017. That seems to pose a potential negative impact to Space 
Launch System (Upper Stage) development and Multi-Purpose Crew Vehicle 
operations. Can you explain the reason for not submitting anticipated 
Commercial Crew development as a separate, costed-element within the 
Exploration line? Does that in effect reduce funds otherwise planned 
for Space Launch System and Multi-Purpose Crew Vehicle development?
    Answer. Commercial Crew Development is included in the Exploration 
budget requests for both FY 2011 and FY 2012. Operational support to 
the ISS program, including crew transportation through spring 2016 and 
cargo delivery, is included in the Space Operations budget. Costs for 
ISS crew transportation after spring 2016 are not included in the ISS 
budget request, pending better cost estimates. However, an estimate to 
purchase crew transportation after spring 2016 is included in the HEFT 
analysis. The estimate is based on the projected cost of purchasing 
transportation services from the Russians beyond spring 2016. Although 
commercial transportation services likely will be available in that 
timeframe, NASA at this time does not have high fidelity estimates for 
the cost of those services, so estimates are based on an extrapolation 
of Russian charges for these services.

    Question 5e. Combined result is a decreasing Real Year Budget wedge 
which makes every optional Exploration Plan undoable. Last planning 
exercise to the Black line on the chart reflected an HLV available in 
2018 and a Near-Earth Object mission in 2031. These planning 
assumptions obviously do not reflect what is contemplated by the 
requirements of the Act. Can you explain the basis and justification 
for these planning assumptions being made by your office?
    Answer. The Act authorizes NASA to develop an SLS and an MPCV and 
provides performance, cost and schedule instructions. Beyond the time-
frame of the Authorization Act, NASA presumes the intention of the Act 
is to continue ISS operation and utilization, and to conduct missions 
of exploration. Conducting such missions requires that NASA develop the 
mission payloads that justify the heavy lift and crew vehicles.
    NASA is actively determining the details of programs that comply 
with this direction and assessing the architecture options to meet the 
cost, schedule, safety, and performance requirements as outlined in the 
Act. NASA's planning assumptions are based on what it believes will be 
the funding available from future appropriations in consonance with the 
amounts authorized for the FY 2011 through FY 2013 by the Act. NASA has 
endeavored to properly budget for mandatory and projected expenses such 
as a continuation of ISS. The development of the MPCV and the SLS would 
realistically be funded with the remainder of the total Human Space 
Flight future appropriation. NASA believes that its approach including 
funding assumptions for complying with the Authorization Act is 
fiscally sound and prudent.

    Question 5f. Did you coordinate with Mission Directorates in 
establishing these guidelines, taking into account the requirements of 
the law?
    Answer. Yes, the guidelines were coordinated among Agency 
leadership, including the Mission Directorate elements, taking into 
account the strictures contained in the Act.

    Question 6. Your statement, on pages 2 and 3, describes the need to 
reserve funding under a long-term CR to accommodate potential new 
starts and differing funding levels in the final 2011 appropriations 
bill. What criteria are you planning to apply to the determination of 
those reserves?
    Answer. The FY 2011 funding posture is still unknown. There is a 
likely and potentially substantial risk of further FY 2011 reductions. 
Section 109 of the Continuing Resolution instructs all agencies to 
spend the minimum amount necessary so as to avoid ``imping[ing] on 
final funding prerogatives.'' With the possibility of reductions below 
current CR (FY 2010) levels being considered by the new Congress, care 
should be given to limit spending before the resolution of FY 2011 
appropriations.
    The Agency has been prudent in setting the appropriate rate of 
spending in its accounts within the totals allowed by the FY11 
Continuing resolution. As programs go forth under CRs, NASA is 
cognizant of what the House and Senate have included in their bills for 
the agency. When the final bills are adopted, they will retroactively 
apply constraints and funding levels covering the CR period. Thus, as 
with other Agencies, NASA must generally reserve funding to accommodate 
potential new starts and differing funding levels in the final bill.
    Aggressive pursuit of SLS/MPCV development activities means that 
NASA must start out with credible plans and budgets that will assure 
development efforts will be affordable and sustainable. Much work 
remains to be accomplished over the next few months in terms of the SLS 
and MPCV development effort, such as in-depth planning to synchronize 
the schedules and budgets for both vehicles and supporting capabilities 
such as Ground Operations such that each capability is successfully 
delivered during the right timeframe. Since an integrated schedule for 
the SLS and MPCV vehicles is an essential product of our planning 
efforts, NASA must gain reliable information from on-going SLS trade 
studies, obtain a better understanding of budget requirements and 
constraints, and develop acquisition strategies that can put 
development on an affordable and sustainable path.
    NASA recognizes it has a responsibility to be clear with the 
Congress and the American taxpayers about our true estimated costs and 
schedules for developing the SLS and MPCV. NASA is committed to keep 
Congress informed about our planning efforts. To this end, NASA will 
acquire independent (outside of the Agency) cost and schedule 
assessments for SLS and MPCV design options as part of its decision 
process this Spring or Summer. Furthermore, NASA will make these 
assessments public.

    Question 7. I am concerned that you will use that protect strategy 
to hold back funds that might otherwise be made available to begin 
development activities for the Space Launch System and the Multi-
Purpose Crew Vehicle ongoing development. It should be clear to you 
from even a cursory reading of the law that those activities have the 
highest priority in the Exploration Systems Mission Directorate--ahead 
of things like Space Technology initiatives, which the law clearly 
states are activities expected to be undertaken in later years, when 
better definition is obtained from the required Decadal Survey of Human 
Space Flight programs. What assurances can you give the Committee that 
its intent to aggressively pursue immediate initiation of SLS/MPCV 
development activities will be followed?
    Answer. NASA is spending all the money allowed to us under the CR. 
Work is continuing on Ares and Orion contracts and hardware, software, 
& tooling that enables SLS and MPCV scenarios at a pace of 
approximately $200M per month.
    It is important to emphasize that NASA currently has the 
flexibility to concentrate its spending on those aspects of the 
Constellation Program that may have applicability to the new SLS and 
MPCV programs, and is doing so, thus maximizing the effective use of 
taxpayer dollars.
    The NASA Authorization Act calls for development of specific 
systems for the SLS and MPCV, including associated program and other 
necessary support. NASA has taken steps to concentrate its spending on 
those aspects of the Constellation Program that may have applicability 
to the new SLS and MPCV programs. In fact, NASA has already scaled back 
funding for some elements of the Ares program that are unlikely to be 
applicable to the SLS Program. At the same time, NASA senior management 
have also deemed it necessary to allow other Ares work that may have a 
higher applicability to the SLS program to continue, albeit at a lower 
level, while NASA works to finalize a development and acquisition 
strategy for the SLS.
    NASA expects to finalize an acquisition strategy and other key 
development decisions as early as the spring 2011. In the meantime, 
NASA has initiated several industry study contracts to help inform 
decisions on the final detailed design concept and acquisition details 
for the SLS. In parallel, NASA will conduct studies on concepts that 
were competitive in our internal trade studies to validate, support, or 
challenge our current thinking in an effort to ensure an affordable 
design that meets Authorization Act requirements.
    Additionally, NASA is assessing requirements in the NASA 
Authorization Act for SLS against contract language for each element of 
Ares (first stage, upper stage, upper stage engine, and avionics) to 
determine whether the new SLS requirements are within scope of the 
current contract. That determination is expected to be completed within 
the next few months.

    Question 7a. In your statement, you refer to the reporting 
requirements outlined in the new law, and indicate that the lack of a 
final resolution of FY 2011 appropriations may hamper NASA's ability to 
meet those reporting requirements. Yet you state--and GAO has 
stipulated--that planning activities are not hampered by the 
restrictive language in prior appropriations. What, then, is the basis 
for delaying the required reports? In addition, you state that interim 
reports may be required in lieu of the final reports. The law does not 
provide for ``interim reports.'' By what assumption or authority do you 
state that ``interim reports'' may be needed, when that is not what the 
law requires? Do you believe the law must be followed only if it is 
convenient for you to do so?
    Answer. On January 10, 2011, NASA provided to Congress an interim 
report on our SLS and MPCV efforts to date, with a commitment to 
provide more extensive details in the FY 2012 Presidential Budget 
Request and in a follow-on report to Congress as early as spring 2011. 
We recognize that Congress wanted more information than we were able to 
provide in the 90-day report. Unfortunately, such a deadline did not 
afford NASA sufficient time to make significant acquisition and 
development decisions for a major programmatic evolution of the kind 
authorized by Congress, especially given the challenge of not having 
final FY 2011 appropriations by the time the report was due to 
Congress. Therefore, in an effort to be as responsive to Congress as 
possible, NASA developed an interim report which noted the progress we 
had made--in particular the definition of two reference vehicle 
designs--with a commitment to provide a follow-on report with more 
extensive details, once finalized, as early as next spring.
    To be clear, much work remains to be accomplished over the next few 
months in terms of the SLS development effort, such as in-depth 
planning to synchronize the schedules and budgets for SLS, MPCV and 
Ground Operations efforts such that each delivers its capability during 
the right timeframe. Since an integrated schedule for the SLS and MPCV 
vehicles is an essential product of our planning efforts, NASA requires 
additional time to gain reliable information from on-going SLS trade 
studies, obtain a better understanding of budget requirements and 
constraints, and develop acquisition strategies that can put 
development on an affordable and sustainable path. NASA feels that 
these activities are essential to provide a responsible response to the 
final report and is pursuing these activities as expeditiously as 
possible.
    NASA recognizes it has a responsibility to be clear with the 
Congress and the American taxpayers about our true estimated costs and 
schedules for developing the SLS and MPCV. NASA is committed to keep 
Congress informed about our planning efforts. To this end, NASA will 
acquire independent (outside of the Agency) cost and schedule 
assessments for SLS and MPCV design options as part of its decision 
process this Spring or Summer. Furthermore, NASA will make these 
assessments public.

    Question 8. On page 3 of your statement, you describe the 
development of monthly funding allocations, and state that ``to date, 
all funds have been or are in the process of being placed on 
contracts'' in the Constellation Program. Yet we continue to hear 
reports of funds being held back from certain contracts. Please provide 
for the record a complete and detailed accounting of the allocations 
made to date, or pending, under the current CR and its replacement 
legislation, expected within the 2 or 3 weeks following this hearing. I 
am especially interested in a complete accounting of any funds being 
held back from active work directly applicable to the major project 
activities, the amounts involved, and the rationale and justification 
for holding or redirecting the funds, in each particular instance.
    Answer. The only Exploration funds held back from distribution to 
the Constellation Program are those for two Boeing contracts comprising 
the $81M in potential termination liability for the Upper Stage 
Production and Upper Stage Instrumentation Avionics contracts. In 
response to recurring inquiries by Boeing, a Special Termination Cost 
(STC) clause was inserted into the Boeing Avionics and Upper Stage 
contracts on January 21, 2010, and January 25, 2010, respectively. 
These STC clauses delineated that potential termination liability costs 
would not be funded on the contract; identified the funding process to 
cover potential termination costs; and set forth the maximum amount of 
termination liability under the contract. In this case, the maximum 
amount of termination liability under the Avionics and Upper Stage 
contracts was set at $29M and $52M, respectively, based upon estimates 
provided by Boeing.
    Under the Continuing Resolutions for FY 2011, NASA has received 
$1,149M for the Constellation Program. Of that amount, $116.8M covers 
civil service costs through March 4, 2011, and $3.1M covers civil 
service travel costs, also through March 4. The remaining $1,029.1M is 
available for use on contracts.
    Of the $1,029.1M available for use on contracts, $144.3M has not 
been issued to projects as of the end of January--$81.0M of that 
$144.3M is withheld to be in compliance with a Special Termination 
Clause (STC) for the two Boeing contracts discussed above. The 
remaining $63.3M of the $144.3M is being held as a prudent contingency 
for late-arising requirements in the current Continuing Resolution 
through March 4.
    As of the end of January, $745.2M of the Constellation CR funding 
has been obligated on contracts and is available to the contractors to 
perform work. Setting aside the legally-required hold-back of $81M for 
in compliance with a Special Termination Clause in two contracts, but 
including the $63.3M contingency, there is $203M available but not yet 
obligated onto contracts.
    However, the $203M not yet on contracts is not preventing 
contractors from performing work. As of the end of January, contractors 
had sufficient funds to both cover their potential termination 
liabilities (and similar items) and to perform new work. Obligating the 
$203M at this time would only add to funds on contract and extend the 
forward funding even further beyond March 4, which is not necessary at 
this time.

    Question 9. On page 4 of your statement, you describe the recent 
Broad Area Announcement and award of Space Act agreements for 13 
companies to conduct studies examining the trade-space of potential 
heavy-lift launch and space transfer vehicle concepts. We understand 
these contracts are subject to available appropriations, and that they 
include completion dates in the six-month range. Yet you are required 
under the law to provide a heavy-lift launch concept definition by the 
middle of January. How do you explain the relationship between that 
near-term requirement and these extended studies which would not be 
available to provide input to the near-term definition? It sounds like 
a further effort to delay a decision on a heavy-lift vehicle design, 
which is in direct conflict with the requirements of the law.
    Answer. NASA is actively developing and executing plans for 
implementing the Space Launch System (SLS) and Multi-Purpose Crew 
Vehicle (MPCV), programs, including efforts to transition the design 
and development efforts of the Constellation Program. We have selected 
a Reference Vehicle Design. We also have a multi-layered approach we 
are using to conduct systems trades and analysis to meet the objectives 
of the Authorization Act.
    In FY 2011, the SLS formulation phase will pursue multiple parallel 
activities to help drive down the development and operations costs for 
the SLS. NASA plans to transition relevant work from the Space Shuttle 
Program and Ares Project to the new SLS Program, while also continuing 
to define the requirements for the new SLS system.
    NASA is performing its analyses using a government Requirements 
Analysis Cycle (RAC), in which ESMD, with support from the SLS Center 
Planning Team at Marshall Space Flight Center, will develop a set of 
SLS requirements by early Spring 2011. These requirements will be 
informed by NASA analysis of the direction in the Authorization Act, 
needed SLS safety, performance, existing national capabilities, and 
Administration priorities. The RAC study team results will be used to 
develop and refine the vehicle design concepts and to determine whether 
the NASA Reference Vehicle Design meets the SLS mission requirements as 
well as the Administrator's goals that the design be affordable, 
sustainable, and realistic. To this end, NASA commits to obtaining 
independent (outside of the Agency) assessments of cost and schedule 
for SLS and MPCV design options as part of its decision process this 
Spring or Summer.
    In parallel with the RAC teams, on November 8, 2010, NASA announced 
the results of the heavy lift and propulsion study contracts that were 
awarded as part of a Broad Agency Announcement (BAA) issued in May 
2010. As part of this competitive solicitation, utilizing approximately 
$7.5M in FY 2010 dollars, NASA selected 13 companies to conduct six-
month studies examining the trade space of potential heavy-lift launch 
and space transfer vehicle concepts.
    While the Broad Agency Announcement (BAA) solicitation was issued 
before the Authorization Act was enacted into law, inputs from the BAA 
study contracts will apply directly to our SLS efforts. For example, 
NASA will use the BAA study contracts to continue to study 
affordability initiatives and approaches for addressing these 
challenges in an effort to achieve the goals of the Act in an 
affordable and sustainable manner. These trade studies will provide a 
``fresh look'' at innovative launch vehicle concepts, propulsion 
technologies and processes that can be infused into the development of 
the new human exploration missions--information that will be used to 
help inform the overall selection and development of the final SLS 
vehicle detailed design.
    In summary, together, these internal and external study efforts 
will be used to conduct systems trades and analysis to meet the 
objectives of the Authorization Act, and information from these efforts 
will be contained in our follow-on report to Congress as early as 
Spring 2011.

    Question 10. On page 5 of your statement, you note the extension of 
the ISS until at least 2020. You indicate that ``activities to increase 
the ISS functionality'' will be delayed until FY 2011 funding is 
received.'' What exactly does that term ``increase the ISS 
functionality'' include, and what is the basis--and impact--of delaying 
those activities?
    Answer. The FY 2011 President's budget request provided additional 
funding to increase ISS functionality and enable utilization of the 
International Space Station (ISS) as a National Laboratory. This is an 
investment to improve the efficiency and effectiveness of the Space 
Station facility itself. It will support ISS upgrade efforts while 
supporting the development of, and proving, new technologies. Projects 
selected will meet one or more of the following objectives:

  <bullet> Reducing demands on crew time;

  <bullet> Lowering ground-based costs;

  <bullet> Mitigating capabilities lost when the Shuttle retires;

  <bullet> Improving ISS software capabilities;

  <bullet> Improving ISS safety;

  <bullet> Benefiting future human spaceflight programs; and/or

  <bullet> Increasing ISS payload throughput capacity.

    Candidate projects under evaluation fall into the following major 
themes:

  <bullet> Upgraded environment systems (air and water)

  <bullet> Upgraded communications (data, audio, and video)

  <bullet> Pressurized volume improvements (space-savers)

  <bullet> Flight and ground crew time optimization tools (automated 
        locaters and links)

  <bullet> Payload operations upgrades and scope expansions (control 
        centers, apparatus and non-profit organization participation)

  <bullet> EVA and robotics enhancements (productivity improvements)

  <bullet> International standards (interface complexity reductions)

    This initiative is contingent upon the availability of appropriated 
funds. Delaying these activities would result in less efficient ISS 
operations than could be achieved through the implementation of the 
efforts noted above.

    Question 11. I also note that nowhere in your statement, when 
referring to the ISS, do you refer to the designation of the U.S. 
Segment as a National Laboratory; nor do you specifically acknowledge 
the legal requirement for allocation of half of that U.S. research 
capability to the independent management entity you refer to, in 
passing, on page 5. Are you fully aware of what the congressional 
intent--and requirements of the law--are regarding that designation of 
a National Laboratory?
    Answer. NASA continues to support the use of the ISS as a National 
Laboratory, as reflected by the Agency's ongoing efforts to expand its 
partnerships with organizations interested in conducting microgravity 
research aboard the Station. Currently, NASA has five Memoranda of 
Understanding (MOUs) with other federal agencies for the use of ISS as 
a National Laboratory, two Space Act Agreements with universities, and 
seven Space Act Agreements with private firms.
    In addition, NASA is moving ahead with a Cooperative Agreement 
Notice (CAN) to implement the use of a Non-Profit Organization (NPO) to 
manage the National Laboratory aspect of ISS, including the allocation 
of 50 percent of Station's U.S. research capability to the National Lab 
partners. The Agency released the CAN on February 14, 2011, and 
anticipates an award in late Spring.

    Question 12. On pages 6 and 7 of your statement, you describe the 
HEFT studies . . . the Human Exploration Framework Team. The function 
of the HEFT studies--as we highlighted in the other questions about 
that effort previously--appears to be rather misunderstood. It also 
appears to ignore the requirement in the law for a Decadal Survey of 
the Human Exploration of Space as outlined in Section 204 of the law--a 
study for which HEFT is specifically called out in the law as one of 
several inputs to that study. Is it clear to you that HEFT is not a 
definitive study effort; that it reaches beyond the scope of the 
activities authorized by the law at the present time? Given the kinds 
of budget assumptions and guidance you have provided to the current 
HEFT activities, it seems that the role of HEFT is being over-stated in 
the internal planning at NASA and is, in effect, under the terms of the 
law enacted since its initiation, a premature activity which is having 
an unwarranted influence in determining the planning assumptions for 
definition of Space Launch System development. Can you provide an 
explanation or assurances that this characterization is not correct?
    Answer. HEFT studies and analyses are part on an on-going and 
continual human exploration architectural analysis effort that are 
vital for prudent planning and responsive execution of the requirements 
outlined in the law. As such, they were initiated prior to the current 
NASA Authorization Act of 2010 and remain on-going cross-Agency 
activity led by the Exploration Systems Mission Directorate, with the 
information intended to objectively inform agency decisionmaking and 
serve as input to any future national studies or assessments. The 
planning assumptions for the definition of the SLS are part of a larger 
system of systems architecture assessment, and important program 
planning and implementation preparatory work is being guided by the 
current law and informed by the technical analysis conducted in several 
on-going Heavy Lift Launch Vehicle assessment efforts. The study effort 
is important because it integrates the essential analysis necessary to 
consider and plan for the direction outlined in the law.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Hon. Elizabeth M. Robinson
    Question 1a. Section 603 of the NASA Authorization Act of 2010 
states that the retiring space orbiters ``shall be made available and 
located for display and maintenance through a competitive procedure'' 
established pursuant to the disposition plan outlined in the 2008 NASA 
Authorization Act. The 2010 law also specifies that certain conditions 
must be met by eligible applicants. Could you describe the competitive 
procedure NASA is undertaking to make the site selections?
    Answer. The NASA Authorization Act of 2008 (P.L. 110-422, Section 
613(a)) directed the Agency to ``submit to Congress a plan describing 
the process for the disposition of the remaining Orbiters and other 
Space Shuttle program-related hardware after the retirement of the 
Space Shuttle fleet.'' NASA submitted the Space Shuttle Program 
Transition and Retirement Personal Property Disposition Plan to 
Congress in November 2008. The NASA Authorization Act of 2010 (P.L. 
111-267, Section 603) restated the direction that Orbiter vehicles 
shall be made available and located for display and maintenance through 
procedures established pursuant to that plan. The Agency's efforts to 
appropriately place the Orbiters remain consistent with that plan.
    The Agency has conducted two Request for Information (RFI) 
inquiries to obtain market research from educational institutions, 
science museums, and other appropriate organizations regarding the 
community's ability to acquire, maintain and display a Space Shuttle 
Orbiter. The first was issued on December 17, 2008, and closed on March 
17, 2009. NASA subsequently updated requirements, detailed tasks to 
safe each Orbiter following its final mission, and determined that NASA 
will no longer ask recipients to provide the Agency the funds for 
Orbiter safing. NASA's estimate of the total cost of receiving an 
Orbiter to a recipient is now $28.8M. In an effort to ensure that: (1) 
all interested parties were made aware of the opportunity to obtain an 
Orbiter for display, and (2) respondents to the previous RFI were aware 
of the revised cost projections and schedule changes, NASA issued a 
follow-on RFI on January 15, 2010, which included cost and delivery 
schedule changes, as well as revised financial milestones. The RFI 
closed on February 19, 2010.
    The Administrator has broad authority to determine the best way to 
meet the Agency's outreach and educational objectives, consistent with 
the priority considerations listed in the NASA Authorization Act of 
2010. Some factors considered include: financial aspects of transfer 
process; quality and availability of facilities; options for 
transporting Orbiters; attendance levels at prospective recipient 
organizations; size of regional population; access to domestic and 
international transportation; and, other factors. However, there is no 
one criterion or combination of criteria that will be used to determine 
the ultimate selection of recipients. The Administrator's decisions 
will be informed by responses to the two RFIs and additional research.

    Question 1b. While I am aware that NASA has released two Requests 
for Information to assist the agency in identifying interested sites, 
has the agency released a Request for Proposal? Does the agency intend 
to release a Request for Proposal? What is the reasoning behind the 
decision?
    Answer. NASA has not released a Request for Proposal (RFP), and has 
no plans to do so. The Administrator has the authority to determine the 
disposition of the Space Shuttle Orbiters. Data gathered from 
interested parties through the RFIs, as well as additional research and 
analysis, will inform the Administrator's decisions.

    Question 1c. Will the Administrator establish a formal site 
selection committee? If there is a selection committee, what will be 
the process by which members are chosen? What is the time-frame for 
this committee member selection to occur?
    Answer. Please see response to Question 1b, above. A formal 
selection review committee was not established. NASA's Office of 
Strategic Infrastructure's (OSI), which is charged with addressing 
Space Shuttle Program property disposition, did market research, 
developed two RFIs, coordinated with museum consortia, and evaluated 
responses from all interested organizations. A proposal was made to the 
Assistant Administrator for OSI that was fully vetted with NASA offices 
including: the Space Operations Mission Directorate, Office of the 
Chief Financial Officer, Office of the General Counsel, Office of 
Communications, and Office of Legislative and Intergovernmental 
Affairs. A coordinated staff recommendation was made to the 
Administrator. The Administrator's announcement is pending, currently 
scheduled for April 12, 2011.

    Question 1d. Will geographic diversity be a consideration in the 
site selection process?
    Answer. Yes, geographic diversity is a consideration in the site 
selection process, especially those factors pertaining to attendance at 
a prospective recipient organization, the size of the regional 
population and access to domestic and international transportation. 
There is no single criterion that will determine the placement of the 
Space Shuttle Orbiters.

    Question 1e. Will the White House be involved in making the final 
decisions?
    Answer. No, the White House is not involved in making the final 
decisions on Orbiter placement; that authority rests with the NASA 
Administrator.

    Question 1f. What is the time line for the final decisions to be 
made?
    Answer. NASA is currently targeting April 12, 2011 for announcing 
the selection of Orbiter recipient organizations.
    Question 2a. Section 603 of the Act authorizes federal funds to 
cover the costs of decommissioning the shuttles. Congress's rationale 
behind this provision was to enable NASA to choose the best site 
candidates rather than those with the deepest pockets.
    However, I understand that in the Request for Information that the 
agency provided to museums and interested locations subsequent to the 
NASA Authorization Act of 2008 but prior to the NASA Authorization Act 
of 2010, it was stipulated that $28.8M was required by any interested 
site to cover NASA expenses for decommissioning a shuttle. Could you 
please comment on the $28.8M price tag and NASA's basis for that 
figure? As you may recall, the initial estimate was $42M.
    Answer. In the initial 2008 RFI, it was assumed that the recipient 
organization would pay for the safing of the Orbiter, as well as for 
display preparation tasks and ferry costs, and NASA projected the cost 
to the recipient at $42M. One reason for the release of the second RFI 
in 2010 was to inform interested parties that NASA would be paying the 
costs to safe the Orbiters (safing tasks remove from Orbiters systems 
and materials that would present hazards for long-term storage or 
disposition of the vehicles).
    In addition to NASA paying for the cost of safing the vehicles, the 
Agency also generated a new estimate for display preparation and ferry 
costs. The revised estimate for total cost to the recipient 
organizations was $28.8M. The $28.8M cost is the sum of two component 
costs: $20.5M for ``Display Preparation'' and $8.3M for ``Ferry.'' NASA 
defines these two tasks as mandatory work to provide an Orbiter to a 
recipient.
    $20.5M is required for Display Preparation which includes the 
reinstallation of safed orbiter vehicle systems or substitutes for 
orbiter vehicle systems; provision of new special hazard notices and 
controls; and configuration of the vehicle to allow it to be 
transported to and reside in its final destination. Tasks include set 
up of the Crew Module in flight configuration, installation of 
structural shells and skins for the previously removed Orbital 
Maneuvering System pods, Forward Reaction Control System, and internal 
cabin structural panels, as well as final closeout of the payload bay, 
wings and the aft compartment. Display preparation also includes costs 
for NASA to configure the orbiter for ferry flight per existing Space 
Shuttle Program ferry flight requirements; preparation and sign-off of 
the Ferry Flight Readiness Statement, as well as preparation and 
delivery of the NASA display site ``kit.''
    The $8.3M ``Ferry'' cost is the work to fly the orbiter to an 
airport near the display site. The airport must meet specific criteria 
that allow landing the Shuttle Carrier Aircraft (SCA) with attached 
orbiter. The orbiter will remain in Ferry Flight Configuration. The 
major tasks include: actual ferry of orbiter, offload & tow to final 
location; positioning the orbiter on jack stands and deservicing 
Hydraulic System #1; renting two NASA approved mobile cranes, on-
loading/off-loading the orbiter to/from the SCA; shipment of Ground 
Support Equipment (GSE) required from and to NASA KSC; travel cost and 
rentals of hi-lifts, access stands, etc.; and Shuttle Carrier Aircraft 
and Shuttle Landing Facility costs to conduct the ferry operation.
    Also included is the ground support equipment (GSE) required to 
support final NASA public display site requirements, including ``Data'' 
packs (MSDS equivalent for remaining passive hazards; orbiter system 
configuration summary).

    Question 2b. Is NASA still requiring applicants to cover this 
expense when doing so appears to contradict language in the NASA 
Authorization Act? Won't NASA have to decommission the shuttles for 
safety reasons, regardless of where the shuttles are ultimately stored 
or displayed?
    Answer. The large majority of the $28.8M to be paid by recipients 
supports work that NASA would not do in order to place the Orbiters in 
storage. Requiring the recipient organizations to pay display 
preparation and ferry costs does not contradict language in the NASA 
Authorization Act of 2010 (P.L. 111-267). Having the recipient 
organizations provide funding for display preparation and ferry costs 
of their Orbiter is an appropriate way to defray the cost to the 
taxpayer of retiring and displaying the Orbiters to ensure that these 
historic vehicles are retained in facilities properly equipped to 
maintain and display them.

    Question 2c. Will the ``safing'' work be performed by NASA 
personnel or by NASA contractors? Does NASA envision the work to be 
performed in parallel or in series? If the work is performed serially, 
should NASA expect savings through gains made from the learning curve?
    Answer. Activities associated with safing the Orbiters are 
conducted after each Shuttle mission, and are carried out primarily by 
contractor personnel, with NASA personnel providing safety and 
assurance oversight.
    Activities associated with display preparation and ferrying the 
Orbiters to the recipient organizations will be paid for by the 
recipients, and will be carried out primarily by NASA contractor 
personnel with NASA personnel providing safety and assurance oversight. 
Display preparation tasks will be performed in parallel, for the most 
part, and NASA does not expect savings to accrue based on experience 
gained from processing the Orbiters.

    Question 3a. NASA has publicly indicated an interest in placing one 
of the retiring shuttles at the Smithsonian. Section 603 of the Act 
provides the Smithsonian with the authority to ``determine any new 
location for the Enterprise,'' the orbiter test vehicle currently 
housed at the National Air and Space Museum. It would be my assumption 
that if the Smithsonian were chosen as the recipient of a retiring 
shuttle, the Smithsonian would then determine a new location for the 
Enterprise. Has the Smithsonian responded to the Requests for 
Information issued by the agency?
    Answer. NASM was not required to respond to the RFIs as addressed 
in the NASA Space Shuttle Program Transition and Retirement Personal 
Property Disposition (T&R) Plan as submitted to Congress in November 
2008. The T&R plan suggested that one flight Orbiter would be 
transferred to NASM and that an RFI would be issued to inform decisions 
on subsequent Orbiter placement. The RFI additionally addressed a joint 
effort by NASA and NASM to subsequently place the Orbiter Enterprise.

    Question 3b. Is NASA requiring the Smithsonian to pay $28M for a 
shuttle--an amount that equals the National Air and Space Museum's 
total annual budget?
    Answer. NASA intends to fund the cost of providing Discovery to 
NASM. NASM has the unique responsibility of being the curator of the 
national collection. Given this unique responsibility, the NASA 
Administrator decided it is in the best interests of the Nation to 
ensure NASM received a flight orbiter, and that NASA assume the costs 
for ensuring that this happened so as not to detract from NASM overall 
responsibilities in safeguarding its historic collection.
    NASM and NASA have agreed to discuss the appropriate placement of 
Enterprise. The costs to prep and ferry the Enterprise will be paid by 
the recipient of the Enterprise.

    Question 4a. The Act calls for ``a balance between human space 
flight using and building upon existing capabilities and investing in 
and enabling new capabilities'' What is the current status of solar 
electric propulsion research at NASA?
    Answer. During FY 2011, ESMD has accelerated their solar electric 
propulsion (SEP) investment strategy because of its potential 
performance benefits as an in-space transportation option to a variety 
of deep space destinations. The Human Exploration Framework Team (HEFT) 
identified SEP as a necessary and enabling technology for future deep 
space missions due to its ability to significantly reduce the mass and 
cost of such missions. The underlying technologies including, solar 
power arrays, hall thrusters and power management, have completed 
ground testing to the extent that the next logical step is an in-space 
technology-focused flight demonstration. Current plans call for 
initiation of a 30 kW class SEP technology demonstration mission as a 
precursor to an operational human exploration vehicle in the 300 kW 
class. With the movement of a large portion of the Exploration 
Technology development effort to Space Technology in FY 2012 and 
beyond, the Office of the Chief Technologist (OCT) plans to pursue an 
in-space SEP Technology Demonstration Mission as one of the first two 
Exploration-specific projects in this line.

    Question 4b. How much is NASA budgeting for the solar electric 
propulsion demonstration in FY 2011--FY 2015 time-frame since it 
factors strongly into the Human Exploration Framework Team architecture 
for future space missions?
    Answer. In FY 2011 (under ESMD), NASA plans to invest approximately 
$8M in planning for the SEP flight demonstration. In FY 2012 through FY 
2015 (under OCT), NASA plans to invest an additional $75-200M subject 
to the results of an FY 2011 Phase A (Conceptual Design) study, and the 
conclusion of technology partnership discussions initiated with other 
government agencies.

    Question 5. Last month, it was reported that China has efforts 
underway to develop a 1M pound force liquid hydrocarbon engine. For 
purposes of comparison, the current Russian built engine used on the 
Atlas 5 rocket has 860 thousand pounds of thrust at sea level.
    I am told that these types of high performance hydrocarbon engines 
essentially burn kerosene and are more environmentally friendly than 
shuttle derived technology. My understanding is that the U.S. Air Force 
has a small program to look into these types of engines to meet its 
needs, but NASA has chosen not to invest in advanced liquid hydrocarbon 
engines.

        (a) Is it the case that NASA is not investing in the 
        technology? If so, why not?

        (b) Does NASA see any potential benefits in this technology in 
        comparison to shuttle derived technologies?

        (c) Are there potential downsides if the U.S. is not actively 
        engaged in this specific area of advanced rocket engine design 
        and development?

    Answer. The rocket propulsion industry in all phases (production, 
testing and launching) involve the use of hazardous and/or toxic 
chemicals therefore all systems have environmental impacts. However, 
during the design phase of the rocket, engineers consider the potential 
environmental impact and design the system to meet the regulatory 
requirements, thus mitigating or minimizing the environmental impact to 
an acceptable risk level.
    (a) The FY 2011 NASA Budget proposed the development of a large 
liquid hydrocarbon rocket engine as part of the Heavy Lift and 
Propulsion Technology efforts. However, in the NASA Authorization Act 
of 2010 enacted on October 11, 2010, NASA has been directed to develop 
a SLS that ``to the extent practicable utilize existing contracts, 
investments, workforce, industrial base, and capabilities from the 
Space Shuttle, and Orion and Ares projects.'' The liquid engines within 
these systems are based on a liquid hydrogen and liquid oxygen and do 
not use liquid hydrocarbon (typically kerosene).
    (b) There are positive attributes to both the large hydrocarbon 
(kerosene) engine development as well as using Shuttle-derived systems. 
Kerosene systems tend to be less expensive to operate however the 
upfront development costs for a new engine may be large. The Shuttle-
derived systems, although likely more costly to operate, would allow 
the Agency to take advantage of previous investments and leverage the 
heritage workforce knowledge and assets at a reduced development cost 
upfront.
    (c) Currently there are only two domestic vendors that are actively 
developing kerosene engines but nowhere near the thrust levels that 
China is reportedly pursuing. Engine development of a large (1M pounds 
thrust or greater) kerosene engine is not considered advanced 
development, but there are challenges that need to be overcome such as 
combustion stability issues, material compatibility as well as low-cost 
produce-ability challenges. The U.S. liquid propulsion system 
industrial sector is under significant stress due primarily to the low 
demand of launch services, hence the decrease in the need for liquid 
propulsion skills and manufacturing capabilities. Development of a 
domestically manufactured large hydrocarbon engine would provide the 
liquid propulsion industrial base with additional work, relieving some 
of the stress on the sector.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                       Hon. Elizabeth M. Robinson
    Question. The Kodiak Launch Complex in Alaska is a state-of-the-art 
facility that provides a flexible, efficient and economical launch 
capability to its customers. On November 19, 2010, the Kodiak Launch 
Complex successfully launched STP-S26, which contained two NASA 
satellites as part of its payload. Are you familiar with Kodiak Launch 
Complex facility? How do you see commercial facilities like Kodiak 
Launch Complex playing a role in space access especially as NASA 
retools its mission under the recently passed NASA Authorization Act of 
2010?
    Answer. NASA is very familiar with the Kodiak Launch Complex. 
Moreover, the Agency had responsibility for the first orbital launch 
utilizing the Complex. NASA's Launch Services Program purchased and 
assured the launch service for the Kodiak Star Mission, which launched 
in September 2001 carrying four satellites into Earth orbit: the NASA-
sponsored Starshine 3, and three satellites sponsored by the Department 
of Defense Space Test Program (STP): PICOSat, Prototype Communications 
Satellite (PCSat), and Sapphire. This was the last launch of the 
heritage Athena launch vehicle. The Kodiak Star and STP-S26 campaigns 
utilized the Wallops Flight Facility's Mobile Range.
    NASA encourages the development of commercial launch ranges for 
increased space access for an array of mission types for their 
potential to reduce costs and increase our nation's launch capability. 
In the case of uncrewed science missions, NASA procures commercial 
launch services from launch providers under the NASA Launch Services 
(NLS) contracts. Each provider offers services from one or more launch 
sites. The specific vehicle type and launch location is selected 
through a best-value determination depending upon mission requirements. 
Lockheed Martin, with its yet-to-be-flown Athena IC and IIC, is the 
only current NLS provider who offers NASA launches from Kodiak. From 
this launch site, Athena is suited to meet performance requirements for 
smaller spacecraft missions recommended in the National Research 
Council's Earth Science Decadal Survey.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                       Hon. Elizabeth M. Robinson
    Question. Can you provide the construction timeline of the A-3 test 
stand NASA will adhere to in order to comply with section 304(b)(3) of 
the NASA Authorization Act of 2010, and provide quarterly updates on 
progress through completion?
    Answer. The A-3 Test Stand currently being constructed at Stennis 
Space Center was approximately 70 percent complete at the end of 
January 2011. NASA is committed to completing the A-3 Test stand, 
contingent on available funding.
    The 2010 NASA Authorization Act sets a goal for the A-3 completion 
by September 30, 2013. However, NASA does not anticipate being able to 
meet that goal. Funding available in the current Continuing Resolution 
(CR), which expires March 4, will likely delay the completion and 
acceptance of the test stand by as much as 8 months. Additional delays 
are likely if NASA were to operate under a full-year CR.
    The table below identifies the major construction milestones and 
their estimated completion dates, contingent on available funding. The 
estimated completion dates do not account for delays in funding due to 
a CR.

------------------------------------------------------------------------
    Major Construction Milestone         Estimated Date of Completion
------------------------------------------------------------------------
Construct Upper level Signal                                 08/31/2011
 Conditioning Bldg
Construct Tool Crib                                          07/29/2011
Installation and Calibration of Run                          07/29/2011
 Tank and Gauge Float
Fabrication and Installation of the                          03/20/2012
 Cooling Elbow Water Piping
Fabricating and Installation of                              03/20/2012
 High Pressure Industrial Water
 Filters and Isolation Valves
Procurement and Installation of                              09/03/2012
 Monitoring, Measuring Control
 System (MMCS)
Installation of Isolation Valve,                             07/06/2011
 Thrust Measurement System and
 Chemical Steam Generator (CSG)
 System Skids
Activation of MMCS                                           09/06/2013
Activation of CSG System                                     09/30/2013
Site Work and Paving                                         01/17/2013
------------------------------------------------------------------------

    NASA would be willing to provide the Senator with a current status 
briefing about the A-3 test stand, at his convenience, and we will, of 
course, keep our committees apprised of future major developments 
regarding the A-3.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Orrin G. Hatch to 
                       Hon. Elizabeth M. Robinson
    Question 1. Dr. Holdren and Dr. Robinson, senior NASA officials 
have recently stated ``solid [rocket motors] are too expensive.'' 
However, pre-Columbia accident production costs for all the elements 
associated with Space Shuttle liquid propulsion systems, including 
engines, external tank, fuel, and pre-flight testing is approximately 
$800M per year. By comparison, the costs for a solid propulsion system, 
including motor and booster elements is approximately $550M per year. 
This less expensive cost is also reflected in the Fiscal Year 2010 
development amount of $940M for the Ares I Upper Stage propulsion 
system; whereas the system's solid rocket motor First Stage cost only 
$460M.\1\ Therefore, how does NASA's data substantiate the claim 
``solids are too expensive''? How recent is NASA's data on the cost of 
solid rocket motors?
---------------------------------------------------------------------------
    \1\ However, it goes without saying an upper stage and a solid 
rocket motor first stage are essential to meeting the legal parameters 
articulated in the NASA Authorization Act of 2010.
---------------------------------------------------------------------------
    Answer. NASA recently performed a study identifying attributes and 
characteristics of both solid and liquid propulsion systems and found 
that the data does not indicate that one system is inherently more cost 
effective than the other. Furthermore, the research found that there 
was no statistical difference between the non-recurring costs of a 
liquid system versus a solid propulsion system. Not knowing the 
pedigree of the figures cited above in the question, NASA cannot 
respond or defend those figures. The current contract values (FY 2011 
first quarter data) for the Design Development Test and Evaluation 
contracts for upper stage engine and first stage respectively are $1.3B 
and $2.0B for a period of performance of September 2014 and June 2015, 
respectively.

    Question 2. Dr. Robinson, as defined by the Anti-Deficiency Act, 
how many ``uncosted'' funds does NASA currently have for Fiscal Year 
2011? What is the amount of NASA termination liability if NASA canceled 
Project Constellation in Fiscal Year 2011?
    Answer. The Anti-deficiency Act (ADA) greatly limits NASA's options 
for dealing with termination liability. NASA uses cost-reimbursement 
contracts for most of the Constellation program, which require a 
Limitation of Funds clause to comply with the ADA. The Limitation of 
Funds clause (Federal Acquisition Regulation 52.232-22), in paragraph 
(h), states, ``the government is not obligated to reimburse the 
Contractor for any costs incurred in excess of the total amount 
allotted by the government to this contract, whether incurred in the 
course of the contract or as a result of termination'' (emphasis 
added). Accordingly, it is the responsibility of the contractor, in the 
first instance, to manage all of its costs and obligations within the 
allotted funding under this Limitation of Funds clause. And, on July 
26, 2010, the GAO issued the opinion, which found that NASA's actions 
are in full compliance with the Impoundment Control Act and the 2010 
Appropriations Act. GAO further found that NASA's interpretation of the 
Anti-Deficiency Act is, in fact, correct. Both rulings can be found at 
http://www.gao.gov.
    Potential term liability for Constellation prime contracts is 
approximately $920M. This includes $500M for ATK, who has stated to 
NASA that they are planning to cover their termination liabilities, if 
they occur, from amounts not dedicated to the contract. All other 
contractors over the past several months have reduced their level of 
activity to accommodate their potential termination liability. ESMD 
uncosted at the end of FY 2010 was approximately $900M for FY 2004-2010 
funds.
    At the end of FY 2010, NASA's total uncosted balance for Program 
Year 2004-2010 funds was $5.6B.

    Question 3. Dr. Holdren and Dr. Robinson, Section 309 of the NASA 
Authorization Act requires NASA to provide a report to Congress which 
articulates the design of the new Space Launch System by mid January 
2011. Will NASA fully complete a final version of such a report by that 
date? If not, will the report be sufficient to establish a program of 
record, or baseline program, to begin the development of the Space 
Launch System?
    Answer. On January 10, 2011, NASA provided to Congress an interim 
report on the our SLS and MPCV efforts to date, with a commitment to 
provide more extensive details in the FY 2012 Presidential Budget 
Request and in a follow-on report to Congress as early as Spring 2011. 
We recognize that Congress wanted more information than we were able to 
provide in the 90-day report. Unfortunately, such a deadline did not 
afford NASA sufficient time to make significant acquisition and 
development decisions for a major programmatic evolution of the kind 
authorized by Congress, especially given the challenge of not having 
final FY 2011 appropriations by the time the report was due to 
Congress. Therefore, in an effort to be as responsive to Congress as 
possible, NASA developed an interim report which noted the progress we 
had made--in particular the definition of two reference vehicle 
designs--with a commitment to provide a follow-on report with more 
extensive details, once finalized, as early as next Spring.
    As noted in the report, in choosing a Reference Vehicle Design for 
the SLS, NASA took a significant step forward in the SLS development 
process. Consistent with direction in the Act, the Agency has decided 
to use a Reference Vehicle Design for the SLS that is derived from Ares 
and Shuttle hardware. The current concept vehicles would utilize a 
liquid oxygen/liquid hydrogen core with five RS-25 Space Shuttle Main 
Engine-derived engines, five-segment solid rocket boosters, and a J-2X 
based Upper Stage for the SLS. This would allow for use of existing 
Shuttle and Ares hardware assets in the near term, with the opportunity 
for upgrades and/or competition downstream for eventual upgrades in 
designs needed for affordable production.
    More specifically, NASA has developed a process to make progress on 
the Reference Vehicle Design for the SLS while the Agency determines 
whether the design is sufficiently affordable, sustainable, and 
realistic, and also while the Agency studies other options to solicit 
innovative ideas and ensure the best value for the American taxpayers.
    By spring of 2011, NASA expects to have completed several key 
analytical steps--information that will be contained in our follow-on 
report to Congress:

  <bullet> Analysis of the current Ares and Shuttle contracts for their 
        applicability to the future development program;

  <bullet> Analysis of the cost and benefits of the Reference Vehicle 
        Design and other vehicle designs;

  <bullet> Analysis of potential initial procurement approaches (in the 
        case when procurements are required, NASA will follow 
        applicable procurement regulations, including the March 4, 
        2009, Presidential Memorandum on Government Contracting).
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Cristina T. Chaplain
    Question 1. Has your office been contacted regarding its 
participation in, or oversight of, the ISS sustainability study 
required in Section 503(b) of P.L. 111-267?
    (NOTE: The pertinent language is at Section 503(c)(2) and states:
    ``(2) GAO Report.----
    (A) Report Required.--Not later than 90 days after the submittal to 
Congress under paragraph (1) of the assessment required by subsection 
(b), the Comptroller General of the United States shall submit to the 
appropriate committees of Congress a report on the assessment. The 
report shall set forth an evaluation of the assessment by the 
Comptroller General, including an evaluation of the accuracy and level 
of confidence in the findings of the assessment.
    (B) Cooperation with GAO.--The Administrator shall provide for the 
monitoring and participation of the Comptroller General in the 
assessment in a manner that permits the Comptroller General to prepare 
and submit the report required by subparagraph (A).
    (Emphasis added showing portion which directs NASA Administrator to 
provide for GAO to monitor and participate in the required NASA 
assessment of ISS sustainability requirements)
    Answer. Yes, my office has been coordinating with the ISS program 
office since December. The ISS Program office has shared the report and 
supporting information and has met extensively with my staff to discuss 
the data, methodology for analysis, and the findings of the study. We 
anticipate delivering a preliminary report on April 11, 2011.

    Question 2. Your statement places emphasis on design stability 
prior to proceeding to implementation. The recent new law adopts a 
``proven-heritage'' approach to SLS development, requiring maximum use 
of design elements with a large body of experience and knowledge behind 
them. Do you agree that, if implemented by NASA in his way, it will 
contribute to an increased chance for successful Space Launch System 
development?
    Answer. Adopting a ``proven heritage'' approach to SLS development, 
in which the program is based on heritage elements, if done correctly, 
can reduce risk and build off of the hard work that has been done to 
date on the Constellation Program. However, our work has shown that 
NASA frequently employs heritage technologies that have to be modified 
from their original form, fit, and function and frequently 
underestimates the time and money it will take to allow them to operate 
in a modified design. NASA's Systems Engineering Handbook states that 
particular attention must be given to heritage systems because they are 
often used in architectures and environments different from those in 
which they were designed to operate. Further, the Handbook states that 
modification of heritage systems is a frequently overlooked area in 
technology development and that there is a tendency by project 
management to overestimate the maturity and applicability of heritage 
technology to a new project. Likewise, our work has shown that NASA's 
cost estimates generally underestimate the cost of adopting heritage 
technologies. Thus, while building off the progress made on prior 
programs can benefit the new SLS program, Congress should take steps to 
ensure that NASA is realistic in how it is estimating the applicability 
of these heritage designs to the SLS program.

    Question 3. The focus on early transparency and accountability in 
our recommendations is exactly what we are looking for in the Section 
309 reporting requirement, both for the initial SLS conceptual design 
and the subsequent annual reporting requirement. We anticipate the 
near-term outcome of the initial 90-day report to result in a 
``baselined'' program. What else do you believe we should be looking 
for in our oversight of NASA to ensure transparency and accountability?
    Answer. The reporting requirement outlined in Section 309 of the 
NASA Authorization Act is a positive step for ensuring that NASA is 
held accountable for delivering what it promises and that the Congress 
is well informed of the status of the program. Additional information 
that could enhance oversight and help to ensure greater accountability 
could include requiring NASA to report information to the Congress on 
early planning cost baselines and how the agency is or is not 
maintaining those cost projections. As I mentioned in my written 
statement, currently NASA shares very little cost information prior to 
formally baselining a project. This puts Congress in the position of 
approving a long term effort with only the benefit of a five-year 
budget projection.
    Of course NASA needs time for discovery and to pursue different 
options, but the Congress can be provided earlier indication to how the 
project is doing based upon how well the project is meeting its 
planning baselines. Deviations from these baselines should easily be 
explained by the information required by Section 309, for example 
information on trades, modifications, schedule changes, changes in 
assumptions, and justifications for deviations from requirements. 
Attaching a dollar figure to the information required to be reported 
will ensure that the reason behind any change is presented in a 
transparent way to Congress such that it can fully understand the basis 
behind any cost increases and make its funding decisions accordingly.
    As I discussed in the hearing, there are other knowledge-based 
metrics that should be used to gauge NASA's progress in the earlier 
phases of SLS development. They include: requirements stability, 
technology readiness and design maturity, which assess the level of 
unknowns being carried forward into development. Based on experiences 
of prior programs, it is also important to assess: (1) the level and 
use of management reserves and (2) contract-related activities, 
specifically whether high risk approaches are being used--such as 
undefinitized contracts.

    Question 4. Your statement makes a strong point about matching 
resources and requirements (see page 7) and also emphasizes the need 
for ``performance and requirements flexibility in early phases of 
development,'' and the acceptability to ``reduce, eliminate, or defer 
some capabilities so the project's requirements could be matched with 
the resources available to deliver it within the desired time fame.'' 
(page 8). We believe the ``evolvable'' nature of the SLS development 
approach required by the law, and the upper stage and advanced 
technology developments for beyond-Low Earth Orbit capabilities are 
tailored to be in line with what your are recommending. Do you believe 
that is an important ``success-oriented'' feature of the provisions and 
approach taken by the law?
    Answer. The requirement for the SLS to be evolvable in nature is in 
line with our prior reviews of stable programs, where requirements are 
scaled to a minimum. Through this approach, projects are encouraged to 
incorporate known, proven technologies, while work is completed on more 
advanced technologies to meet future requirements. While the stable 
programs we studied pursued capabilities through evolutionary or 
incremental acquisition strategies a number of other things had to be 
in place, or in practice, for this approach to work. Specifically, the 
projects also had clear and well-defined requirements, received stable 
funding, leveraged mature technologies and production techniques, and 
established realistic cost and schedule estimates that accounted for 
risk. In addition, they executed their business plans in a disciplined 
manner and resisted pressures for new requirements. As I mentioned 
before, NASA has a history of not following through on some of these 
aspects or underestimating the risks associated with their approach. 
The reporting requirements from Section 309 will help the Congress 
ensure that these other aspects are in place. The bulk of the 
responsibility, however, will fall on NASA leadership to instill a 
disciplined management approach to the project that encourages a 
realistic identification of risks and progress and that holds managers 
accountable for project decisions.
                                 ______
                                 
                    Office of Science and Technology Policy
                          Executive Office of the President
                                   Washington, DC, December 7, 2010
Hon. David Vitter,
Senate Committee on Commerce, Science, and Transportation,
U.S. Senate
Washington, DC.

Dear Senator Vitter:

    I am writing to follow up on our discussions at the December 1 
hearing regarding implementation of the 2010 National Aeronautics and 
Space Administration (NASA) Authorization Act and your specific request 
for a letter addressing the Administration's support for language in a 
Continuing Resolution (CR) that would enable NASA to move expeditiously 
forward.
    Making immediate progress in advancing the goals and requirements 
contained in the 2010 NASA Authorization Act is a goal I believe we 
both share. However, as both you and the U.S. Government Accountability 
Office noted at the hearing, the FY 2010 NASA appropriation contains 
limitations on the transfer of funds from certain programs, and also 
contains limitations on using funds to ``create or initiate a new 
program, project or activity, unless such program termination, 
elimination, creation, or initiation is provided in subsequent 
appropriations Acts.''
    At the hearing, you specifically asked whether the Administration 
would support the inclusion of language in an FY 2011 CR (or other 
appropriations vehicle as applicable) that would address these 
limitations and facilitate NASA's ability to proceed with full and 
timely implementation. I would like to take this opportunity to 
reiterate the Administration's support for language in either an FY 
2011 CR or other relevant FY 2011 appropriations measure that would 
enable NASA to move forward in executing the full range of programs and 
initiatives described in the 2010 NASA Authorization Act, without the 
restrictive language contained in the FY 2010 appropriation or current 
FY 2011 CR. Enabling transfers and new starts, as required by the 2010 
NASA Authorization Act, will enable NASA to more effectively implement 
the direction provided in this Act, which will in turn help us chart a 
new path forward in space and help to ensure that America's space 
program remains a shining beacon of American ingenuity and discovery.
    Indeed, immediately following the hearing, the Administration sent 
a request to Congress for a broadly applicable, U.S. government-wide 
provision that would enable both the initiation of new projects and the 
transfer of funds from existing projects in the event of a FY 2011 CR, 
and this request would of course be applicable to NASA.
    I appreciate the opportunity to appear before the Senate Commerce 
Committee and share with you and other members of the Committee the 
Administration's views on how we and the Congress can work together to 
make implementation of the 2010 NASA Authorization Act an unqualified 
success. As we continue our collective efforts to help NASA advance 
this bold new era of innovation, exploration; and discovery, I look 
forward to any future discussions with you or other members of the 
Committee on this important topic.
            Sincerely,
                                           John P. Holdren,
                                                          Director.
Cc: The Honorable John D. Rockefeller IV
    The Honorable Bill Nelson
    The Honorable Kay Bailey Hutchison
    The Honorable Barbara A. Mikulski
    The Honorable Richard C. Shelby

                                  <all>

</pre></body></html>
